<html>
<title> - FIELD HEARING ON THE TARGHEE NATIONAL FOREST</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
              FIELD HEARING ON THE TARGHEE NATIONAL FOREST

=======================================================================

                             FIELD HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

  THE TARGHEE NATIONAL FOREST ROAD CLOSURES AND THE TARGHEE NATIONAL 
        FOREST TRAVEL PLANS DRAFT ENVIRONMENTAL IMPACT STATEMENT

                               __________

                   FEBRUARY 13, 1999, REXBURG, IDAHO

                               __________

                            Serial No. 106-8

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources



                     U.S. GOVERNMENT PRINTING OFFICE
55-181                       WASHINGTON : 1999




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JOHN J. DUNCAN, Jr., Tennessee       ADAM SMITH, Washington
JOHN T. DOOLITTLE, California        DALE E. KILDEE, Michigan
WAYNE T. GILCHREST, Maryland         OWEN B. PICKETT, Virginia
JOHN PETERSON, Pennsylvania          RON KIND, Wisconsin
RICK HILL, Montana                   GRACE F. NAPOLITANO, California
BOB SCHAFFER, Colorado               TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
                                     ---------- ----------
                                     ---------- ----------
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 13, 1999...................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
    Simpson, Hon. Mike, a Representative in Congress from the 
      State of Idaho.............................................     7

Statements of witnesses:
    Barrett, Hon. Lenore, Idaho State Representative.............    48
    Blackwell, Jack, Regional Forester, Ogden, Utah accompanied 
      by Jerry Reese, Forest Supervisor, Targhee National Forest.    62
        Prepared statement by....................................   100
    Brown, Janice, Executive Director, Henry's Fork Foundation, 
      Ashton, Idaho..............................................    56
        Prepared statement by....................................    98
    Burns, John, Former Targhee National Forest Supervisor, 
      Carmen, Idaho..............................................    37
        Prepared statement by....................................    96
    Christiansen, Neal, County Commissioner, Ashton, Idaho.......    13
        Prepared statement by....................................    83
    Cook, Adena, Public Lands Director, Blue Ribbon Coalition, 
      Idaho Falls, Idaho.........................................    12
        Prepared statement by....................................    81
    Craig, Hon. Larry, a United States Senator in Congress from 
      the State of Idaho.........................................     3
    Crapo, Hon. Mike, a United States Senator in Congress from 
      the State of Idaho.........................................     5
    Gehrke, Craig, Regional Director, Idaho Wilderness Society, 
      Boise, Idaho...............................................    49
        Prepared statement by....................................    92
    Gerber, Jim, President, Citizens for a User-Friendly Forest, 
      St. Anthony, Idaho.........................................    10
        Prepared statement by....................................    75
    Hawkins, Hon. Stan, State Senator, Boise, Idaho..............     9
        Prepared statement by....................................    75
    Hoyt, Marv, The Greater Yellowstone Coalition, Idaho Falls, 
      Idaho......................................................    21
        Prepared statement by....................................   103
    Ingot, Bill, Rancher, Island Park, Idaho.....................    51
    Jeppesen, Gerald, Madison County Commissioner, Rexburg, Idaho    24
        Prepared statement by....................................   115
    Lyons, Hon. James R., Under Secretary, Natural Resources and 
      Environment, U.S. Department of Agriculture, prepared 
      statement of...............................................    93
    Mackert, Brett, Commander, Fremont County Search and Rescue, 
      St. Anthony, Idaho.........................................    26
    Mealey, Stephen P., Director, Idaho Fish and Game, Boise, 
      Idaho......................................................    35
        Prepared statement by....................................    87
    Moulton, Roy, Former County Attorney, Driggs, Idaho..........    53
        Affidavit by.............................................   128
    Robson, Brent, Teton County Commissioner, Driggs, Idaho......    55
        Affidavit by.............................................   130
    Ruesink, Robert, Snake River Basin Office Supervisor, U.S. 
      Fish & Wildlife Service, Idaho accompanied by Michael 
      Donahoo, Eastern Idaho Field Supervisor, U.S. Fish & 
      Wildlife Service, Pocatello, Idaho.........................    60
    Shurtleff, Bill, Commission Chairman, Bonneville County Board 
      of Directors, Idaho Falls, Idaho...........................    23
        Prepared statement by....................................    87
    Siddoway, Jeff, Idaho Fish and Game Commission, Terreton, 
      Idaho......................................................    40
    Thomas, Eric, Recreationist, St. Anthony, Idaho..............    58
    Wood, Hon. JoAnn, Idaho State Representative.................    46

Additional material supplied:
    Idaho Environmental Council, prepared statement of...........   147
    U.S. Fish & Wildlife Service, prepared statement of..........   138


  FIELD HEARING ON THE TARGHEE NATIONAL FOREST ROAD CLOSURES AND THE 
    TARGHEE NATIONAL FOREST TRAVEL PLANS DRAFT ENVIRONMENTAL IMPACT 
                               STATEMENT

                              ----------                              


                           FEBRUARY 13, 1999

              House of Representatives,    
                         Subcommittee on Forest    
                                 and Forest Health,
                                    Committee on Resources,
                                                    Rexburg, Idaho.
    The Subcommittee met, pursuant to call, at 1:03 p.m., in 
the Rexburg Tabernacle, 51 North Center Street, Rexburg, Idaho, 
Hon. Helen Chenoweth [Chairman of the Subcommittee] presiding.
    Mrs. Chenoweth. The Subcommittee on Forest and Forest 
Health will now come to order.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. I want to thank all of you for coming out 
today. And I just want to say that during this hearing, we 
appreciate all of you offering each other the courtesy that is 
needed for us to be able to make sure everyone on the panels 
are heard and that everyone has their chance to testify and 
that those of you in the audience can see those who are 
testifying; so we would ask if the signs could come down. If 
you wish to display them or hold them, you are welcome to stand 
along the side.
    So thank you all very much for attending this very 
important hearing concerning road activities on the Targhee 
National Forest. In my tenure as Chairman of this Subcommittee, 
I have had the good fortune of being able to travel to national 
forests around this great country and to see first-hand the 
impact that Federal regulations and policies and laws have on 
the management of our forests. Unfortunately, I have to say 
that Federal forests across the country have become a political 
playground for the Clinton-Gore Administration and for their 
extreme environmental policies.
    [Audience response.]
    Mrs. Chenoweth. We will ask that the audience not clap or 
cheer for anyone who is testifying, and that includes the 
members of this panel. We would appreciate your courtesy.
    The Forest Service mission of caring for the land and 
serving people has, by administrative fiat, been changed to 
locking up the land and keeping people out. This attack on 
rural America is putting forests and communities at risk.
    Just north of here in the Panhandle National Forest, fir 
beetle outbreaks have moved local foresters to implement an 
aggressive effort to harvest and remove the affected trees in 
an attempt to prevent catastrophic fires in coming years. 
Unfortunately, the administration, with their environmental 
allies, are trying to stop this, putting their political agenda 
ahead of forest health and restoration activities. But nowhere 
is the administration's agenda of locking up the land and 
keeping people out more evident than it is here in the Targhee.
    As you are aware, last summer, the Forest Service closed 
400 miles of roads on the Targhee without seeking public input 
or performing an environmental analysis. The surface of some 
roads was ripped to a depth of three feet to prevent motorized 
access. Nearly 400 miles of roads were obliterated by placing 
six to eight foot high earthen barriers in the roads. Nowhere 
in America have we seen these kinds of extreme measures taken 
to prevent public access. In fact, usual terms did not 
adequately describe these monstrous barriers, so they have 
become commonly referred to as tank traps. Only in World War II 
and in the Gulf War have we seen such constructions before, and 
those were built to stop the advancement of enemy tanks and 
equipment during battle. One has to ask why in the world is the 
Forest Service using battle tactics against the American 
public. Whatever happened to the honorable calling of serving 
the people and caring for the land?
    It is evident that when the Forest Service dug those traps, 
they buried their common sense.
    The road obliterations had immediate effect on Idahoans as 
access to traditional family camping sites, hunting spots and 
bicycling and hiking areas was cut off. For many people, 
snowfall has posed a serious safety problem for snowmobile 
riders who often cannot see the tank traps. In addition, 
Fremont County search and rescue personnel are unable to reach 
many areas of the forest and expect their response time will be 
affected by these traps.
    As road closures spread to the rest of the forest off-
highway vehicle users use will be curtailed and additional 
recreation and hunting spots will be eliminated. This has and 
will continue to adversely affect local rural economies.
    The primary reason given by the Forest Service for this 
public access restriction is to protect grizzly bear and elk. 
Elk populations, however, are at an all time high and are doing 
terrific, according to the Idaho Fish & Game Department. 
Likewise, grizzly bear are expanding outside recovery areas 
into new habitat and the Federal agencies are beginning the 
process of delisting.
    Given that elk and grizzly bear are generally doing well in 
these areas raises a question of why is the Forest Service and 
the U.S. Fish & Wildlife Service pushing so hard to eliminate 
another species, and that is people--from these very beautiful 
national forests.
    So in closing, at this time, I would like to take a moment 
to thank everyone who helped with this hearing, and in 
particular, I would like to thank Jim Gerber, Adena Cook, 
especially Senator Stan Hawkins, and my colleagues in the Idaho 
delegation.
    I would also like to introduce our Clerk of the Committee 
on the Subcommittee on Forest and Forest Health, Natalie 
Nelson, who will be up here working with us; and my Chief of 
Staff on the Forest Subcommittee, Doug Crandall.
    Also for anyone who would like to add comments to the 
record, but could not testify, we have provided comment sheets 
located at the back of the room. However, if it is more 
convenient, please submit your written comments to the 
Subcommittee within 10 working days. All of these comments will 
be placed in the official record of this hearing.
    And now, it is my distinct pleasure to present to you the 
Chairman of the Forestry Committee in the Senate, our senior 
Senator Larry Craig.
    [Applause.]

 STATEMENT OF HON. LARRY CRAIG, A SENATOR IN CONGRESS FROM THE 
                         STATE OF IDAHO

    Senator Craig. Helen, thank you very much. Let me ask 
unanimous consent that my full statement be a part of the 
record.
    Mrs. Chenoweth. Without objection, so ordered.
    Senator Craig. Helen, let me also thank you for scheduling 
and holding this hearing. As Helen mentioned, I am Chairman of 
the counterpart Forestry Subcommittee on the Senate side, and 
while I was contemplating a hearing, as most of you know by 
watching both Senator Crapo and myself, we have been a bit 
preoccupied for the last month, and that has now been resolved 
and we will be on with the legislative business of our state 
and nation. So I thank you, I agree with you.
    So it is important that this hearing be scheduled in light 
of several events that are coming together at this time for all 
of us to be concerned about, and that is a new forest or road 
management plan that the United States Forest Service has and 
is proposing, and how it will impact all of the forests of our 
nation. As you know, the Targhee was early in developing its 
forest plan. As a result, when Chief Dombeck announced his road 
moratorium a year or 18 months ago, the Targhee was left out 
because of the stage it was in the planning process.
    It was during that time that Senator Crapo and I--Mike was 
then the Congressman--asked--I should not say we asked to meet, 
many of you asked if you could meet with us in Idaho Falls as 
it related to the Targhee forest plan, and we met. Supervisor 
Jerry Reese, who is here today, attended that meeting, and 
there was a great deal of concern about the character of the 
plan itself, the new proposed plan, and the change of direction 
that it was focusing on.
    I expressed at that time my real frustration that for the 
first time in the state of Idaho, we would have a forest plan 
that would say that this forest is closed unless designated 
open, that that was a tremendous reversal of a historic 
cultural policy, if for no other reason; that we in the west 
loved our public lands and wanted full access to them, but we 
would accept closure when it was appropriately designated for 
the right purposes. But to decide that all forests are closed 
unless designated open was a rather medieval concept known as 
the king's forests. All of us resented that, and certainly 
serfdom of that day resented it.
    As a result of that, the forest plan itself went to the 
regional office where there was a review asked. And what stage 
we are finally in is yet to be determined, but our concern, and 
Helen said it very well, was it appeared that a plan was 
beginning to be implemented prior to the plan being final.
    Now there are many of you in the audience today who think 
you hold a different point of view than this Congressional 
delegation might hold. You might be a bit surprised if you 
would just listen. The Targhee Forest, since 1984, has been 
designated, at least in four areas, as grizzly bear habitat. 
And that forest area has been closed, and we all know that, and 
you know it. And the bears are recovering and all of us are 
happy about that. In fact, I was very excited about the idea 
that we had finally had an effective recovery plan where we 
could prove in certain areas the Endangered Species Act could 
work and we were about ready to move toward delisting.
    Was the plan and closure being complied to? Well, in 
looking at the statistics, there was a high level of 
compliance. Was it a perfect compliance? No. There were some 
folks who moved around the gated roads, but in large part, it 
was complied with.
    Why then are we here today? I think many of you and your 
organizations would have been filing lawsuits today if the kind 
of earth moving activity on the Targhee had been done by 
anybody other than the Forest Service and had been done for 
anything other than what you thought it was being done for that 
you liked. Let me put it this way--I do not believe you can 
have it both ways. Now I do not believe the Forest Service can 
implement a plan as dramatic as this one is without first 
bringing it to completion. They cannot do it, nor would they 
allow it to be done under a draft environmental impact 
statement. And yet, much of this has been done. I believe road 
closures for the purpose of protecting grizzly bear is 
important and it has been important on the Targhee since 1984. 
And it has worked.
    But you want us to play by the rules and you enforce that 
through your lawsuits and your energy and your public activity. 
And we do. And we want our Federal agencies to play by the 
rules too. And they must. That is what this hearing is about. 
How are the rules being laid out and how are they being played 
by.
    I believe in road closure for the purpose of protecting 
unique habitat and wildlife values, when necessary and where 
Idaho, Idaho Fish & Game and the U.S. Forest Service and our 
citizens are in step. But I must tell you, the pictures you see 
in front of you were not taken by a freelance photographer, 
they were taken by me and my staff when I climbed in and out of 
those tank traps that Congresswoman Chenoweth talked about. And 
trees were uprooted and laying across the roads and rocks were 
strewn everywhere. If that had been a logging company or a 
mining company, there would have been lawsuits filed by every 
environmental organization in the nation, and you all know it. 
And yet you are here today defending that? I hope not. If you 
are here defending the bear, that is another story. Count me 
in.
    And then I went down to Macks Inn. Just less than a mile 
and a half off a highway in a heavily trafficked public area 
where people go to fish, where this area fishes and enjoys the 
recreation of this resource, I ran into more of these tank 
traps. And I must tell you, I asked Supervisor Reese right 
afterwards, what in the heck are they there for. It just did 
not make sense. That is why we are here today. Not that we are 
against the grizzly bear--we are for the proper and rightful 
management and the processes of management. And that is what we 
are here to seek out, because if it does not happen, we will 
change the rules--because it must happen, so that we can have a 
multiple use resource, so we can protect these valuable natural 
resources, so we can have grizzly bear and elk, and they are 
thriving on the Targhee and we are pleased about that.
    But you do not continually change the rules to fit just one 
side. That is unacceptable. The Forest Service has to comply 
with the National Environmental Policy Act, like any other 
group must that is using or utilizing the resource under the 
law, and the management most especially. That is what we are 
here for. That is what I am here to listen to. These kinds of 
decisions do have impacts, they have impacts on the 
environment, on wildlife, on the public and you all know that, 
and that is why we are very concerned about it.
    You have heard all you are going to hear from me, I am here 
to listen. But thank you all, and I mean all of you, for coming 
out today. It is an important issue. Our Forest Service is 
struggling right now to find a sound management approach. We 
have a lot of talented people in the Forest Service and they 
are very frustrated. The Forest Service cannot be managed out 
of the executive offices in Washington. Most importantly it 
cannot be managed out of the Council of Environmental Quality. 
It must be managed here, on the ground, by the supervisors, 
using good science and not political science.
    Thank you very much, Madam Chairman.
    [Applause.]
    Mrs. Chenoweth. Thank you, Senator Craig, thank you very 
much. And now we will hear from Senator Mike Crapo.
    [The prepared statement of Senator Craig follows:]

 STATEMENT OF HON. MIKE CRAPO, A SENATOR IN CONGRESS FROM THE 
                         STATE OF IDAHO

    Senator Crapo. Thank you very much, Madam Chairman. I 
appreciate very much the opportunity that you have given us to 
hold this hearing. Larry and I both had to jump in an airplane 
last night to get out here, but it truly is much more rewarding 
to be out here in Idaho working on the Idaho issues than some 
of the difficult, difficult times we have had in Washington the 
last month. And I say that notwithstanding the fact that it is 
evident from the feelings that people have already expressed 
here today that there are strong disagreements over the proper 
way to manage our public lands.
    It seems to me that--although I agree very strongly with 
some of the concerns that have already been raised here about 
the tank traps and about whether the management of the forest 
system has followed the legal procedures of the land, as all 
others are required to follow it, and as to whether the right 
policies have been achieved in terms of assuring proper public 
access to our wonderful natural resources, while maintaining 
the adequate protections of our environment.
    I am going to limit my comments to one issue. And this may 
sound like a broken record to some of you who have talked to me 
privately or been to other places where I have made comment. 
But I continue to believe that we do not have to sacrifice 
either our environment and our wonderful rich natural resource 
heritage or our economy that is so significantly based in our 
natural resources here in this region, in order to achieve 
proper management.
    I believe that some of the solutions to help us achieve a 
fix, if you will, that will properly balance all of these 
needs, may require changes in Federal law to allow more real 
local management and real opportunity for people like 
yourselves to impact public policy, or else we may continue to 
end up with a situation in which the winner is whoever has 
control or the greatest access and support at the White House 
during a given administration.
    But I do not think that is the right way for us to manage. 
I believe that everybody in this room lives in Idaho because 
they love the quality of life that we have here. And that 
quality of life depends on us protecting and preserving our 
wildlife, our fisheries, our natural resources, which are one 
of the greatest treasures that Idaho has. Everybody also has to 
have a job. And when an economy is so dependent on our natural 
resources, as ours is, many, if not most, of those jobs and the 
families that depend on those jobs will depend on our managing 
our natural resources so that the people can have access to 
those natural resources, yes, for economic activities including 
tourism and recreation.
    It is interesting to me--and I have said this to many of 
you before--that when you hear someone from one side of the 
issue talking about one of the disputes in Idaho, they will say 
I believe we have got to protect the environment, but we have 
got to make sure that I keep my job. And from the other 
perspective, they will say I believe that we have got to make 
sure we have got jobs and that we protect the economy, but I 
think we have got to do such and such to protect the 
environment. Everyone seems to want to have to qualify that 
they are not dismissing the other side of the equation but that 
they have a point of view that suggests that we have not yet 
reached the proper management balance with regard to our 
natural resources.
    And what I am saying is that I believe those people, all of 
us when we say that, are telling the truth. The vast majority 
of Idahoans do not want to destroy the environment and they 
want to make sure that our management policies protect and 
strengthen these treasures. And the vast majority of Idahoans 
do not want to eliminate jobs and restrict access to our 
natural resources any more than is necessary to assure that we 
protect them. And that is the balance that we have got to 
reach.
    Now, as I said, I have some real problems with some of the 
issues that are going to be brought up here today. But I will 
commit to everyone in this room, whether you are on the job 
side of the equation or on the environment side of the 
equation, because as I have said I believe ultimately all of us 
are on the same side of the equation and that is to preserve 
both, that working together to allow local input into these 
decisions and then making sure that we find the common ground 
where we can build forward to have reasonable management 
policies that people can accept is an objective that I think we 
must achieve.
    I think that this hearing will give us an opportunity first 
of all to let people from many different perspectives voice 
their feelings, and I would encourage everyone to listen 
carefully to those with whom you disagree, because they have a 
point of view and they have some valid points. And if we can 
look for common ground, we can find a lot of it. And that is 
what I will be looking for in today's hearing, Madam Chairman. 
Thank you.
    Mrs. Chenoweth. Thank you, Senator.
    [Applause.]
    Mrs. Chenoweth. It is certainly my pleasure to introduce no 
stranger to you, my colleague and your Congressman, Mike 
Simpson.

 STATEMENT OF HON. MIKE SIMPSON, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mr. Simpson. Madam Chairman, thank you for holding this 
hearing here today. Senator Craig, Senator Crapo, it is nice to 
have you here today, being the former Congressman from this 
district.
    It is my pleasure to welcome all of you that may not be 
from this area to what is now my district. I have had the 
opportunity to represent the State of Idaho over the past as 
the Speaker of the State of Idaho and now as the Congressman 
from this district. I have also operated a dental practice for 
the last 22 years in Blackfoot, some 50 miles south of here. So 
I and my wife have spent a great deal of time both in Boise and 
in Blackfoot, but we also have a place in Driggs. And so the 
Targhee Forest is something that we appreciate and enjoy and 
something that is very near and dear to our hearts. That is why 
it is so disheartening for me to see land managers that turn 
once beautiful forests into what appear to be eyesores and 
potential hazards.
    Idaho's public lands are a priority to the residents of 
this beautiful state. Idahoans tend to become emotional when 
public access is threatened. The controversy over the 
development and implementation of the Targhee Forest Plan has 
escalated feelings on every side of this issue, as can be seen 
here today. The failure of the Forest Service to follow the 
NEPA process and their own prescribed method of road closures 
only contributes to the public's distrust of those responsible 
for managing public resources.
    I am concerned that the Targhee Forest might be the tip of 
the iceberg instead of the end of the road. We must ask the 
question: Is this the beginning of an attack on the right of 
citizens to enjoy the lands that are rightfully theirs. I and 
many of my fellow westerners live in the west because we love 
and enjoy this lifestyle. We value and nurture the way of life 
and the beautiful natural resources that surround us here. I 
find it disturbing that the Federal Government seems to feel it 
necessary that it needs to keep the local citizens, those that 
have had a way of life and stewardship on this land, off the 
land. I also find it confusing that in order to protect the 
forest we must deface it. I have real concerns about the 
government's lack of consideration for the aesthetic value of 
the Targhee Forest. Most of the people in this part of the 
country would agree with me that you do not go in and put 
permanent scars on the land and call it conservation. If any 
Idaho citizen were to take similar action on the forest, they 
would be immediately thrown in jail, as has already been 
mentioned.
    Though they may not agree, the individuals on these six 
panels here today are both thoughtful and intelligent people, 
each of whom feel passionately about the Targhee Forest, each 
of whom have their own points of view. Considering the caliber 
of individuals here, it is both logical and feasible that we 
ought to be able to work together to develop a workable 
solution to this problem.
    Sports Afield recently named Driggs the best outdoor sports 
town. That in itself illustrates how important the Targhee 
Forest is to the residents of this area, both for their 
personal enjoyment and for their economic wellbeing. To cut off 
the roads to the Targhee Forest that are the lifeblood of 
communities in southeast Idaho seems to be irresponsible.
    I have worked and will continue to work to ensure access to 
public lands for everyone. Workable solutions must involve the 
community and their interests and their interests must be taken 
into consideration. It is in this spirit that road closures and 
their methods of implementation should be negotiated with local 
interests.
    Today, I am truly here to listen to you--the Federal and 
state agencies, the local groups, the county commissioners, 
state legislators, user groups, conservation groups and the 
Idahoans that enjoy these public lands. It is my hope that at 
this hearing chaired by my colleague, Congresswoman Chenoweth, 
we will find the beginning of a workable solution for everyone. 
I hope that everyone, as Senator Crapo said, is here to listen 
to those people that they might disagree with, because everyone 
does have a legitimate point of view and we can work together 
and we can solve this if we do not polarize the issue.
    Thank you, Congresswoman Chenoweth.
    [Applause.]
    Mrs. Chenoweth. Thank you, Congressman Simpson.
    Now, I would like to introduce our first panel, if they 
would come up to the front here and take their place behind 
their name plaque. Mr. Jim Gerber, President of the Citizens 
for a User-Friendly Forest; Ms. Adena Cook, Public Lands 
Director for the Blue Ribbon Coalition; The Honorable Stan 
Hawkins, State Senator, Boise, Idaho; Mr. Neal Christiansen, 
County Commissioners, Ashton, Idaho.
    As you take your place, I want to ask you to remember that 
we have many witnesses that we need to hear from today. It was 
important to me to be able to accommodate all of you and we 
must bring the hearing to a close at 5 p.m. So, I need to ask 
all of you to keep your oral remarks limited to five minutes. 
You may submit your entire testimony for the record and it will 
appear in the record in its entirety. And I assure you that if 
you have any written additional comments, they too will appear 
in the record.
    I also want to explain the lights to you. You will see a 
green and a yellow and a red light. The green light will be on 
for four and a half minutes--and they are just like traffic 
lights, you can just go for four and a half minutes and then 
when the yellow light comes on, you speed up and then when the 
red light comes on, it means stop.
    Senator Craig. And Madam Chairman, when the red light comes 
on, within half a second after it comes on, do the chairs not 
eject----
    Mrs. Chenoweth. They do, they fall through the floor.
    [Laughter.]
    Mrs. Chenoweth. As explained before, and I think you 
received some of the rules involving this, it is the intention 
of the Chairman to place all outside witnesses under oath. Now 
this is a formality of this Committee that is meant to assure 
open and honest discussion and should not affect the testimony 
given by the witnesses. Now I believe that all the witnesses 
were informed of this before appearing here today and you each 
have been provided a copy of the Committee rules. So if you 
would please stand and raise your hand to the square, I will 
administer the oath.
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you. I would like to open this panel 
hearing from Senator Stan Hawkins.

  STATEMENT OF HON. STAN HAWKINS, STATE SENATOR, BOISE, IDAHO

    Mr. Hawkins. Thank you, Madam Chairman. I can assume that 
the light situation here was intended to rein in the 
politicians, and I will do my best to comply with the 
technology.
    Let me first formally welcome all of you, as our 
Congressional delegation. This may be a historic moment in fact 
in resource management in eastern Idaho, and I sincerely 
welcome all of you here and speak on behalf of the crowd and 
our constituents and the other elected officials.
    I am the State Senator from the 28th legislative district 
of Idaho and that includes the northern part of Bonneville 
County, all of Teton County and a good part of Fremont County. 
I am a native, I was born and raised here, spent all my life 
here and I can tell you that this is a very diverse area and we 
depend on resource-based activities to help us fund everything 
from roads, bridges, schools, many of our public facilities 
depend upon a healthy and a good resource policy.
    For generations, our land use practices in fact have 
preserved this area in a condition that now causes us to fight 
about it sometimes. We want to maintain that which has been 
maintained and frankly, I am amazed many times at some of the 
illogical and unsupportable claims that are made on both sides, 
for that matter, by those who would have you believe that we 
are going to have to stop using the resources if we are ever 
going to hand this area down to the next generation.
    As local officials, we are charged with this funding 
mechanism that relies heavily on a resource-based economy, and 
frankly, panic management and emotional management simply is 
not going to work, and we are seeing that in the legislature 
right now. We are seeing an ag economy that is suffering, we 
are seeing all kinds of problems that I think, at least in 
part, has to be solved with a balanced approach to the use of 
our resources.
    We are told to count on the new and emerging tourism 
economy to solve these problems. Frankly, it is interesting to 
me that many of those people who are telling us to let tourism 
pick up the slack and that there will be no impact if we do 
that, they are the same ones who many times want the launches 
on our rivers limited, they want the roads closed and they want 
motorized vehicles banned from the public lands and from our 
parks and so on.
    We have people with good intentions who are decrying the 
urban sprawl and the lack of control on development and tell us 
that we need to protect our farm economy and then in the next 
breath we hear many of the same people saying we need the water 
to move fish. I just have to say we have got to find balance. I 
am constantly considering these issues, and frankly, I am tired 
of battling, trying to maintain the way of life that I grew up 
in, enjoying those natural resources and using them as well; 
and frankly, we need to get on with some sound management and 
some sound decision-making.
    Now many would say we have already a process to allow that 
to take place and we give input, we come to the hearings. 
County commissioners and sheriffs and legislators and the 
emergency service providers attend hearings. We testify and we 
speak as if that will make a difference. And in the end, we 
become frustrated. The plans and the actions are seldom, if 
ever, reflective of the comments and the wishes of the local 
interests as expressed by those of us who attempt to speak for 
the majorities that elect us.
    Frankly, it is my hope that this hearing will move to the 
questions that are raised by these pictures and get to the 
bottom of the main question here of this hearing, and that is 
did the Forest Service in fact follow the law when they moved 
forward with these decisions. It is an important question. 
Again, we are thankful that you are here, we are grateful for 
you being here and we look forward to your help in resolving 
this issue.
    Thank you very much.
    Mrs. Chenoweth. Thank you, Senator.
    [The prepared statement of Senator Hawkins may be found the 
at end of the hearing.]
    Mrs. Chenoweth. Mr. Gerber.

    STATEMENT OF JIM GERBER, PRESIDENT, CITIZENS FOR A USER-
              FRIENDLY FOREST, ST. ANTHONY, IDAHO

    Mr. Gerber.Congresslady and Congressmen, my testimony will 
address the three reasons the Targhee Forest gave us for 
closing and obliterating roads on the forest. These are: 
protect grizzly bear, protect elk and reduce erosion. I will 
explain why we in CUFF do not believe these are valid reasons 
for road closures on the Targhee. Please keep in mind as I 
discuss them that the majority of the people in eastern Idaho 
do not support road closures, so the pressure to close roads is 
not coming from us. The question then is: Where is the pressure 
to close roads coming from?
    The first reason the Forest always gives for closing and 
obliterating roads is to protect grizzly bear.
    I have an overhead transparency of a map to discuss the 
grizzly bear issue. The dark blue line is the outline of 
Yellowstone National Park; the Targhee Forest lies along the 
lower left boundary of the park.
    The map shows the results of a ten-year radio-telemetry 
study in and around Yellowstone National Park. The map is taken 
from a scientific paper written by Drs. Richard Knight and Dave 
Mattson, former employees of the Interagency Grizzly Bear 
Committee and experts on grizzly bear behavior.
    Prior to 1977, park biologists radio-collared a number of 
female grizzly bears in and near the park and then released 
them. For the next ten years, biologists flew over the park and 
through the wizardry of radio electronics located each bear and 
marked its position on a map with a black mark. At the end of 
ten years, the scientists produced this map. Every bear 
management unit--and there are 18 in the park--is covered with 
black marks indicating the location of bears; every BMU, that 
is, except one. That one is the Plateau Bear Management Unit in 
the southwest corner of the park. It is absolutely white. For 
ten years, while biologists were flying over the park locating 
female collared bear, no bear ever walked out into the Plateau 
Bear Management Unit. Congressmen, we are setting 164,000 acres 
aside for the grizzly bear in an area where the bear does not 
even want to be.
    The second overlay is a statement taken from the same 
study. The highlighted portion in yellow says ``Low densities 
of telemetry locations in unroaded areas northeast of 
Yellowstone and in the park's southwest corner may be a result 
of poor habitat condition. . . .'' So here we have the premier 
authority on grizzly bear in Yellowstone National Park saying 
that the Plateau Bear Management is poor habitat.
    When you combine this statement with the previous map and 
add the fact that the Plateau BMU is hot, dry habitat with no 
water, you get a clear picture that this area is not good 
grizzly bear habitat. The question then is why are the Targhee 
Forest and U.S. Fish & Wildlife Service pushing so hard to 
emphasize grizzly bear here. We hope your hearing can shed some 
light on this question.
    The second reason the Forest gives to close roads is to 
protect elk, but elk are doing well on the Forest, having 
increased 600 percent since the 1960s. This increase occurred 
at a time of heavy salvage logging and associated roadbuilding 
to harvest millions of beetle-killed trees. This increase in 
elk associated with more roads does not tell us roads are a 
problem for elk on the forest. Again, the question is why is 
the Targhee Forest pushing to close roads when the elk 
population is at an all-time high and thriving, according to 
the Idaho Fish & Game Department.
    The third reason to close roads is to reduce erosion. This 
issue revolves around ghost or two-track roads. The theory 
being that since these roads are not constructed or maintained, 
they must be adding large quantities of sediment to streams. 
However, most of these ghost roads are located one-quarter mile 
or more from a stream. These roads erode each year, but that 
sediment runs into the adjacent vegetation and is captured. 
Little, if any, sediment ever reaches a stream.
    In summary, bears and elk are doing fine and water running 
off the Targhee is clear. This does not indicate a need for the 
excessive road closures proposed by the Targhee Forest. Since 
the impetus to close roads is not coming from us in eastern 
Idaho, we wonder where it is coming from. We hope your hearing 
can shed some light on this question.
    Thank you and that concludes my comments.
    Mrs. Chenoweth. Thank you, Mr. Gerber.The Chair now 
recognizes Ms. Cook.
    [The prepared statement of Mr. Gerber may be found at the 
end of the hearing.]

  STATEMENT OF ADENA COOK, PUBLIC LANDS DIRECTOR, BLUE RIBBON 
                 COALITION, IDAHO FALLS, IDAHO

    Ms. Cook. First of all, I am very proud that Idaho's entire 
Congressional delegation has come here to investigate and hear 
testimony on this local issue, but this is not just a local 
issue. It is happening to greater or lesser degree in almost 
every national forest in the country. So this is a microcosm of 
what is happening everywhere else.
    Thinking out of the box is a popular euphemism for creative 
problem solving. Tough issues can demand unconventional ways of 
thinking and processes that reach beyond established 
boundaries. Nowhere is this more important than in the 
management of our public lands.
    When Targhee Forest planning began eight years ago, there 
was promise that a new plan process would attempt new 
solutions. Dr. Bill Shands, one of the nation's foremost 
experts on forest planning, was put in charge of public 
involvement. He advocated taking planning out of the box. This 
was long before that euphemism became popular. It was hoped 
that if the public were involved in each step of the process, 
that consensus or maybe even comprehension would result.
    Under Dr. Shands' direction, the process went very well for 
the first couple of years and understanding was occurring, 
maybe even a little bit of consensus. But this was not to last. 
The Office of Supervisor changed--Bill Shands passed away. The 
preservation direction of the Clinton Administration was 
emerging and the Forest Service was being reinvented.
    Out came a box with a big label--ecosystem management. Its 
management criteria were slanted in a preservationist 
direction. Locally based solutions and citizen involvement 
became less important and polarization started to develop.
    Now the Blue Ribbon Coalition has always been a strong 
advocate of cooperation with land managers. They are our 
partners. We have demonstrated many successes as a result of 
this partnership. One of the key elements of success in this 
way is constructive give and take. Another is dedication to on-
the-ground problem solving.
    But the inflexible standards of the new forest plan 
stimulated not this give and take that we needed, but more 
polarization. For example, it mandated tough road and trail 
density standards, not only in the bear management units, but 
throughout the whole forest. It counted a single track trail 
where motorized use was allowed as having the same impact on 
wildlife as a Federal highway. And it closed--imposed a 
``closed unless posted open'' fiat on most cross country 
travel.
    This inflexibility continued as the process moved forward. 
A multiple use alternative developed by local citizens, which 
was included in the Targhee draft plan, was dropped in the 
final plan because it failed to conform to established 
parameters.
    A travel plan was issued shortly after the final forest 
plan was released. This decision designated open roads and 
trails and decided which trails would be closed. The regional 
office received 1,276 appeals on this decision and the appeals 
were upheld by the regional office because the public was not 
given an opportunity to comment through site specific process.
    And then finally, toward the end of last summer, nearly 400 
miles of road were obliterated without site-specific 
documentation. And this not only obliterated the roads, but 
obliterated any public dialogue that would have examined gates 
site specifically to determine if they were effective or not; 
determine whether informal routes were essential and could be 
traded for other routes; address concerns about winter 
recreation safety; determine if the obliterations were 
necessary in developed parts of Island Park.
    So now, Targhee's current management is in a box that is 
inflexible, inhibits on-the-ground solutions and discourages 
constructive communication. The Targhee is but one example of 
how thinking in a box constrains land management problem 
solving.
    Committed to top down mandates that come in a box, other 
national forests face similar difficulties. And that is why we 
are here. We need you to help us work toward solutions and help 
us think out of the box.
    Mrs. Chenoweth. Thank you, Ms. Cook.
    The Chair now recognizes Commissioner Christiansen.
    [The prepared statement of Ms. Cook may be found at the end 
of the hearing.]

 STATEMENT OF NEAL CHRISTIANSEN, COUNTY COMMISSIONER, ASHTON, 
                             IDAHO

    Mr. Christiansen. Thank you, Madam Chair. I certainly 
welcome this opportunity to state a few of my concerns from a 
county commissioner's standpoint. Also, I am a former logger, I 
have been there and watched this forest drop down to where the 
jobs are pretty near non-existent in the forest.
    I was elected to office in 1994 and re-elected in 1996. I 
have served now for four years continuously as a county 
commissioner. During that time and before, the previous four, 
five, six, eight years, I worked with the Forest on some of 
these issues that we are facing today, including the forest 
plan revision and subsequent travel plan.
    As I said before, I was for years a logging contractor and 
am currently Vice President of the Associated Logging 
Contractors of Idaho. We represent some 560 logging contractors 
throughout the state plus their families and the jobs that they 
hold. So as such, I am very familiar with the resource 
utilization and the forest end of the forest management of it.
    Fremont County is heavily dominated by Federal land. 
Between the Targhee Forest and the Bureau of Land Management, 
60 percent of our county is federally owned, most of it, of 
course, is Forest Service land. As a result, Federal land 
management policies have a large impact on Fremont County. 
Those who use the forest also live elsewhere. Tourists are 
heavily impacting us now, we have a heavy summer home 
residency. I would like to interject here that this road 
closure affected practically all of Fremont County, it went 
from south of the river, north to the continental divide, east 
to the Teton County--or south from the Teton County line to the 
Clark County line on the north and on the west, I think there 
is one road closed in Clark County and we were able to put a 
stop to it before they hit the Teton County line, but it 
completely wiped out Fremont County, two-thirds of Fremont 
County, as far as access to timber extraction.
    By example, I point to the loss of the 25 percent funds in 
the last eight years or so. In 1991, Fremont County had 
$213,000 in 25 percent resource money coming in. From then on, 
it has been a steady reduction in receipts and this year, we 
had a mere $48,000 in 25 percent resource money and a good 
share of that was from cabin lease sites, very little from 
grazing or from timber receipts. Practically all of the 
reduction results in the decline of the timber receipts. The 
Forest seems oblivious to this impact, even though we have 
pointed out the problem many times.
    So it is not surprising that we, the county commissioners, 
were less than enthusiastic about the revision of the forest 
plan. Still, the public involvement process is the only game in 
town and hopefully in the enlightened 1990s, they will have an 
open mind, but this has not happened.
    To summarize, I would like you to keep in mind that Fremont 
County is heavily dominated by federally-owned lands, with 60 
percent in Federal ownership. It is very important, therefore, 
that the Forest carefully consider the effects its actions have 
on us. That has not always been the case. Since 1991, as I 
explained before, our 25 percent resource money has dropped to 
practically nil.
    The Forest proposes major reductions in public access and 
with little input from the commissioners or the public. In 
addition, 380 miles of roads were obliterated this summer with 
these tank traps without any public input. This action violates 
both NEPA and NFMA. Since our constituents did not request the 
obliterations, we wonder where the pressure to do so originated 
from. We hope your hearing can shed some light on this problem.
    Thank you, ma'am.
    [The prepared statement of Mr. Christiansen may be found at 
the end of the hearing.]
    Mrs. Chenoweth. Thank you very much, Commissioner.
    I want to thank the panel for their testimony and I want to 
remind the members that under Rule 4(g) in our Committee Rules, 
even members are limited to five minutes in their questioning. 
And one thing about being Chairman, you have to wield the 
gavel. So, I will closely adhere to that five-minute rule for 
all of us.
    The Chair would like to yield for the first set of 
questions to Senator Craig.
    Senator Craig. Madam Chairman, thank you very much. I will 
play by the rules.
    Mr. Gerber, would you please tell us for the record what 
your organization, Citizens for a User-Friendly Forest, is, why 
was it formed, what kind of an organization is it?
    Mr. Gerber. Citizens for a User-Friendly Forest is a group 
of forest users in eastern Idaho. We consist of loggers, OHV 
people, ranchers, snowmobilers, two summer home groups, three 
county commissioners, a mayor and a number of small businesses 
from Island Park to Idaho Falls. And we kind of grew out of a 
citizens involvement group for the Targhee Forest. We could see 
the forest was not headed in the same direction that we wanted 
to go. So we developed our own group and developed our own 
alternative and presented that to the Forest.
    Basically, we believe the forest should provide a broad 
range of goods and services along with the access needed to 
provide those goods and services.
    Senator Craig. Would you tell us about the ballot that took 
place in Madison, Fremont and Teton Counties concerning your 
organization's proposal?
    Mr. Gerber. Yeah, in May of 1966, there was an advisory 
ballot placed on six counties that touched the Targhee National 
Forest, and as a result of that--and what it did was give those 
who voted a chance to choose between the Forest Service's 
preferred alternative and our CUFF alternative. It was 
generally known that our CUFF alternative allowed more access, 
more timber harvest and generally more use of the forest. And 
as a result of that vote, 78 percent of those six counties 
preferred our CUFF alternative, compared to 22 percent for the 
Forest Service.
    Senator Craig. In total numbers of participants, what does 
78 percent represent, do you recall? What were the total number 
of people who participated in the balloting?
    Mr. Gerber. I do not recall exactly, there were probably 
20,000 or 30,000 people.
    Senator Craig. How many?
    Mr. Gerber. Twenty or thirty thousand.
    Senator Craig. Twenty or thirty thousand.
    Mr. Gerber. Yeah, in all six counties.
    Senator Craig. I see.
    Adena, I am well aware of your organization and have worked 
with your organization and taken testimony from you over the 
years as it relates to public land management issues. You talk 
about out of the box thinking and coming at a problem in a 
different way. I was very early on watchful and hopeful that 
the collaborative process that the Targhee was engaging in 
would work, because it had all parties at the table, or 
certainly appeared to. And then it did not work.
    Would you again for the record reiterate why you think it 
broke down? The players that left, was that largely the 
problem?
    Ms. Cook. Well, yes, it was partly a situation where key 
players did leave, specifically Dr. Shands, whose ideas had 
kind of held things together.
    But one of the crucial things that happened just as Dr. 
Shands died and just as the supervisor's position was changing 
hands, was that preservationist groups filed a lawsuit on the 
way grizzly bears were being managed. And that lawsuit was 
settled by the Forest Service with the understanding----
    Senator Craig. Out of court, right?
    Ms. Cook. Yeah, it was--the lawsuit was settled.
    Senator Craig. Yes.
    Ms. Cook. With the understanding that the road density 
would be brought way, way down in the bear management unit. Now 
this was right during when the plan was going on and----
    Senator Craig. Was this not also a group that had been a 
participant at the table?
    Ms. Cook. Yes, yes. So here we had this extra thing that 
was going on outside the public process and the Forest Service 
agreed that all these roads would be taken out while the 
process was just sort of underway. Well, this broke down the 
developing consensus, as far as I was concerned. And in fact, 
those of us who really cared had to push hard to make the 
Forest adhere to the NEPA process and the new plan revision as 
opposed to just going out there and closing the roads right 
then and there. And we were successful in doing that.
    The new supervisor, Jerry Reese, did decide that the roads 
would not be closed right then and there, they would be--the 
question would be addressed as a part of the forest plan. But 
the damage had taken place at that point as far as the 
developing consensus.
    Senator Craig. I see my time is up. Senator Hawkins and 
Commissioner Christiansen, let me thank you both very much for 
your testimony and I appreciate you being here. Thank you.
    Mrs. Chenoweth. The Chair recognizes Senator Crapo.
    Senator Crapo. Thank you very much, Madam Chairman.
    Commissioner Christiansen, I want to start with you, so I 
will go from the other end there. You indicated that you have 
had a dramatic reduction in the 25 percent funds that the 
county has received. And if I read your testimony correctly, 
the reduction has been from a $213,000 level in 1991 to a 
$48,000 level today.
    Mr. Christiansen. Right.
    Senator Crapo. So if I understand you correctly, you are 
talking about more than a 75 percent reduction in funds.
    Mr. Christiansen. Yes, I will say in fact that is just from 
1991. In the late 1980s we were taking in upwards of $400,000 a 
year.
    Senator Crapo. Four hundred thousand?
    Mr. Christiansen. That was the peak of the salvage 
operation on the Targhee. Of course, we realized that could not 
last forever.
    Senator Crapo. Right, that was an unusual circumstance.
    Mr. Christiansen. Yes, it was an unusual thing, but we 
still maintain our forest should generate more than eight 
million board feet a year.
    Senator Crapo. Right. You believe though that the $48,000 
level is not the proper sustainable level?
    Mr. Christiansen. I might say that probably close to 
$40,000 out of this comes out of cabin lease sites, which has 
been that way forever.
    Senator Crapo. So only about $8,000 comes from grazing a 
timber?
    Mr. Christiansen. From grazing and timber harvest.
    Senator Crapo. Is the county in the process of seeking to 
get approval of--I do not know what the right word is, but of 
submitting its RS-2477 roads to the Federal Government for 
approval and acceptance? Is the county doing that?
    Mr. Christiansen. Yes, we are recording our RS-2477 roads 
and----
    Senator Crapo. How is that process proceeding?
    Mr. Christiansen. How is it, you say?
    Senator Crapo. In other words, I have heard----
    Mr. Christiansen. It is a slow process.
    Senator Crapo. That was my question. I have heard that 
there is a feeling that there is not much progress being made 
in resolving the RS-2477 road issues.
    Mr. Christiansen. No.
    Senator Crapo. Is that your experience in the county?
    Mr. Christiansen. That has been our experience. We do not 
agree on the methods of the Forest Service and the county 
commissioners do not agree on the wording of the RS-2477 roads.
    Senator Crapo. All right, thank you.
    Adena, I am going to move to you because I know my time is 
going to turn to the yellow light here pretty quick. I was very 
interested in the testimony you provided, both your written and 
oral testimony, about Dr. Shands and the effort to find 
consensus. And as I am sure you know, that is something that I 
would hope to see us try to focus on and recreate.
    One of the questions that I have with regard to the off-
road vehicle usage issue and one of the issues that has been 
brought to me the most often is the question of leaving roads 
or leaving trails and just going cross country where there are 
no trails. Can you address your perspective? And I assume you 
are speaking on behalf of your association, is that correct?
    Ms. Cook. Excuse me?
    Senator Crapo. Are you speaking on behalf----
    Ms. Cook. Yes, I am, yes.
    Senator Crapo. Would you tell me whether there is a 
position with regard to how the forest roads ought to be 
managed on the issue of off-road vehicle usage in terms of 
leaving the trails and leaving the roads for cross country 
usage.
    Ms. Cook. Right. In general, we adhere to tread lightly, 
which means to stay on established routes and to not cause off-
trail damage. And in fact, under the current rules, any time 
the off-trail damage does occur, the Forest does have a right 
to close those routes down.
    Now we urge our members to adhere to these tread lightly 
rules, but a lack of flexibility occurs when you only designate 
those routes that can be open and everything else is closed. In 
order to close a route or a trail or anything else, you should 
have a good reason, just like there is a good reason to stay on 
established routes.
    Senator Crapo. But you are not disagreeing with the policy 
that established routes should be kept to by those who are 
using off-road vehicles?
    Ms. Cook. I am sorry, I could not hear, we are getting an 
echo here.
    Senator Crapo. I understand. You are not disagreeing with 
the tread lightly policy.
    Ms. Cook. Oh, absolutely not. And people need to take care 
of the land as they go out and enjoy and use it, no matter what 
their form of transportation.
    Senator Crapo. I see my time is about up. I have got a lot 
more questions, but we will get to them later on. Thank you, 
Madam Chairman.
    Mrs. Chenoweth. Thank you, Senator.
    The Chair recognizes Congressman Simpson.
    Mr. Simpson. Thank you, Madam Chairman.
    Mr. Gerber, you mentioned during your testimony that there 
were three reasons given for the road closures--one was grizzly 
bear habitat, the other was elk habitat and the third one was 
the erosion; and that the grizzly bear seem to be doing fine 
coming back, reaching the possibility of delisting; the elk 
habitat seems to be fine, record numbers of elk according to 
the Idaho Fish & Game; erosion does not seem to be a problem. 
You said that the pressure for these road closures does not 
seem to be coming from us, that it is potentially coming from 
someone else. Would you care to speculate on that? Are there 
other species, are there other things out there that I am not 
aware of that is going on that would force the Forest Service 
into this?
    Mr. Gerber. I am not aware of any other species. If I was 
going to speculate, I would say it is maybe an internal thing 
between the Forest Service and the U.S. Fish & Wildlife 
Service, almost a mindset these days that you have to protect 
everything, almost to the exclusion of human beings.
    Mr. Simpson. Do you think that there is a mindset in the 
Forest Service that the only way to protect habitat is to keep 
people off? I remember that years ago the debate occurred on 
whether the Alaskan pipeline would destroy the caribou herds, 
and now you find pictures of them, that is where they care to 
spend their winters, is next to the Alaskan pipeline. Is that 
the kind of science we are using here?
    Mr. Gerber. It seems to be. Unfortunately it just looks 
really like there is almost--when you look at these pictures 
down here, it looks like a big billboard that says ``human 
beings stay out, you are not welcome here.''
    Mr. Simpson. Adena, is it possible to alter the prescribed 
road density policy for the forest plan to increase public 
access and also protect and maintain the habitat for the bear 
management units?
    Ms. Cook. Well, we believe that there is. However, to do so 
would require a forest plan amendment and we have thus far been 
unsuccessful in persuading anyone that that needs to happen. 
Procedurally, however, the decisions on the forest plan appeals 
have not yet been resolved. The final decisions have not come 
down from the Washington office. So procedurally, I do not see 
how they could start a revision process until those questions 
are cleared up. It has been about a year and a half and I am 
not sure why a decision on those appeals has not been rendered 
yet. But that is an interesting question.
    Mr. Simpson. Is the concern if they were to open the forest 
plan again that we would lose some things that we currently 
have in the current forest plan--it might go in the wrong 
direction, from your point of view?
    Ms. Cook. That is always possible because--although I will 
say that I do not think the whole thing has to go back to the 
drawing board and we do not have--we have already made a lot of 
progress. I think there is just some fine tuning that has to be 
done and the densities and the questions need to be made on a 
more site specific basis. I just think they were made on too 
broad a basis. So I think there is some fine tuning, I do not 
think you have to go back to square one.
    Mr. Simpson. Commissioner Christiansen, Senator Crapo 
mentioned the 2477 roads. How has the road closures affected 
your process in developing those 2477 roads or declaring those 
2477 roads? Has it made it more difficult?
    Mr. Christiansen. How they have affected the process of the 
RS-2477 roads?
    Mr. Simpson. Uh-huh.
    Mr. Christiansen. Well, really not that bad except that 
there is a couple of roads that are within this grizzly bear 
recovery zone that is probably going to be controversial, 
mainly over there on the Centennials, but it does not look like 
or sound like in the Clark County end of the Centennials that--
that is going along pretty fine and hopefully it does not 
affect those.
    Mr. Simpson. In this plan, if you declare a 2477 road and 
it is accepted, does that affect the road density or does it 
mean they just close other roads?
    Mr. Christiansen. Well, I assume in the grizzly bear 
management units, we are going to have to include it in the 
density, although we should not have to.
    Mr. Simpson. Do you have an answer to that, Mr. Gerber?
    Mr. Gerber. I am pretty sure that it would be included 
within the road density standard. You could check with Jerry 
Reese when he gets up here, but I believe that would be how 
they interpret it.
    Mr. Simpson. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Congressman.
    I want to turn my attention to Senator Hawkins. I know that 
when you first approached us about bringing the Committee in, 
you were very, very concerned about the local economies and how 
they would be impacted based on these decisions on road 
policies.
    For the record, would you explain what your thinking was, 
your concern about the local economies in your district?
    Mr. Hawkins. Congresswoman Chenoweth, for the most part, we 
are faced with funding many of the things that people expect 
from government in this area from basically a couple of 
sources--property tax predominantly is an issue, and when you 
up end and essentially terminate an economy that was once based 
on the resource industries, you typically remove a lot of 
property tax base from the rolls and that causes a shift. And 
when that shift occurs, it essentially means that the local 
residents then are faced with funding the same things with less 
base to spread it on.
    The symptoms of that are everywhere. We just recently put 
the finishing touches on a new school in Teton basin, took 20 
years to pass a bond to get that school built finally. And 
frankly, when that bond passed, it impacted a smaller base, to 
the extent that many farmers were very adversely impacted by 
that.
    From a broader sense, Congressman Simpson got out of the 
legislature just in time because we are now facing the specter 
of the Department of Fish & Game having the biggest budget 
problem that I can remember. I have been in the legislature 15 
years and this is as bad as it has been. And frankly, I believe 
when you close roads, there are many people who want access to 
hunt and fish that essentially begin to say this is not the way 
I want to do it, I cannot walk, I will not walk, I cannot 
expect my young children to walk----
    [Audience comment.]
    Mrs. Chenoweth. Will the gentleman yield? I would 
appreciate very much that the audience not interrupt the 
testimony.
    Mr. Hawkins. I am one that believes that the budget 
problems of the Department of Fish & Game now face at least are 
affected by the policies that we are making on public lands, 
and I think that there is some resistance now and we have seen 
that in the tag and license sales, we are seeing a flattening 
of those purchases. I believe that is part of the mix, not all 
of the mix.
    So those are the things that I am concerned about.
    Mrs. Chenoweth. Very well.
    Mr. Gerber, I wonder if we could throw the first overhead 
back up on the screen there. You showed us that in the 
southwest corner there, there is virtually almost no sightings 
at all.
    Mr. Gerber. Yes.
    Mrs. Chenoweth. Could you point out and describe for the 
record where the roads are that they are using the tank traps 
in your counties?
    Mr. Gerber. Okay. This is the Targhee portion of the 
Plateau Bear Management Unit, this whole thing is about 455,000 
acres and about 164 out here. These are the roads out here that 
were tank trapped. And you can see there were no black--for 
that ten year period, there were no female grizzly bear that 
were in there.
    Mrs. Chenoweth. For the record, so we can get it on the 
record--I know what your background is, but those who read the 
Congressional Record do not. Can you give us your background?
    Mr. Gerber. I am a forester, I worked for the Forest 
Service for 30 years, mostly in timber management and forest 
planning. I retired in 1994.
    Mrs. Chenoweth. Mr. Gerber, based on your background, can 
you see the logic in this at all? And as a county commissioner, 
were you consulted ahead of time with regards to the impact on 
the county that it might have?
    Mr. Gerber. I have to say that I can see no logic for what 
I see out there on the ground from a biological standpoint or a 
common sense standpoint.
    And we certainly had no input into any of these road 
closures ahead of time.
    Mrs. Chenoweth. And is it not true that under Idaho law, 
roads that are under the county jurisdiction, you have been 
granted by the state sole jurisdiction over the roads and the 
activity on those roads, right?
    Mr. Gerber. I am sorry, I am not quite following.
    Mrs. Chenoweth. Under Idaho law, you have been granted the 
authority as a county commissioner and the jurisdiction----
    Mr. Gerber. Yeah.
    Mrs. Chenoweth. [continuing] to handle activity on roads 
under county jurisdiction, which would include RS-2477 
roadways.
    Mr. Gerber. Right, under state law, county commissioners do 
have total control over the RS-2477 roads and I have to correct 
you, I am not a county commissioner, I am a public consultant, 
public land advisor to the county commissioners.
    Mrs. Chenoweth. All right. I see my time is up, but let me 
ask Mr. Christiansen very quickly, were you consulted ahead of 
time as a county commissioner with regard to the activity that 
took place?
    Mr. Christiansen. Excuse me?
    Mrs. Chenoweth. As a county commissioner, were you 
consulted ahead of time with regards to the activity that you 
see here in the pictures?
    Mr. Christiansen. We were not.
    Mrs. Chenoweth. Thank you very much.
    I want to thank this panel very much for your outstanding 
testimony. I know we all wish we had more time with you and we 
will look forward to reviewing your entire testimony. And as I 
said earlier, if you have additional comments that you would 
like to enter into the record, you have ten days to do so. 
Thank you very much.
    And now I would like to recognize the second panel as this 
panel leaves.
    [Applause.]
    Mrs. Chenoweth. I would like to call to the panel Mr. Marv 
Hoyt, representative of the Greater Yellowstone Coalition, 
Idaho Falls, Idaho; Mr. Bill Shurtleff, County Commissioner and 
Chairman of the Bonneville County Board of Directors, Idaho 
Falls, Idaho; Mr. Gerald Jeppesen, Madison County Commissioner, 
Rexburg, Idaho and Mr. Brett Mackert, Commander, Fremont County 
Search and Rescue, St. Anthony, Idaho.
    Gentlemen, you have all heard me explain about the lights 
and what they mean--the green light will be on for four and a 
half minutes, the yellow light for 30 seconds and the red light 
means stop your testimony. And also, as you know, you have 
received a copy of the Committee Rules and we will be swearing 
you under the oath. So I wonder if you might stand and raise 
your hand to the square.
    [Witnesses sworn.]
    Mrs. Chenoweth. The Chair recognizes Mr. Hoyt for his 
testimony.

  STATEMENT OF MARV HOYT, THE GREATER YELLOWSTONE COALITION, 
                       IDAHO FALLS, IDAHO

    Mr. Hoyt. Thank you, Madam Chairman.
    We know that the ostensible reason for this hearing was the 
Forest's use of tank traps to discourage the illegal use of 
closed roads. GYC readily concedes that tank traps may not be 
the best way to keep the scofflaws off the roads. In fact, back 
in 1994, when the Forest had the money and the staff, GYC and 
other conservation organizations proposed that the Targhee rip 
and reseed those same roads. If our proposal had been 
implemented back then, it would have made the use of tank traps 
unnecessary this last year.
    Unfortunately, the Blue Ribbon Coalition, loggers, folks on 
the Idaho Congressional delegation and county commissioners, 
all came out in opposition to this proposal. We knew then and 
we know now that gates have not prevented the illegal use of 
roads. We also know that most of the same people who claim to 
be concerned about tank traps are the very ones who did not 
want the roads reclaimed.
    Now, some five years later, the Forest has limited funds to 
effectively close these roads; therefore, the use of tank 
traps. We would like to offer a solution.
    If tank traps are the real issue, then we would be more 
than happy to work with the delegation, the Forest Service and 
other interested parties to seek funding necessary to 
obliterate and permanently put these roads to bed.
    As far as scars and aesthetics go, I know that is a concern 
for some folks, it is for us too, and if you want to look at 
scars, look at the hundreds of thousands of acres that have 
been clear cut and the thousands of miles of roads that you can 
see from outer space on the Targhee--that is a scar that will 
not go way for perhaps centuries.
    Access management is more than just tank traps and grizzly 
bears, it is about more than that, it is about protecting of a 
variety and array of public resources--water quality, 
fisheries, wildlife, soils and so forth. GYC believes that the 
Targhee National Forest took some very positive steps in terms 
of access management in the revised forest plan. The most 
important step was setting road density standards for the 
various management prescriptions. We also believe that the 
elimination of indiscriminate and highly damaging summer time 
cross country motorized travel across part of the forest was a 
significant improvement.
    We also think that eliminating the use of ghost roads was 
an improvement, and finally the new signing system for the 
roads, open roads and open trails is an improvement.
    These elements should eventually solve the problems caused 
by the widespread and illegal use of ghost roads.
    As for grizzly bear, some have said that the Plateau is not 
good grizzly bear habitat, bears do not use it. I will read 
from a February 4, 1999 memo from an Interagency Grizzly Bear 
Team committee member, which says, ``I think that if the Forest 
Service can get their planned road reductions implemented, the 
change will go a long way to improving the BMU for grizzly 
bears. With the road reductions, I think most bear biologists 
would consider the BMU good grizzly bear habitat. Without the 
reduction, it is still bear habitat and grizzly bears do use 
it. With fewer roads and less human impacts, habitat 
effectiveness in this unit can only increase. If the population 
is increasing and expanding, in time, grizzly bears will occupy 
secure habitats available to them. Remember also that the 
landscape is dynamic. Unforeseen changes within the greater 
Yellowstone area may increase the relative importance of the 
Plateau BMU.''
    There were 169 grizzly bear sightings on the Targhee 
reported to the Targhee between 1985 and 1997 and this does not 
include the grizzly bear sightings, which were numerous this 
past year, as we all know. There were also 44 grizzly bear 
sightings in 1997 alone, within one mile of the Targhee border 
inside Yellowstone National Park, in the Plateau Bear 
Management Unit.
    We think that the Forest Service has made some long-overdue 
changes in travel management. We also believe that modifying or 
abandoning these would be a bad idea.
    So far, the American public has spoken convincingly in this 
matter. This is not just a local issue. There have been 5,171 
comments received by the Forest Service as of February 11. Of 
those, 98.6 percent prefer closing roads, 95 percent of the 
Idahoans have said close the roads. Idahoans who make up .06 
percent of the population of the U.S. make up 15 percent of 
those commenting on this forest plan and are in favor of 
closing roads. I think those are some significant numbers and I 
think that the delegation needs to understand and the folks in 
this room, that this is a national forest, we all have a right 
to say and speak about it as we wish. We all have feelings 
about it and I think that many Idahoans and the American public 
are in favor of road closures to protect these resources.
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Hoyt.
    [Applause.]
    Mrs. Chenoweth. Thank you very much, Mr. Hoyt. I wonder if 
you might provide for the Committee copies of the surveys that 
you quoted in your testimony.
    Mr. Hoyt. I would be more than happy to, Madam Chairwoman.
    Mrs. Chenoweth. Thank you very much.
    The Chair now recognizes Mr. Bill Shurtleff.
    [The prepared statement of Mr. Hoyt may be found at the end 
of the hearing.]

 STATEMENT OF BILL SHURTLEFF, COMMISSION CHAIRMAN, BONNEVILLE 
         COUNTY BOARD OF DIRECTORS, IDAHO FALLS, IDAHO

    Mr. Shurtleff. Madam Chairman, Senator Craig, Senator 
Crapo, Representative Simpson, members of the panel and guests, 
my name is Bill Shurtleff and I am the owner and manager of 
Call Forest Products. I also fill the position of Bonneville 
County Commissioner. However, today my testimony will be based 
upon my 29 years of experience as a timber resource user.
    Let me begin by telling you that during the 1970s and the 
1980s, as the Forest Service was constructing many of the roads 
we are now discussing, the constant mantra was that their roads 
were the number one asset of the Forest. These were the roads 
that would allow them to manage the forest into the future. 
These were the roads that would allow them to fight fires, thin 
trees, make inspections, open for recreation and even perhaps 
allow some harvesting of trees, if needed.
    I cannot tell you how many times I have been taken to the 
woodshed by a sale administrator because a logging machine had 
damaged a road shoulder or surface. We were also shut down if 
dust reached a certain level which would cause a loss of road 
surfaces. All of this was enforced in order to preserve and 
maintain the number one asset of the Forest--the road.
    Now all of this has been reversed. I am certain others will 
talk about the process that the Forest Service went through in 
order to implement their new policy, but I would like to talk 
about what the long-term effect will be. By closing these roads 
in a manner that will virtually stop all travel for long 
periods of time, these roads will deteriorate to a point of 
uselessness. The only two means that the Forest Service has at 
its disposal to repair these roads is hard money, which I am 
sure you are aware there is very little of, or the selling of 
timber where the road construction or repair is tied to the 
sale.
    In the Targhee, this is very unlikely to take place. The 
very small sale volume that is available on the Targhee will 
not economically carry much road construction or maintenance.
    It is my opinion that this entire process will basically 
close off large portions of the forest to any management. What 
will return is the same forest we faced in the 1950s, a forest 
of lodge pole pine, old and diseased, dying and then finally 
burning. We know this because we have seen it happen before. 
And let me insert that I think that the Targhee right now is 
basically in extremely good condition, it is primarily a young, 
vibrant forest, based upon what we have done in the past. The 
strange thing to me is that I thought the action we took in the 
1970s and 1980s was specifically meant to avoid this happening 
again.
    My opinion is that roads could be closed in such a manner 
as to allow inspection travel, minor maintenance travel and 
still accomplish the objective of X number of miles of road per 
acre. This would not stop all road deterioration, but perhaps 
it could reduce it to the point that the road could be 
reclaimed at some need in the future.
    I know our topic today is road closure, but I cannot let 
this opportunity pass without commenting on what I believe to 
be the underlying design to close the entire Targhee National 
Forest to any type of commercial harvesting. It is my opinion 
that this is an objective of the present forest plan by the 
manner in which it is being carried out. I will say no more on 
this subject, but would love to discuss this topic further at 
your convenience.
    In closing, I want to thank you for the opportunity to 
appear before you today. I have great respect for the job you 
are both performing--all four of you, I should say. I have some 
feeling for the difficulty involved.
    I thank you very much.
    Mrs. Chenoweth. Thank you, Commissioner.
    [Applause.]
    Mrs. Chenoweth. The Chair now recognizes Madison County 
Commissioner Gerald Jeppesen.
    [The prepared statement of Mr. Shurtleff may be found at 
the end of the hearing.]

  STATEMENT OF GERALD JEPPESEN, MADISON COUNTY COMMISSIONER, 
                         REXBURG, IDAHO

    Mr. Jeppesen. Thank you, Madam Chairman and members of the 
Committee. It is an honor for me to be here to talk to you 
today. I represent the fourth generation of a farm community 
and farm family that live in close proximity to the Targhee 
Forest and have recreated and used those resources through the 
last four generations to build homes and to recreate and do all 
the things that people in this area enjoy doing in the forest.
    In the very beginnings of the forest plan, I was a member 
of the citizens committee and did follow that process as a 
member of the Soil & Water Conservation District in Madison 
County, and then later represented Madison County Commission on 
that same council. I do concur with what the conclusion was.
    We went through that process and everybody seemed to agree 
and it was a very workable process. But things seemed to change 
with the changing of the road density in the bear management 
units. Everyone on that committee had agreed to a certain 
number of roads and then we were told we could not do that 
because of an agreement with Fish & Wildlife Service, and then 
the next thing we knew was when the open road plan came out, 
the same agreement that we had agreed to on the bear management 
unit, the primary one, was asserted to all the other areas of 
the forest. That was very, very disturbing to us because that 
was never mentioned until that final plan did come before us as 
county commissioners or as residents.
    At that point, we became very involved in the 2477 process 
and before you, you have a map of Madison County's assertions. 
What we have done is we have taken the roads that are 
recognized by the Forest Service on their plan, those are in 
yellow. The ones that are in purple are the ones that are 
designated by our county and the county commission as 
designated 2477s and those that do overlap have kind of a 
yellow-purple color. So if you would like to review that with 
me later, I would be glad to go over that map with you.
    We did submit this to the Forest Service, they did come out 
with their second DIS on open roads. We found quite a bit of 
confusion on their maps. They have designated some of our roads 
that were designated as 2477s as closed, others were listed for 
decommission and we were very upset by the prospects of that. I 
do have in your file though a letter from Jerry Reese that did 
come forward after the plan was submitted and said that no 
action would be taken on those roads without consultation with 
county commissioners in Madison County, and we do agree with 
that proposed approach on these roads. We believe that no 
designation can be made on them until some kind of an agreement 
is made between the county commissioners and the Forest Service 
on those roads. We have also asked that those roads be 
eliminated from the forest plan process because we do believe 
that counties do have the authority over those roads and they 
should not be included in the forest plan to begin with because 
those are county roads.
    One of the great diversities of this is two years ago, the 
Forest Service approached us to actually take over ownership of 
many of the roads we have listed as 2477s. We did at that time 
take over approximately eight to ten miles of those roads, we 
have maintained those for the last two years, but because of 
paperwork with the Forest Service we have not received title 
for those, so there is no way for the state to pay us for those 
roads, for the upkeep that we have been doing on them.
    We believe that roads, if maintained properly, do not have 
any effect upon the environment or upon streams or anything in 
the area, and we have been doing our part to maintain those 
roads.
    We are very concerned about closure of ghost roads. Most of 
those roads are a quarter of a mile to half a mile in length. 
The primary use of these roads is for the public to get off the 
main road to camp and enjoy the surroundings of the forest 
without having someone drive through camp every 15 or 20 
minutes. Most of the local residents have used these camping 
sites for many years with little or no effect on the forest. 
Closure of these roads would force campers into organized 
campgrounds that are already crowded or force them to camp on 
both sides of the roads that are heavily trafficked. This in 
turn will force the public out of the forest putting undue 
pressure on private landowners.
    This is not the forest experience that most of us have 
grown up with and we would ask for your support in this 
investigation to help make these roads be open because they do 
provide a valuable part of the culture and nature of Madison 
County and the surrounding areas.
    Thank you very much.
    Mrs. Chenoweth. Thank you, Commissioner.
    [Applause.]
    Mrs. Chenoweth. And now we will hear from Commander Brett 
Mackert of the Fremont County Search and Rescue.
    [The prepared statement of Mr. Jeppesen may be found at the 
end of the hearing.]

 STATEMENT OF BRETT MACKERT, COMMANDER, FREMONT COUNTY SEARCH 
                 AND RESCUE, ST. ANTHONY, IDAHO

    Mr. Mackert. Thank you, Madam Chairman and fellow 
supporters.
    This summer--first of all, I bring to you a story of how I 
was exposed to this road closure issue. I work at a 
correctional facility in the state of Idaho and in that 
correctional facility, we take youth to the forest and we do 
service projects for the Forest. Our service project chosen for 
the day was to scout areas to put trees, a very worthy project, 
I would say, a very worthy project, to go in and actually put 
trees into the forest. That is the idea of forest management.
    When we get on site that morning, we have to go through a 
locked green gate, as all of you are probably aware of what 
they look like. There was no traffic behind that gate or there 
had been none. We drive down the road for about a mile and a 
half to two miles, we come to another locked green gate. Still 
no traffic on the road, still none. Immediately behind the 
second locked green gate is where the tank trap started--one, 
two, three. Evidently they did not feel like the gates was 
working in that area. They were, they were working very well. 
There was absolutely no way anyone could get around the gates 
where they were located.
    Not only were there tank traps, there were large rocks 
rolled onto the road and then I would think that the thing that 
appalled me more than anything else at that point was a tree, a 
single tree, broken off about 15 feet in the air, 10 to 12 
inches in diameter, toppled in amongst these tank traps. For 
someone who is supposed to manage the forest and take care of 
the trees, it appalled me. I said little about it, you know, at 
that point, the damage had already been done.
    I was called to Island Park to look at another situation. I 
was asked to go and look at the Flat Rock Road in Island Park, 
a popular road in the summer time for people who ride four-
wheelers. It is a flat area, there is no hills, the road is 
just entirely flat. On that road, the tank traps started and 
approximately every 75 yards there was another one and another 
one and another one. Well we had walked down the road a short 
distance and my young son, who is seven years old, he says to 
me, he says, ``Dad, what does the sign say?'' And there a sign 
next to a tree said the following, in essence it was this is a 
forest test plot, damage to this area is something to the 
nature of imprisonment in law, enforceable by the Forest 
Supervisor. Piled at the base of this sign is the branches off 
the tree where the excavator had scraped them off approximately 
15 feet in the air.
    That day, we walked past 14 tank traps. We did not go to 
the end of the road, that was as far as we made it, was 14 of 
them. Fifty trees had the bark and branches scraped off of one 
side of them, six trees were busted off and tipped over and 14 
tank traps. I am sorry, that is significant, that is not taking 
care of the resource, that is destruction of a resource.
    One of the three reasons that Mr. Gerber spoke of was 
erosion. I wonder how those 14 tank traps that we walked past 
are going to look come spring time, and where that dirt and 
that erosion is going to head to. It is a sad, sad thing in 
this world that we can destroy this and say it is for the 
betterment of the forest. There has got to be a better method--
there has to be.
    Mrs. Chenoweth. Thank you, Mr. Mackert.
    [Applause.]
    Mrs. Chenoweth. The Chair recognizes Senator Crapo for 
questioning.
    Senator Crapo. Thank you, Madam Chairman.
    Marv, I would like to direct my first few questions to you. 
It seems to me that one of the issues with regard to the tank 
traps is whether the gates actually work, and if I understood 
your testimony, you do not believe the gates do work to keep 
the traffic off the roads.
    Mr. Hoyt. That is correct. I think that from my own 
personal experience they do not work; for many people I have 
talked to, they do not work; and from a project called the Road 
Scholar Project where a group of young folks monitored those 
gate closures and the effectiveness of them over a two year 
period on the bear management units and found--and I do not 
have the exact percentage, but a high percentage, well over 50 
percent, were not effective at all. Partially effective, there 
was a percentage and so forth. So no, it is not only my opinion 
and my thought, it is--I think it is pretty well substantiated.
    Senator Crapo. What did you think of the suggestion by Mr. 
Shurtleff that--I think it was Mr. Shurtleff--that--I hate to 
characterize other people's testimony for them, but I think 
what he was saying is that he thought we could find a way to 
monitor it effectively, but that we should keep the roads 
available for potential future use, just stop their usage now.
    Is that fair, Mr. Shurtleff, as a restatement?
    Mr. Shurtleff. [Nods head.]
    Senator Crapo. What do you think of that idea both in terms 
of if it could be achieved, would that be an acceptable 
solution, and do you think it could be achieved?
    Mr. Hoyt. I think that it could be an acceptable solution. 
Keep in mind that the areas where most of those roads go were 
lodge pole clear cuts, it is going to be 60, 80, 100 years from 
now before those trees are available for harvest. And I think 
the other thing to keep in mind is that since the road closures 
have not been effective and unless there is a significant 
increase in the Forest Service's budget for law enforcement to 
make sure that the roads stay close and those closures are 
effective, it simply will not meet the requirements of the 
biological opinion.
    Senator Crapo. What is the road density now in the Targhee 
and what is the level of road density which is acceptable from 
your point of view for proper management?
    Mr. Hoyt. Well, I think that each of the management 
prescriptions, each has its own road density. In grizzly bears, 
it is .06 miles per square mile, I believe. In the core areas, 
it is 0 miles per square mile. For elk, it is other densities. 
So each area of the forest--there is not a blanket prescription 
that covers the entire forest. And all of those were calculated 
to protect not just grizzly bear and elk, but water quality, 
cutthroat trout spawning and so forth. And I think that they 
are a key component and a key element of the forest plan. And 
for folks to say that we could change that without doing a 
significant plan amendment or without involving the public or 
taking a lot of time, are simply fooling theirselves. If the 
entire forest plan is based on road density standards, which it 
is, to protect those resources, we would be looking at a 
significant amount of time, significant amount of money and I 
do not think that the outcome would be any different than what 
we are looking at today. And I do not think the American people 
or the people of Idaho or the Forest Service or anybody else is 
really interested in jumping back into that after spending the 
last eight years doing that.
    Senator Crapo. You know, one of the things that I think is 
a core issue that a lot of these other issues relate to is the 
question of whether the forest is open except when designated 
closed or closed except when designated open. I think that gets 
to sort of what I think Senator Craig referenced as the culture 
of our usage of the forest historically here in this area. I 
know that is my cultural experience here. And I come to it from 
an approach of supporting open unless designated closed, but 
supporting reasonable management for making sure that we close 
those areas that need to be adequately protected.
    You gave some numbers in your testimony about the support 
for closing the roads.
    Mr. Hoyt. Yes.
    Senator Crapo. Were those numbers directed at supporting an 
open versus closed--excuse me, a closed unless designated open 
policy or were they a tabulation of those who supported one or 
another version of closing roads?
    Mr. Hoyt. I believe that virtually--I would say that over 
90 percent, maybe 98 percent of the figure that I gave you 
favor road closures and each of those, what they say is--and I 
think you have seen some of these postcards with comments that 
have come in on, they say keep the ghost roads closed, keep the 
road density standards and keep the signed open, otherwise 
closed part of the forest plan. And I think that the important 
thing to remember on that particular issue is it directly 
relates to the issue of road density standards.
    In the past, for many people, virtually anybody that has 
spent any time on our national forests, when you see a road 
closed sign, it is almost always full of holes, laying face 
down in the mud with motorized tracks beyond it. And that is 
why it is important to have it signed open. People are not 
going to tear those signs down then, you will have plenty of 
people that will try to violate that, but it will be a blatant 
violation, and I think it is the way to prevent those signs 
from being torn down.
    Senator Crapo. Thank you.
    Mrs. Chenoweth. The Chair recognizes Congressman Simpson.
    Mr. Simpson. Thank you.
    Marv, let me ask you, do you agree with the statements that 
were made that the grizzly bear were doing fine and coming back 
and that the elk herds were doing--are doing fine?
    Mr. Hoyt. I think since the Forest Service began better 
enforcement on some of its road closures and so forth, that the 
elk populations have increased. That is a layman's observation 
and I would certainly defer to Fish & Game, and I think that 
anybody that really wants to get at the answer to that question 
ought to be talking to the biologists that work for Fish & Game 
in this region. They are the only ones that I believe can 
answer that clearly and effectively and accurately.
    Mr. Simpson. I will ask the Forest Service and those people 
and I will ask those individuals at the proper time too.
    If it is true that they are coming back, then what are we 
protecting, if--by going in and doing the tank traps? I mean 
apparently the gates, even though some people were going around 
them, were doing the job they were intended to do.
    Mr. Hoyt. Again, I cannot answer specifically, I am not a 
biologist, all I can say is that the gate closures have helped 
that problem. However, I believe it was prior to 1990 or so, 
and I am probably not exactly accurate on that, there used to 
be--actually it was prior to that, back in the 1970s, that area 
had I think a 30 or so day any elk season. That was cut down to 
a five day spike only hunt in the 1980s because of the amount 
of roads and habitat alteration. I think over time the elk 
numbers have come back. I do not know the exact figures.
    For grizzly bears, I think that the Interagency Grizzly 
Bear Team that I quoted from the memo stated it correctly, 
grizzly bears do not--will use the BMU if the roads are 
effectively closed. And that is the issue, it is not just 
closed, not just gated, but effectively closed. And they have 
used it more often in the last few years, notwithstanding the 
ancient research that Mr. Gerber's slide was based on. There is 
much, much more recent data that shows the exact opposite. So 
again, I would defer to biologists to answer that question.
    Mr. Simpson. Let me ask just a general question and any of 
you might want to answer it, if you can. It is a rather naive 
question on my part, I guess. It seems like environmental 
questions are the ones that seem to divide us the most, are the 
most politically sensitive that we get, as we have out here, 
people on both sides of the issue very emotional about it. I 
think an overwhelming majority of people, whichever side of the 
issue you are on here about closing these roads, agree with 
saving grizzly bear habitat, elk habitat, stopping erosion in 
the forest and so forth. Most people do not want clear cuts. 
There are people on both sides, there are people on one side 
who feel that any human being in a forest is an intrusion and 
should not be there. There are people on the other side who 
feel that any clear cut tree was meant to cut. But an 
overwhelming majority of people are environmentally sensitive 
people that want to take care of our national forests. How do 
we resolve this problem that seems to divide us so much 
politically?
    Mr. Hoyt. You know, if I had the answer to that, man, I 
would be a millionaire consultant. There is not an easy answer 
to that question. I think a lot of people look at things 
differently and that is the problem. I think that the Forest 
Service has actually made a pretty good attempt. There were, by 
some calculations as many as 3,300 miles of open roads or roads 
that were built on the Targhee and were there ten years ago. 
There are now, if this forest plan and this travel plan, which 
we hope to see implemented, there will be about 1,600 and some 
miles of roads, about half. To me, that seems to be striking a 
balance. And I think that is what we are really talking about, 
is balance. We are not in favor of closing all the roads or all 
the trails. We would like to see a balance, a balance that 
effectively promotes wildlife protections, allows those of us 
who like and prefer non-motorized muscle powered recreation to 
be able to do that without having to walk or run into a 
motorized vehicle, but also allowing the folks that like 
motorized vehicles to have their place in the forest too. I 
cannot imagine with 2,200 miles of open roads and trails still 
open that people say there is no access. That is enough to 
stretch from Chicago to Seattle. That is how many will be left 
open after this travel plan is implemented. It is not denying 
anybody access, just maybe not to a specific place and every 
place by motor.
    Mr. Simpson. Anybody else care to----
    [Applause.]
    Mr. Jeppesen. Really quickly, from the standpoint base as a 
farmer and a land manager, we would like to see the forest 
managed. What we see happening is everything ceasing to exist 
and no management at all happening. There has to be a mix here 
where there is good management of the forest. That has to be 
done in many, many different ways. There has to be some grazing 
and there has to be some forest cutting and there has to be 
recreation. All those things are important components of the 
forest and they have to be there or we go back to that 
philosophy that the only way to manage something is for nobody 
to be there at all. I do not think we can live with that kind 
of explanation in this time and age.
    Mr. Simpson. Thank you.
    [Applause.]
    Mrs. Chenoweth. The Chair recognizes Senator Craig.
    Senator Craig. I notice that Commissioner Shurtleff was 
wanting to respond. Go ahead and respond and then I will ask my 
questions.
    Mr. Shurtleff. Thank you, Madam Chairman, Senator Craig.
    What I wanted to respond to is I want to kind of preface 
the fact we say everybody is for grizzly bear habitat and want 
to preserve that, and I do too. But I want to specifically make 
sure it is habitat before I try to preserve it. I do not want 
to just preserve it because it is a piece of ground.
    [Applause.]
    Mr. Shurtleff. The other thing that I wanted to respond to 
there was we talk about the amount of roads that we will be 
able to use will be cut in half. And I have no problem with 
that, to be very honest with you. What I want to make sure that 
the other half that we block off are still available to us, 
because let us go back to the original reason we built these 
roads in the first place. We built these because the Targhee 
was a dead, dying forest and we had to do something about it to 
revive it and bring it back into operation. If we wipe out half 
those roads, we will be exactly in the same place somewhere 
down the road because we will have half the amount of roads. 
What I am saying is that if we need to block them off for 
certain periods of time, let us keep them blocked off to where 
they can be reopened, they can be revitalized if needed at some 
point in the operation. To block them off now, they are gone.
    Senator Craig. Thank you.
    [Applause.]
    Mrs. Chenoweth. The Chair really does appreciate--and I 
would like to stop the time for the Senator, your applause, but 
the fact is that we must conduct this hearing and be finished 
by 5 p.m. So I would ask from this point in time on that you 
restrain from applauding. Thank you very much.
    Now we will start the clock again.
    Senator Craig. Thank you, Madam Chairman. I have always 
said as I have chaired committees applause is not recorded for 
the record. And we do appreciate it, but it will eat into time 
and I think the testimony and the questions that go into the 
record are more important.
    Mr. Hoyt, a couple of questions of you. I have I guess in 
the course of the last 17 years attended over 200 hearings on 
resource management. Almost all of them have been polarized 
with conflict. I am very concerned about that. I have not been 
at all excited about the conflict in the end. I do not know how 
to express it otherwise. I have seen communities divided, I 
have seen anger result in physical violence.
    And it largely began when we decided that we would start 
managing our resources from the top down. We would decide 
national schemes, force them into local or regional areas with 
little domestic or local input. I understand why that happened, 
it was to build a greater environmental ethic than existed at 
the time. I think that this country has come a long way in a 
positive sense in the last 20 years in the growth of a positive 
environmental ethic. I think it is reflected in this room 
today. I think it is reflected from both sides.
    There is no question what we think about our environment 
today. Everybody wants to be an environmentalist. I do not know 
of a politician this year who ran on an anti-environmental 
platform. Everybody is for clean air and clean water and 
quality habitat for wildlife. But the conflict still goes on. 
It is people versus no people in some instances.
    I have just completed two and a half years of hearings with 
everybody at the table including every environmental group that 
wanted to come, to try to find a way around the conflict, to 
look at new decision-making processes that would result in less 
conflict. We have examined one that seems to work a bit, it is 
called the community collaborative process, with all parties at 
the table equally represented.
    That is why I watched the Targhee so closely. It seemed to 
be working for a time until a group spun off and filed a 
lawsuit. I do not recall now who that group was. Were you 
involved in that?
    Mr. Hoyt. That lawsuit was filed by the Idaho Conservation 
League, the Greater Yellowstone Coalition and the Wilderness 
Society and a variety of other groups, several of whom were 
participating in----
    Senator Craig. But not at the table?
    Mr. Hoyt. No, that is incorrect.
    Senator Craig. Did those environmental groups have 
representation at the table of negotiation?
    Mr. Hoyt. Absolutely. Lynn Kincannon, who you well know, I 
believe----
    Senator Craig. Yeah, I know her well.
    Mr. Hoyt. [continuing] worked for the Idaho Conservation 
League and was attending those meetings until she was 
threatened.
    Senator Craig. Threatened?
    Mr. Hoyt. Yes.
    Senator Craig. I see.
    Mr. Hoyt. She said that she was threatened and intimidated 
and that happened in about 1994 or 1995 and she said she would 
not go back.
    Senator Craig. Okay. Well, the reason I asked that 
question--because obviously it broke down for some reason. A 
lawsuit was filed, the Forest Service would not fight it, they 
negotiated it out of court, settled it and we have the conflict 
we have today based on road density, I do believe.
    Mr. Hoyt. That lawsuit only applied to the Plateau Bear 
Management Unit on the Targhee, it did not apply to the entire 
forest.
    Senator Craig. That is correct. But it did apply to the 
road density in that area, did it not?
    Mr. Hoyt. It applied the road density standards that the 
science said were needed to protect grizzly bears and the 
reason the Targhee and the Forest Service settled in court--not 
out of court--they settled that----
    Senator Craig. It was in court?
    Mr. Hoyt. It was settled in court. That lawsuit is still 
valid and can be re-activated at any time.
    Senator Craig. Oh, I know it is, that is why the Forest 
Service is making the decisions it is making, I understand.
    Mr. Hoyt. But that lawsuit, the decision was--their 
solicitors, their biologists looked at it and realized that 
they had in fact ignored the Endangered Species Act, and to be 
in compliance with that law, they felt that they had no 
recourse.
    Senator Craig. Where is the science of road density? Who 
determines what is the right density?
    Mr. Hoyt. That is based on research by various grizzly bear 
biologists that has taken place for many years. Some of those 
are parts--part of that research has been conducted in Idaho 
and around the west, and Idaho scientists have been involved 
with that.
    Senator Craig. Okay. Well, the reason I bring this point up 
is because the negotiations failed or at least certain groups 
felt it was failing and they spun away and filed a lawsuit.
    I am trying to craft a law that would allow full 
representation at the table and once a community collaborative 
process was decided, while people could spin out and file in 
court who think they could win a better position in court, it 
would hopefully result in less conflict. And in areas where it 
has been effectively used, it appears less conflict is 
occurring. Somehow, we have got to get there and bring local 
communities of interest back into the process.
    So I just want to make that statement for the record 
because I was hopeful it would work here. It has not worked, 
largely because the formal structure did not exist and certain 
groups were not willing to play within the range of that 
structure, Madam Chairman.
    Thank you.
    Mrs. Chenoweth. Thank you, Senator.
    Mr. Mackert, you--did you wish to comment to that?
    Mr. Mackert. You know, we have been around Fremont County 
for years taking care of the people in Fremont County that get 
lost. For years and years we have done this, I have been 
involved in this since I was 18 years old and I am now 39. I 
have been the commander of our rescue unit for seven years. And 
when I asked our people how many roads were being breached, 
they come up with five--five.
    We have the authority to open those gates and go and help 
find people. Inevitably what we find as soon as we open the 
gate is trees that are tipped over, nature taking its course to 
reclaim the road. And most of the time that stops us. The 
destruction that has went on in this forest is--I just cannot 
bring words to describe it, it is sad.
    I pose the question to you, if you have a flat tire, do you 
send your car to the crusher to fix it? If the gate did not 
work, move the gate a little bit or put a little bit more of a 
barricade around the gate. Do not do the destruction to the 
forest that was done, please. It is sad.
    Mrs. Chenoweth. Thank you, Mr. Mackert.
    [Applause.]
    Mrs. Chenoweth. Sorry, no applause, please.
    I would ask that all signs be held down, as I did at the 
beginning of the hearing, so those behind you can see. Thank 
you very much.
    I would like to ask Mr. Shurtleff what would you consider 
to be the reasonable timber sale level for the Targhee 
considering growth rates, in a forest that is predominantly 
lodge pole pine with very little Doug fir or whatever other 
species in it? What would you consider to be the reasonable 
timber sale level and the volume estimates?
    Mr. Shurtleff. From my experience, Madam Chairman, it would 
be somewhere around 20 million board feet I think this Forest 
Service could handle, but let me tell you, I am not too 
concerned about the level that we start as long as we are on an 
approach. What concerns me most of all is the fact that now 
that we have established an annual sale quantity of 
approximately eight million feet, of which my understanding is 
they will only accomplish about half of that if they are lucky. 
That means they are going to actually sell about four million 
feet. Of that four million feet, it will be predominantly Doug 
fir. My opinion is that what they are doing basically is 
driving those who have situated themselves to be lodge pole 
pines--and to be honest with you, we thought we were basically 
a conservation type outfit. In other words, we stuck around and 
were going to try and stay here so that we could help preserve, 
because we do think it takes some tree thinning, some 
harvesting to make a forest survive. What I am concerned about 
is the fact that now the plan that they have in place is going 
to be predominantly Doug fir, so therefore, lodge pole pine 
users or people who can use that and put a product to it will 
all be gone when the Doug fir runs out because 20 years ago, we 
thought that Doug fir was basically gone out of the Targhee. So 
that is my big concern, is the way they are interpreting and 
using the plan is basically going to take all the resource 
users out of the business. Then at some point in time when they 
say well gosh, we could sell some lodge pole pine now, they 
will say but there is nobody here to buy it.
    Mrs. Chenoweth. Thank you, Mr. Shurtleff.
    I wanted to ask Mr. Hoyt. I have reviewed the testimony of 
Mr. John Burns and also of Steve Mealey, and we will be hearing 
from them on the next panel, but I am going to let you have a 
peek at their testimony in my question, because Mr. Burns says 
that the elk herd has grown from 800 to 4,000, and as you know, 
even Secretary of Interior Bruce Babbitt and many other people 
have testified too and stated that the grizzly bear population 
is growing, to the point now where the grizzly bear may even be 
delisted. And what we are hearing now from Fish & Wildlife 
Service and so forth is that it may take more money and more 
space for the grizzly bear. So we have a growing population of 
grizzly bear that is expanding out. What happens when it 
expands clear into areas such as this? I mean, it is not 
impossible to think that could happen. Do we just move the 
people out?
    Mr. Hoyt. Well, I guess my answer to that is that the 
grizzly bear has been here long before people and probably may 
well be here long after people have lived in this area. It just 
so happens for the last 100 or so years, we have managed to 
kill most of them off. I think that I would certainly hope that 
the director and one of the commissioners who may speak from 
Fish & Game do not refute the last eight years of what their 
staff biologists have been saying about grizzly bears and about 
elk on the Targhee National Forest. That would certainly be a 
shame and it would certainly cause me to question whether those 
are political statements or whether they are reflecting the 
views of those dedicated wildlife biologists that work for that 
agency.
    Mrs. Chenoweth. Mr. Hoyt, as the grizzly bear population 
expands, as their sightings expand, is it the vision of the 
Greater Yellowstone Coalition to be able to close the roads 
wherever the grizzly bear population expands?
    Mr. Hoyt. No, that has never been our position. Right now, 
while we do not believe the sort of boundaries of the recovery 
area are probably adequate to sustain grizzly population, a 
recovered grizzly population, frankly we do not have a 
recovered grizzly population and currently there is no intent 
on anybody's part that I know of, except for some who believe 
that the U.N. is flying around in black helicopters trying to 
do this sort of thing, that that would ever take place.
    Mrs. Chenoweth. Thank you, Mr. Hoyt.
    I want to thank this panel for their outstanding testimony. 
I think we are just about on time and we will call the next 
panel. I will call Mr. Steve Mealey, Director of Idaho Fish & 
Game, accompanied by Mr. Jeff Siddoway, Idaho Fish & Game 
Commission. Mr. Siddoway is from Terreton, Idaho, Mr. Mealey 
from Boise, Idaho. Mr. Mealey is also accompanied by Mr. Fred 
Wood, Idaho Fish & Game Commission from Burley, Idaho.
    Also, the second member of the panel is Mr. John Burns, 
former Targhee National Forest Supervisor, now residing in 
Carmen, Idaho.
    We would ask that the hearing room come to order please. I 
would ask that the panel, anyone who is going to be giving a 
statement for the record, please stand and raise your hand to 
the square.
    [Witnesses sworn.]
    Mrs. Chenoweth. The Chair now recognizes Mr. Mealey.

STATEMENT OF STEPHEN P. MEALEY, DIRECTOR, IDAHO FISH AND GAME, 
                          BOISE, IDAHO

    Mr. Mealey. Madam Chair, I am very pleased to be here. I am 
Steve Mealey, Director, Idaho Department of Fish and Game and 
pleased to be here with Commissioners Burns and Siddoway.
    I want to begin my statement very briefly, and the longer 
statement is submitted for the record, but just a brief 
summary.
    I would like to clarify, first of all, the road status that 
would result from implementation of the proposed action inside 
the grizzly bear management units and outside those units.
    Accompanying my testimony are some pie charts that show 
those numbers, but simply, they show that inside the bear 
management units, some 38 percent of roads are left open and 62 
percent are decommissioned or have some motorized restrictions. 
I want to also make clear that Fish and Game was not a part of 
the consultation process and had no jurisdiction in the 
decision.
    Outside the BMUs, the situation is reversed, with 65 
percent of the roads remaining open and 35 percent 
decommissioned or restricted.
    The Fish and Game Department worked with the Targhee Forest 
in developing travel management planning outside the BMUs. We 
developed criteria that were necessary to meet department goals 
for hunting and fishing opportunity for the sports men and 
women of the state. Elk and cutthroat, that is Yellowstone 
cutthroat, were the key species of concern. Let me speak about 
each briefly.
    Yellowstone cutthroat have been petitioned for listing 
under the Endangered Species Act, as I am sure you know. Some 
road closures on the Targhee were implemented to address 
Yellowstone cutthroat needs, especially those related to 303d 
listed streams related to sedimentation and other impacts to 
Yellowstone cutthroat. Maintaining and improving habitat is 
essential to keep the species off the list and retaining state 
control over management.
    Let me turn briefly to elk, and I have a map attached to my 
testimony that will illustrate this. For the Island Park Zone, 
which makes up a number of elk management units, big game 
management units, our post-season elk population goal is for 
some 1,800 cow elk, some 575 bull elk and up to 350 adult 
bulls. We also would like to have a 35 bull per 100 cow ratio 
and some 22 adult bulls per 100 cows in this area.
    The elk hunting goal is to provide as much general season 
hunting as possible and minimize the use of restrictive 
controlled hunting. Our purpose is to maximize hunter freedom 
and to maximize hunter opportunity.
    Currently our elk population goals in the area are being 
met. I also want to say that our hunting opportunity goals are 
not. And the reason for that is that we simply have more 
controlled hunting opportunities than we would like. Basically 
there are two strategies available to the department and the 
commission to deal with this.
    As elk hunting demand increases, we only have two 
strategies to respond. We can either meet our elk population 
goals through restricted hunting opportunity through controlled 
hunts with minimal travel restrictions, or we can provide 
general hunting opportunity with some restricted access. Based 
on some extensive public input, the Commission, with the 
Department's recommendation, has chosen the option which 
maximizes general hunting opportunity, minimizes controlled 
hunts and provides that through some limited access management. 
And as I said, outside the bear management units, that has 
resulted in about two-thirds of the roads remaining open.
    If there are questions that relate to the logic for why 
these are needed to provide for quality herds, that is 
appropriate ratios of bulls to cows, I will be happy to address 
that in a question, but I will not burden you with the details 
of that, it is in my testimony right now.
    Again, I want to repeat the situation for us with elk. 
Generally the public has told us that they prefer general 
hunting opportunity on the Targhee National Forest with some 
travel restrictions as opposed to more controlled hunts, the 
loss of general hunting opportunity and fewer travel 
restrictions. We are about to engage in our annual series of 
public hearings before our 1999 big game seasons and if our 
assumption is not the case, then folks need to come to these 
meetings and let us know. I certainly urge strong public 
participation in the process so we can make, in our final 
recommendations to the Commission, those that best reflect the 
feelings of our strongest constituents, those people who hunt 
and fish.
    Let me close by saying that we have recently revised our 
elk and deer plans for this area and we will also soon be 
inviting Forest Service planners to sit down with us to make 
sure that our earlier planning criteria remain valid.
    I will be very happy to answer any questions.
    Mrs. Chenoweth. Thank you, Director Mealey.
    The Chair now recognizes Mr. John Burns.
    [The prepared statement of Mr. Mealey may be found at the 
end of the hearing.]

    STATEMENT OF JOHN BURNS, FORMER TARGHEE NATIONAL FOREST 
                   SUPERVISOR, CARMEN, IDAHO

    Mr. Burns. Madam Chairman, Congressman, Senators, thank you 
for the opportunity to speak today.
    I have been a member of the Idaho Fish and Game Commission 
since 1996. Prior to that, I retired as supervisor of the 
Salmon Forest in 1994. From 1980 to 1989, I was supervisor of 
the Targhee. The Targhee Land Management Plan was developed and 
implemented during that period.
    My purpose today is to provide some historical perspective 
which may be of value to the Subcommittee and you as you 
examine the question of roads and wildlife on the Targhee. 
Indeed, those very questions were central to us as we developed 
the original Targhee Land Management Plan and implemented the 
salvage program in the 1980s.
    By 1980, an epidemic of pine bark beetle had killed several 
hundred thousand acres of lodge pole in the Island Park and 
surrounding plateau areas. Those who did not see the forest as 
it was then, now have a very difficult time imagining the 
devastation that was present at that time. Lodgepole is 
particularly adapted to regeneration. The tree has cones which 
remain closed until the tree dies and heat causes the cones to 
open, releasing the seed. This combination of factors, vast 
insects killed pine stands and the reproductive characteristics 
of the tree, led us to devise a strategy to reforest most of 
the Island Park and plateau area. It would also salvage most of 
the useable wood. At the same time, road construction and 
logging disturbance would be held to a minimum on the 1.8 
million acre forest.
    Our plan was intended to replicate the effect of natural 
fire, but without the damaging effects of wildfire. The trees 
were cut in large blocks, clear cuts, removing the logs and 
letting the sun dry out the cones on the scattered slash and 
the treetops.
    Two other major considerations--much of the area in 
question was classified as grizzly bear habitat under the 
Yellowstone guidelines. We received a section 7 finding of ``no 
jeopardy'' from the U.S. Fish & Wildlife Service due to the 
fact that the salvage program would focus mostly in Situation 
II habitat and in non-grizzly habitat. In other words, that 
area of the Targhee, the plateau country and most of Island 
Park, were actually considered incapable of supporting a 
resident grizzly population.
    Concurrently, the Targhee was involved in shifting sheep 
grazing to avoid sheep/bear incidents. Typically grizzlies 
would move out of the park in early fall and take sheep prior 
to winter hibernation. Also, an intensive campaign was launched 
to eliminate bear attractants such as open dumps which were 
associated with the human population in Island Park. In 
addition, improved cleanup of highway killed deer, elk and 
moose was accomplished. The net effect, of course, was that the 
major elements of food for grizzlies in that locality--
livestock, garbage and road kills--was significantly reduced or 
eliminated. If bear use and sightings have since declined, it 
should not surprise anyone.
    The second additional factor shaping the salvage program 
was elk. Most of the Island Park and plateau area was not prime 
elk habitat. The Douglas fir breaks on the sides of the buttes 
and plateaus was considered good habitat, but the lodgepole 
country had little undergrowth and little surface water and was 
not. Elk typically migrated across the area to their winter 
range in the junipers and sandhills country west of St. Anthony 
in just a matter of a few days.
    The principal concern relating to elk was increased 
vulnerability to hunter harvest as a result of more roads and 
less hiding cover. This question was examined in great detail 
considering such things as the acreage to be treated each year, 
the road miles to be built and the speed of reforestation and 
tree growth. Our analyses indicated that the planned program 
would not adversely affect the elk population goals, but we did 
recognize that hunting limitations might be necessary in order 
to achieve other goals.
    A major additional benefit was realized as much of the 
acreage that was cut actually grew back in species other than 
lodgepole--aspen, for example, and other shrubs and herbaceous 
vegetation. This helped the wildlife.
    In any case, it soon became obvious that hiding cover was 
rapidly reestablishing itself in the treated areas. The new 
stands were capable of concealing an elk quite quickly and they 
now provide very challenging hunting. They are dense and thick 
and it is hard to hunt.
    The bitter lesson of ignoring habitat management now faces 
the Idaho Fish and Game Commission in the Clearwater country of 
northern Idaho. What was once the finest elk herd in Idaho has 
crashed due in large part to predators and the inexorable 
decline in habitat capacity for big game when the forest closes 
in with maturity. Unfortunately, the need for active forest 
management is all too often ignored or even denigrated until 
disaster--be it insects, fire or declining big game herds--
faces us. We need to keep in mind that we have to manage the 
forests for the type of future desired.
    Thank you.
    [The prepared statement of Mr. Burns may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you, Mr. Burns.
    The Chair recognizes Mr. Simpson for the first line of 
questioning.
    Mr. Simpson. Thank you, Madam Chairman.
    Mr. Mealey, I have got the Fish and Wildlife guys here now. 
It has been mentioned that the grizzly bear habitat or the 
grizzly bear population is increasing, is on the increase, and 
that the elk population is on the increase. Is that accurate or 
inaccurate?
    Mr. Mealey. Senator, I am sorry that I did not hear.
    Mr. Simpson. Mr. Mealey, it has been mentioned that----
    Mr. Mealey. Congressman--excuse me.
    Mr. Simpson. [continuing] the grizzly bear are on the 
increase and that the elk population are on the increase. Is 
that accurate or inaccurate?
    Mr. Mealey. That is accurate.
    Mr. Simpson. If those are in fact on the increase and we 
are closing roads in order to protect their habitat, is that 
not sort of evidence that the road closures before the gatings 
were in fact being effective and that the tank traps were not 
necessary?
    Mr. Mealey. Madam Chair, Congressman, let me separate that 
question into two pieces.
    Mr. Simpson. Okay.
    Mr. Mealey. Because you have asked me the question that I 
said I would defer until you asked me a question. It is clear 
that the elk herd in this part of the world has expanded from a 
handful of elk in the 1930s to approximately 4,000 now. And you 
can tell by my response I am referring to an area that is 
larger now than the Island Park Zone. This herd expanded in the 
presence of a lot of human activity, including road 
construction, timber harvest, livestock grazing and lots and 
lots of activities, including general hunting.
    So it is fairly easy to say, goodness, there is no problem. 
But in fact, there is a very serious problem. And that is that 
unrestricted access resulted in harvest of the bull segment of 
the herd to the extent that in the late 1970s, hunters were so 
effective that they were literally killing all the spike bulls.
    So the question was not so much the total number of elk as 
the quality and the composition of the herd. And without 
getting too detailed here, you do recall that I mentioned some 
parameters for the herd that included wanting some 25 adult 
bulls per 100 cows. The reason for that is to assure that 
breeding occurs at the appropriate time in the season and adult 
bulls will do that in September, the first time that the cows 
cycle, assuring that calves are born around the first of June 
and obtain a weight that allows them to get through the winter. 
If you lose that segment of the herd and breeding occurs by the 
younger segment, sometimes the cows do not bear until late 
June, as a result of late breeding. That has implications for 
calf survival.
    So what was important was that we restrict the harvest so 
that we could retain a good quality of herd composition. So it 
is more than just having 4,000 elk, it is having the right kind 
of elk. And that is why I mentioned the herd objective.
    Now there were two ways that we could obtain the proper 
herd objective; either through controlled hunting with 
relatively liberal road access management, or the other option 
that I mentioned was general hunting opportunity with some 
route restrictions. We opted for the latter course and the 
proposed Targhee plan does include that set of criteria, in 
order that we could maximize hunting opportunity and freedom 
for our sportsmen.
    Mr. Simpson. Thank you.
    Mr. Mealey. You did ask me about grizzly bears and I gave 
too long an answer to the first one, but I have an idea someone 
is going to ask me that question as well.
    Mrs. Chenoweth. Thank you, Mr. Simpson.
    Without objection, I would like to ask for unanimous 
consent to ask Mr. Siddoway, before I call on Senator Craig, if 
you have comments. I know that you were here accompanying Mr. 
Mealey, but if you have comments, I and the rest of the panel 
would love to hear from you, Mr. Siddoway.

  STATEMENT OF JEFF SIDDOWAY, IDAHO FISH AND GAME COMMISSION, 
                        TERRETON, IDAHO

    Mr. Siddoway. Thank you, Madam Chair. My comments will be 
brief.
    I tried to get a hold of Doug Crandall, who was setting up 
this panel, and he and I never did actually connect. I wanted 
to know if I should provide written testimony and he said no, 
do not worry about it, you will just be accompanying Director 
Mealey. But then since you swore us in and put us under threat 
of perjury, I have been sitting over here real concerned about 
how I could confess having sex with a grizzly bear. So it is 
all about sex and if I say something that someone challenges, 
they cannot throw me in jail.
    [Laughter.]
    Mr. Siddoway. I do have quite a history with the Targhee 
Forest. I grew up in St. Anthony, just north of here. A large 
segment of the elk winter range for the Island Park or the Sand 
Creek herd includes our private land. I do not mean to be 
repetitious of what John Burns said, but the elk do migrate 
from Harriman State Park--or did migrate from Harriman State 
Park and from Yellowstone Park to the Big Junipers where they 
had a sanctuary. A lot of that was just because of the way the 
hunting seasons were structured and they would make that run in 
about a 24-hour time. There was not a lot of cover left up on 
the forest and the hunting became an absolute nightmare. When 
we would be tending our sheep out there on the junipers, 
towards the fall, the hunters would come in and it was just 
party hunting, shooting the animals out of the backs of pickups 
and runs, and it was just a nightmare. And they did pretty well 
eliminate all of the bulls in the herd and that is what caused 
the restrictions.
    I guess as far as the Department comes from and as far as 
Jeff Siddoway, the old redneck sheep herder that used the 
Targhee for managing sheep and recreation and breaking colts, 
versus what is Fish and Game, there are probably two different 
answers. But since I am accompanying Director Mealey and here 
as a commissioner, we can control the quality and the quantity 
of this herd two ways--we can either have a restrictive access 
or we can have a restrictive hunting season. And the Fish and 
Game obligation is to give as much opportunity while protecting 
the habitat as we can. And pretty well, that has boiled down to 
try to give the longest seasons. Since 1991, we have been in a 
spike only. That caused a lot of hunters to move out of the 
area, about 60 percent of the hunters left the area because of 
the spike only. That put us into the controlled hunts for the 
big bulls.
    Since then--I did not call any politicians, but I did call 
our regional supervisor and got several sheets of paper over 
the last few days in preparation for this--we do have our 
objective management that the whole department, all the 
biologists, put together and goes through it. It states 
specific numbers of animals for specific units and areas. Our 
Island Park area, we have an objective of 1,500 cows, 575 bulls 
I believe, and 300 of those mature bulls. Currently we have 
about 975 bulls, almost 50 percent more. We have about 500 plus 
mature bulls and we have I think around 2,200 mature cows. So 
we are well above our objectives right now.
    The object here is to give more hunter opportunity in the 
future. We will be going out to our scoping meetings, as was 
mentioned here, this month and hopefully we can give that 
opportunity.
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Siddoway, Commissioner, for 
that very interesting testimony.
    Senator Craig.
    Senator Craig. Do not worry about your oath and your 
personal activities.
    [Laughter.]
    Senator Craig. We took care of that yesterday.
    Mr. Burns, you said something that I think is tremendously 
valuable to repeat. And I say so because there are a good many 
people in this audience that are now defending a Targhee that 
is not a Targhee that was.
    As a young person, I camped with my parents in the Targhee 
that was and I know why you made the decisions you made and the 
Targhee was logged, it was a climax forest and it died. It died 
very dramatically. It was sitting there waiting for a big burn, 
but somebody like you got in in front of it and stopped it.
    What would have happened to the Targhee that was if changes 
had not been made and the Yellowstone fire in 1988 had come up 
against it?
    Mr. Burns. Senator, my view is that a tremendous amount of 
the Island Park country would have burned in one of the three 
runs that the Yellowstone fires made to the westward, when we 
had the dramatic wind shifts that would suddenly reverse the 
situation.
    Senator Craig. In fact, it did break into the forest.
    Mr. Burns. Oh, yes, in places. But what we found was that 
the young growth--it was relatively easy to control the fire 
because the younger trees would not burn with that intensity of 
the mixed dead and dying older timber. So we fortunately had 
the best of all worlds in controlling that fire situation. 
Frankly, the Targhee was the only forest in the Yellowstone 
complex where that fire season was actually managed and 
controlled.
    Senator Craig. And that is the rest of the story. And I 
appreciate you saying that because I am very frustrated at this 
moment by people who think that they are defending something 
that is static.
    I appreciate the need for road closure because the roads 
that are there now were placed there to change the character of 
the climax forest you described. And everybody knew it would 
not last, that once those dead and dying trees were taken out, 
it was going to be over with, or at least a large portion of it 
would be. And that is true and there has been mill closures in 
the area simply because there was no supply left. Nobody 
really--everybody was concerned about the loss of jobs, but 
they understood the supply was gone.
    I guess my frustration today is that obliterating roads 
versus closing roads and making sure they are kept closed for 
some future management use, does not make a lot of sense.
    Director Mealey, what I cannot understand, and I know you 
have been intimately involved in this because I first got to 
know you when you were known as a biologist, a bear biologist, 
a grizzly bear biologist, and not a--well, I guess then it was 
the Boise Forest and now Idaho Fish and Game. But you were very 
much involved in putting a plan together to manage bear in the 
Yellowstone and in the Yellowstone region. Did you ever believe 
that the amount of road closure that is now being recommended 
in current forest plans was necessary?
    Mr. Mealey. Senator Craig, the short----
    Senator Craig. Maybe I ought to reword that, road closure 
existed, it was recommended and it happened. Road closure 
versus what is currently going on today in the ratio of roads 
and the road density--did you ever envision that in your 
initial studies as a necessary tool?
    Mr. Mealey. Senator, let me answer that in the context of 
the grizzly bear management guidelines, of which Mr. Hoyt notes 
that I am somewhat dated now because I did leave Yellowstone 
some years ago, but I was the author of the guidelines that as 
I understand is still a part of the forest plan.
    Senator Craig. I believe those are still the operating 
rules, are they not?
    Mr. Mealey. Yes, sir. Now I need to answer the question in 
the context of those management guidelines. And let me say 
that, for those that may not know, there were three 
management--actually five management situations in them. Of 
course, the I being an area where the bear is the primary use 
and habitat centers and components make the area necessary for 
its needs and survival. Management Situation II is an area 
where habitat components are present but population centers do 
not generally exist. Well, given that stratification system, 
the Plateau Bear Management Unit was classified as a Situation 
II area. So in a Management Situation II area, and I will not 
go through the details of those directions, but in a Management 
Situation II, if push comes to shove, by definition, the 
grizzly is accommodated but not to the extent that it excludes 
other uses. And if the area is so important that the bear 
requires that consideration, then the area should be 
reclassified from II to I. Now that is what the guidelines 
still say.
    So in the construction of those guidelines, you asked me a 
question and I will answer it directly. In Management Situation 
II, no, I did not, as author and as we discussed those, 
anticipate road densities that we currently see. Now again, 
that was related to the first question, I think, and that is 
what is the habitat quality of the Plateau Unit. And I think 
that might have been what Congressman Simpson was getting at, 
that the Plateau Unit has relatively low habitat quality.
    Senator Craig. In fact, when you talk about the Plateau 
Unit, was there not a discussion in time that it might be 
considered for being taken out of the mix because it just did 
not work?
    Mr. Mealey. No, Senator, I do not recall that, but I do 
know and much of my life was related to this question, and that 
is that years ago in my thesis and later others have documented 
the relatively low habitat quality of that area, and it has to 
do with the fact that the soils are rhyolitic, relatively 
infertile and porous, not normally accumulations of sedimentary 
soil that make it rich. And as a result, the vegetation is 
lodge pole pine and pine grass and low huckleberry, with the 
exception of some micro-sites that are quite rich, but they are 
widely dispersed. As a result, habitat quality is not high and 
inherently does not have a high quality for bears to live 
there.
    Recognizing that, it was designated a Situation II. We 
always recognized the Plateau Unit as uncertain in terms of its 
overall quality and when we constructed the recovery 
requirements; that is, the standards for recovery, we 
identified that there would be 16 or 18 bear management units 
where bears could be on a six-year average, and we did that 
mostly because of the uncertainty of the Henry's Lake and the 
Plateau Bear Management Unit. But the short answer, I did not 
anticipate densities that low there, simply because it was not 
assumed that bears would be there in that density.
    Mrs. Chenoweth. Thank you.
    Senator Crapo.
    Senator Crapo. Thank you, Madam Chairman.
    Mr. Mealey, I was going to ask you to follow up on the bear 
part of Representative Simpson's question, but I think you may 
have just done that. Do you want to add anything to that 
answer?
    Mr. Mealey. I do want to say something about uncertainty. 
There is no question about the fact that we all want a 
recovered population. I do recall telling Chuck Lodell, when he 
was still the state supervisor, that I frankly disagreed with 
the anticipated road standards in the Plateau Unit, and I did 
so because they did not appear to be consistent with the 
direction for the unit on the Situation II area in the Plateau.
    Now when I say they did not appear to be necessary, let me 
tell you why I said that. And this is not a rhetorical issue, 
it is a structured, logical issue. If something is necessary, 
it is necessary to meet the requirements for recovery, which 
were the four recovery standards, and that is that there would 
be at least 15 females with cubs a year on a six year average, 
that there would be a target number mortality of no more than 
8.8 per year, that there would be a female mortality per year 
of less than 2.6, and that there would be bears, females and 
young, documented in 16 of the 18 bear management units on a 
running average. Now the point is that at that point all those 
criteria had been met with the exception of the female 
mortality. And it was unclear to me why those standards were 
necessary in light of its classification. If it was changed to 
I, then I can certainly agree that it would be. The biology has 
not supported it being moved.
    Now the habitat effectiveness standard that is currently 
being tested there assumes that with lower human activity, 
perhaps bears will occupy the area to a greater extent than 
they currently do, and I think that is probably a reasonable 
hypothesis to test and I will be interested to see the outcome. 
That is the current Interagency Grizzly Bear Committee's 
position, to do that test and that is what is going on.
    Senator Crapo. Thank you. I have no further questions, 
Madam Chairman.
    Mrs. Chenoweth. Thank you, Senator.
    I wanted to continue along that line of questioning, so I 
am going to interrupt your drink of water. I wonder if we might 
throw Mr. Gerber's first slide up on the screen again, and 
while we are doing that, I want to re-ask a question or a 
statement that was touched upon. The Yellowstone grizzly bear 
management guidelines, are they widely used today, and who are 
they used by?
    Mr. Mealey. Madam Chairman, it is my understanding, and I 
have been out of the Forest Service for some time and my 
information gets rapidly dated, but I do understand that the 
guidelines are still a part of the Targhee Forest plan. So I 
guess in terms of their use, they are certainly still a part of 
the forest planning process, is my understanding.
    Mrs. Chenoweth. And you authored those?
    Mr. Mealey. Yes, ma'am, I did.
    Mrs. Chenoweth. And did you author them as part of a 
research project for your masters, or what? How did this 
happen?
    Mr. Mealey. Well, not directly. I was the first graduate 
student for the Interagency Study Team after the Craigheads 
left the park and my thesis, which I finished in 1975, was 
grizzly bear food habits in the Yellowstone ecosystem, which I 
completed, and that reflected some understanding of habitat 
quality and food habits. And based on that work then, I as a 
wildlife biologist on the Shoshone Forest in 1977 and 1979 then 
finally completed the guidelines based on that information that 
was available at the time, and I think it is still fairly 
recognized as reasonably valid.
    Mrs. Chenoweth. Director Mealey, what I would like you to 
do is to point out to us on the map where the Plateau Unit is 
and then explain for the record what constitutes good grizzly 
bear habitat and what kind of habitat you find there.
    Mr. Mealey. Well, the Plateau Unit is the area denoted in 
red, and I might point out that when I refer to that as a 
relatively infertile area, it refers to the fact that the 
Yellowstone caldera is here, of course, and that great eruption 
resulted in the dispersal of what is referred to as rhyolitic 
soil, pumicy, sandy soil that resulted in a plateau inside the 
park, and that extends out on that large outflow. So what you 
have--when I referred to it in my thesis, and I think the 
current research still recognizes that that is inherently low-
productivity, it is not rich soil, it is porous, the water goes 
right through. So you get vegetation that is a cold desert, if 
you will, plants that do not require a lot of water live there. 
And so it is inherently low productivity compared to a high 
quality area which might be Hayden Valley, for example, in the 
Park, which was an old lake bed that has hugely deep deposited 
sediments that are very rich in all forms of life, which is 
where the highest concentrations of grizzlies occur, of course. 
Any species is going to be where the food is, where the table 
is set closely.
    Out on the Pittstone Plateau, it is probably one of the--
and this map accurately shows sightings--grizzlies avoid the 
area because it is not a pleasant place to be if you are 
looking for food and you are a bear. The habitat quality is 
somewhat better as you go west, but not significantly better.
    Now the supposition is, and I think the data that I looked 
at showed that there has been one sighting in the last six 
years in the area on the Plateau Unit on the Targhee and I 
believe that was 1994 for a female with cubs.
    The thing that was interesting to me when I was doing my 
work in the park was that even though the roads were present on 
the Targhee in great numbers, you still did not see bears in 
the park in the same ecosystem where there were no roads. So I 
was convinced at that time that it was probably more a function 
of the inherent productivity of the habitat than it was the 
presence of roads. The current test, however, is that perhaps 
road density is a deterrent and that is the logic for the test 
and that is currently ongoing with the supposition that reduced 
roads could make the area somewhat more attractive. I think 
there would be some inherent limitations on the extent to which 
it would be attractive.
    Mrs. Chenoweth. If Siddoway is not grazing sheep up there 
and the bears are not able to feed on the sheep, what other 
natural food substance does the bear look for that is not 
present there?
    Mr. Mealey. Well there are micro-sites that--when I say a 
micro-site, I mean a relatively small place that in many places 
provide very rich arrays of foods, they are just widely 
distributed. So if the density in other parts of the park 
become great, bears can be forced to the margin and this is a 
place where they could well go, and that has already been 
acknowledged by Mr. Hoyt and others today, and that is a 
reasonable point. But there are some places, Robinson Creek and 
others, that have some fairly rich foods, but they are widely 
distributed and they are not highly abundant. So in that sense 
there are some foods that could be available.
    Mrs. Chenoweth. Are white pine--is white bark pine a food 
source for the bear?
    Mr. Mealey. They are very important, white bark pine is not 
as abundant in this part of the area as it is in other parts of 
the park.
    Mrs. Chenoweth. So can one conclude that even if we close 
all the roads in that area, because of the natural habitat or 
lack of habitat, it will not increase the bear density?
    Mr. Mealey. I think the supposition is that question should 
be tested. One of the things--and I want to go back to what I 
said earlier, when we constructed the criteria for recovery, we 
said there is 18 bear management units and it says that 16 of 
them should be occupied on a running six-year average. The 
reason for that, it recognized the uncertainty about the 
Plateau and the Henry's Lake BMUs. We were not certain, and so 
we left some slack in the system and I think that that is yet 
to be resolved. Right now, we recognize that bears may not 
occur there and biology and ecology are very uncertain things. 
It is clear that as populations expand, this is a place where 
they could go. There are probably real limitations on how many 
can be there.
    Mrs. Chenoweth. Is it wrong to conclude, Director Mealey, 
when you say they could go, that they would likely be passing 
through, or is this a place where they would settle? I mean, 
you have just testified to the fact that it does not yield a 
food source.
    Mr. Mealey. Right. Well, Madam Chair, it is my personal 
belief from a biological-ecological standpoint, that it is 
certainly true that the area currently lacks distinct 
population centers. I do not believe that it ever will have 
population centers, just because of the inherent limitations of 
the habitat. I do not think there are many ecologists that 
disagree, I certainly spoke with Mark Harrelson and others, 
who--Tom Puchler and others, who are very knowledgeable--feel 
that the area's quality as grizzly habitat could be enhanced 
with reduced presence of humans and I think that that is a 
reasonable question to ask and a reasonable thing to test. But 
my sense is that the likelihood of that occurring is quite low 
and that is a function of the ceiling set by the inherent 
quality of the area.
    Mrs. Chenoweth. Thank you very much, Director Mealey, and I 
thank my colleagues for their indulgence, my light has been on 
for quite some time.
    I want to thank this panel for your very fine testimony. I 
do want you to know that we have other questions that we would 
like to submit to you and we will do so in writing right away 
and would appreciate your response at your earliest 
convenience.
    And again, I do want to say should you wish to add any 
remarks to your testimony, you may do so within ten days. Thank 
you.
    I would like to call on the next panel. We will hear from 
the Honorable Lenore Barrett, who will be accompanied by the 
Honorable JoAnn Wood, both Representatives in the Idaho State 
Legislature; Mr. Craig Gehrke, Regional Director, Idaho 
Wilderness Society from Boise; Mr. Bill Ingot, Rancher from 
Island Park, Idaho; and Mr. Roy Moulton, former County 
Attorney, Driggs, Idaho.
    [Pause.]
    Mrs. Chenoweth. The hearing will come to order, please, and 
I would like to ask the panel members to please stand and raise 
your hand to the square.
    [Witnesses sworn.]
    Mrs. Chenoweth. I would like to first state that 
Representative JoAnn Wood also was--initially had contacted us 
about this situation and so I would like to open this panel by 
asking Representative Wood if she has any comments.

    STATEMENT OF HON. JOANN WOOD, IDAHO STATE REPRESENTATIVE

    Ms. Wood. Thank you, Madam Chairman.
    I am Representative JoAnn Wood, District 26 encompassing 
four Idaho counties, and I do wish to acknowledge my Senators 
and my Representative and thank you for being here to hear our 
testimony.
    I am presently the Vice Chairman of the Idaho House 
Transportation Committee and an Executive Board member of the 
MHTA, Multi-State Highway Transportation Agreement, for 11 of 
our western states of the United States.
    I am here to testify on behalf of the people of District 26 
who would not be in attendance here to give testimony, but who 
have contacted me requesting that I do something in their 
behalf to protest the actions of the Forest Service in the 
Targhee National Forest surrounding our communities.
    In 1993, our state grappled with the preemptive actions of 
the Federal Government in regards to the inherent rights of 
passage upon the land of her citizens that is guaranteed under 
the revised statute 2477, codified as 43 United States Code 
932. May I read the legislative intent of House Bill 388?
    ``Section 1, Statement of Legislative Intent. The State of 
Idaho recognizes that existing Federal land rights of way are 
extremely important to all Idaho citizens. Two-thirds of 
Idaho's land is under control of the Federal Government and 
access to such Federal lands is integral to public use. The 
Idaho State Legislature recognizes the necessity for 
establishing a procedure for identifying and confirming the 
existence of previously established Federal rights of way to 
protect those rights previously granted to and vested in the 
citizens of Idaho.''
    The citizens of Idaho's concerns were also addressed in 
1993 by the Idaho Senate in Senate Bill 1108. To emphasize just 
how important these rights are to the Idahoans who are enclosed 
by the federally managed lands, we sent a memorial to Congress, 
House Joint Memorial 10, and may I quote from that, Madam 
Chair?
    ``We as memorialists, the House of Representatives and the 
Senate of the State of Idaho, assembled in the Second Regular 
Session of the 54th Idaho Legislature, do hereby respectfully 
represent that whereas on January 22, 1998, U.S. Forest Service 
Chief, Michael Dombeck, proposed a major overhaul of the forest 
road system, including a proposal to halt all road construction 
in wilderness areas of national forests; and whereas, forest 
roads are an integral part of maintaining forest health, and as 
well as integral part of its socio-economic base that would 
short-change rural counties of millions in revenue for having 
Federal forests within their boundaries; and whereas, a road 
moratorium would preempt all state and local laws and 
regulations; now, therefore, be it resolved by the members of 
the Second Regular Session of the 54th Idaho Legislature, the 
House of Representatives and the Senate concurring therein, 
that the Congress of the United States is urged to recognize 
state and county rights of way under Revised Statute 2477 and 
take appropriate action to invalidate the proposed policy 
changes for forest wilderness areas; and be it further resolved 
that the Congress of the United States be urged to do all 
within its statutory authority to deny funding for the 
implementation of the proposed policy change by administrative 
fiat.''
    And Madam Chairman, this is really the information that I 
would like to submit to you in the attachments to my testimony, 
if I might; and tell you that we feel that the Federal 
Government has ignored the specific requirements for 
cooperative consultations with the local and state government 
officials required in the NEPA process; we feel that they have 
not considered both the state government and her citizens in 
preparing a forest management plan that puts the main 
consideration of the planning and management of unsubstantiated 
threatened or endangered species of animals that is not 
compatible with the habitat, let alone the culture and economic 
wellbeing of Idaho's people that are occupants of the adjacent 
communities, farms and ranches.
    We spent considerable time, the State of Idaho did, in with 
11 western states in trying to influence the ISTEA 
reauthorization T-21, to help us be able to afford to maintain 
our roads to the national forests and parks and scenic byways. 
That state tax money that went into those roads is really 
important for us. We feel like the Federal Government stepped 
up to that and did offer to help us in that we are a very low 
population state and we have many, many miles of road to 
maintain. We do not want to be shut off from that, Madam 
Chairman. Our people do not want to be shut out from passage 
across these lands and to be able to live and enjoy the lands 
that they love here.
    So we are asking you with my testimony here that you might 
again take into consideration the preparations that the state 
has made and the petitions that we have made to the Congress to 
take into account our concerns in the State of Idaho.
    Mrs. Chenoweth. I just want to say for the record how much 
I appreciate and I know all of us do, the Idaho delegation, 
your leadership on this issue. And without objection, all of 
your documents will be entered as a part of the record, and I 
thank you so much.
    [Applause.]
    Mrs. Chenoweth. The Chair now recognizes Lenore Barrett.
    [The prepared statement of Ms. Wood may be found at the end 
of the hearing.]

  STATEMENT OF HON. LENORE BARRETT, IDAHO STATE REPRESENTATIVE

    Ms. Barrett. I am Lenore Barrett, Idaho State 
Representative for Legislative District 26, Custer, Lemhi, 
Clark and Jefferson Counties.
    Here it is, Madam Chairman. Yesterday's Statesman, ``Feds 
Ban Road Building on Forest Lands, the first step to closing 
off forest lands.''
    [Applause.]
    Mrs. Chenoweth. Okay, now we are even, please no more 
applause.
    Ms. Barrett. Add to that the decommissioning of roads that 
is currently going on in areas other than just the Targhee, 
incidentally, but you add that and you have got a runaway train 
that is not going to stop until it crashes into the station. So 
where does that leave us? We can jump off the train and not 
hang around the station, I guess.
    Madam Chairman, I do thank you and the distinguished 
Committee for allowing us to speak here today. And I did just 
point out that the road closure is not new, it is merely being 
accomplished on a larger, more accelerated scale.
    In the Post Register, Madam Chairman, you were quoted as 
wanting to know what the U.S. Forest Service thinking was 
behind their road decommissioning activity. The answer is 
simple--when roads are gone, people are gone except for the 
elitist few who boot up for a walk on the wild side of nature.
    [Applause.]
    Ms. Barrett. The question is not why do they do it, but why 
are they allowed to do it. The Federal Government claims 
sovereignty over a third of the United States, most of that 
being in the west. The equal footing doctrine says that public 
lands automatically become state lands upon statehood and the 
Federal Government does not have the constitutional right to 
require forfeiture of land as a condition of statehood. Ergo, 
the underlying issue in road decommission is jurisdiction. In 
the organic act that created the Forest Service, we read ``The 
state wherein any such national forest is situated shall not, 
by reason of the establishment thereof, lose its 
jurisdiction.'' Federal land managers do not possess police 
powers unless it is obtained from the state through specific 
legislation. In Idaho, no such legislation exists.
    Thus, the county has jurisdiction over the roads. Idaho 
Code 31-805, 40-107, 42-048 and 40-604. Not only does the 
Federal Government habitually violate state sovereignty, it 
does not even subscribe to its own Federal statutes, including 
but not limited to, Organic Act, Administrative Procedure Act, 
Americans with Disabilities Act, Sustained Yield Act, General 
Mining Law of 1872, RS-2477, Endangered Species Act, National 
Environmental Policy Act, Forest Management Act, et cetera, et 
cetera--and also the Federal Ethics Code.
    Clinton's budget proposes spending $359 million, a 28 
percent increase over current spending, to maintain and close 
forest roads aimed at protecting grizzly bear habitat. Idaho 
does not support this. Idaho opposes grizzly reintroduction and 
the decommission of existing roads. Idaho opposition is a 
legislative policy statement recorded in House Joint Memorials 
2 and 6 and House Joint Memorial 10. And Mr. Speaker, now Mr. 
Congressman, was co-sponsor with Representative Wood and myself 
on House Joint Memorial 10.
    Most of the Federal schemes designed to depopulate the 
west, such as wolves, grizzlies, Federal reserved water rights, 
wilderness designation, ad nauseam are formalized under the 
Endangered Species Act. Why does Congress allow us to suffer at 
the hands of this unconstitutional Frankenstein's monster. The 
ESA is not pursuant to the Constitution and it is a flagrant 
violation of the 10th Amendment. It is technically invalid and 
should be repealed.
    So what is the thinking behind closing forest roads? Listen 
to the following: ``Fifty years ago, environmentalist Aldo 
Leopold wrote his seminal work, A Sand Country Almanac. In it, 
Leopold spoke of his personal land ethic and the need for land 
managers to extend their own ecological conscience to resource 
decisions. In 50 years, we will not be remembered for the 
resources we developed, we will be thankful for those we 
maintained and restored for future generations. Thanks for your 
hard work. Mike Dombeck, Chief''
    Madam Chairman, mankind cannot exist without access to and 
productive use of our God-given natural resources. Man must 
produce or die. If we do not produce, there will be no future 
generations.
    Thank you.
    [Applause.]
    Mrs. Chenoweth. Thank you very much, Representative 
Barrett.
    The Chair recognizes Mr. Craig Gehrke for testimony.
    [The prepared statement of Ms. Barrett may be found at the 
end of the hearing.]

STATEMENT OF CRAIG GEHRKE, REGIONAL DIRECTOR, IDAHO WILDERNESS 
                     SOCIETY, BOISE, IDAHO

    Mr. Gehrke. Thank you, Madam Chairman, for this opportunity 
to testify regarding the draft environmental impact statement 
for the motorized road and travel plan for the Targhee Forest. 
The Wilderness Society has been involved for a very long time 
in management issues on the Targhee and other forests within 
the Greater Yellowstone Ecosystem.
    We support the efforts of the Targhee Forest to develop a 
plan for motorized road and trail travel. The growing off-road 
and off-highway vehicle use is having an impact on natural 
resources on the Targhee and the Forest Service is to be 
commended for taking this issue on and trying to put together a 
plan to deal with those impacts. While we do not support the 
preferred alternative, we do support several concepts within 
that preferred alternative and we will be making 
recommendations during this comment period of what we would 
like to see improved in the draft alternative.
    The issue of motorized travel management on the Targhee 
often gets characterized as grizzly bears versus everything 
else. I do not believe that is a correct characterization. We 
believe that the Forest Service does need to take steps on the 
Targhee to enhance and recover the grizzly bear and comply with 
a biological opinion issued by the Fish & Wildlife Service, but 
motorized travel issues go far beyond just grizzly bears.
    The final EIS for the revised Targhee travel plan was clear 
in its assessment that off-road vehicle use and roads are among 
the primary causes of impacts to soils, to water quality and to 
aquatic habitats on the Targhee. And my written statement has 
several citations in the final environmental impact statement. 
Management of roads and motorized trails is not only about 
grizzly bears, but also about clean water, about fish, elk and 
other forest resources.
    The Wilderness Society supports the initiative by the 
Forest Service, as set forth by this travel plan, to eliminate 
indiscriminate cross-country use across parts of the Targhee 
National Forest. Again, as the final EIS for the forest plan 
made clear, this type of use is causing damage to soil, it is 
causing water quality and fish and wildlife habitat impacts. 
Taking actions to address this type of use is a significant 
step forward to better protect the resources on the Targhee.
    We also support the efforts to reverse the long-standing 
system of signing trails or roads as open or closed to 
motorized use. By only signing closed trails, the Forest 
Service was inadvertently providing an incentive to tearing 
down or vandalizing such signs with the offenders later 
claiming that they did not know about the closure. Signing 
trails as open would remove the incentive to remove those 
signs. My experience as a Forest Service employee years ago 
included replacing many bullet-riddled signs and finding them 
thrown off in the ditch and putting them back up again.
    I think what is important to keep in mind here while we 
talk about this travel plan is that several of the actions that 
are proposed here were determined through the Targhee forest 
plan, not necessarily this travel plan. We believe that some of 
the actions like the road density standards can only be 
addressed by going back and amending or revising the Targhee 
forest plan, not this draft travel plan.
    Furthermore, as I mentioned earlier, the Forest Service is 
under an obligation to reduce road densities in the grizzly 
bear management units in order to comply with the biological 
opinion issued by the U.S. Fish & Wildlife Service on their 
revised forest plan. If we stop those efforts, we are going to 
have to go back and get a new biological opinion and basically 
open up the forest planning process again.
    The conservation groups were part of the 1994 court action 
on the grizzly management on the Targhee and are not going to 
tolerate very much of a delay in getting these road density 
standards in place. The 1994 court settlement between the 
Forest Service and the conservation groups resulted in a 
commitment from the agency that it would address the 
deficiencies in the prior forest plan relating to the Plateau, 
Madison and Bechler-Teton bear management units. Later, the 
Forest Service decided to take those deficiencies and rectify 
them through the forest revision process rather than to address 
each management unit separately.
    We believe that the proposed road and trail travel plan for 
the Targhee National Forest is a step forward in addressing 
some of the resource impacts that are being caused by off-road 
and off-highway vehicle use on the forest. Further actions 
beyond those proposed in the draft travel plan, such as 
specific actions to reduce impacts to Yellowstone cutthroat 
trout and its habitat, should be incorporated in the final 
travel plan.
    I did want to make a point to reiterate a point Marv Hoyt 
mentioned regarding the Plateau Bear Management Unit, that 
again a document from the Interagency Grizzly Bear Team dated 
1999 says that there is still bear habitat in the Plateau Bear 
Management Unit and the bears do use it. His statement was that 
with fewer roads and less human impacts, habitat effectiveness 
in this unit can only increase.
    I would urge the Committee to very carefully look at this, 
this is not ten years old like the information we were seeing 
on the screen a little bit ago, this is from 1999, this is 
talking about people who are managing the bears today, with on-
the-ground conditions today and bears are on the ground today, 
not in 1977, not in 1987--1999.
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Gehrke.
    [Applause.]
    Mrs. Chenoweth. The Chair now recognizes Mr.--the Chair 
will interrupt the hearing to say once more please no applause. 
We are going to have to ask security to ask you to leave if you 
continue this. I do not want to have to do that. Thank you very 
much.
    The Chair now recognizes Mr. Bill Ingot.
    [The prepared statement of Mr. Gehrke may be found at the 
end of the hearing.]

      STATEMENT OF BILL INGOT, RANCHER, ISLAND PARK, IDAHO

    Mr. Ingot. I do not have a speech written up. I never got 
my letter from you until a couple of days ago. I am a rancher 
in Island Park and I also own a lodge up there. My dad came 
there in 1898, so I have just about been there that long 
myself--I might not look like it, but I have.
    [Laughter.]
    Mr. Ingot. I have seen the roads go from trails up there 
before, then they logged the country, then we had the roads up 
there and it has went on like that for 25 years since they have 
logged up there. Now all at once this year before they done 
their plan, EPA, they come in and started dozing the road up. I 
was probably the first one to know about it because it happened 
on a weekday, I seen the person who was going up to flag the 
roads. I asked them what they were doing and they said they 
were going up to flag some more roads to be closed. I said you 
have got them all closed now, you know, the Meadow Creek Road 
there. And they said no, we are going to close some more.
    Well, immediately when I found out what they was closing, I 
went down to Jerry Reese--they was closing one right into my 
ranch and I own 1,600 acres of land there, to our south fence. 
So I went down to Jerry and I says they are going to close this 
road, and Jerry says where is this at. Well, he showed me on 
the map and I said I can't tell on the map, but I can tell you 
where it is at. He said I do not know which one it means, but 
anyway, I finally got through to Jerry, he said okay, I will 
take care of that, there will not be a problem. I have got to 
finish this story before I go on with the rest of the deal.
    But anyway, that night when I come back, my neighbor up 
there, they had went up and closed a road to what they call 
Garner Canyon. They had the road closed up the mountain, we 
have used that for 50 years, we pull our sheep gear up there, 
but they closed another road that takes off to the left and 
goes over about a mile to a head gate out of a creek and there 
is a widow up there, so she could not get up to her head gate.
    So I called Jerry again. They had already closed that road, 
so he had to come back down after he got the tractor out of a 
mudhole up on what they call Two Top up there. I went up to get 
a picture of that, they had the cat buried and had another cat 
in there to get it out, pull it out. I did not get a picture of 
it, I was too late. But anyway, they went up to re-open that 
road.
    Well, it was stuff like that. Then I went up to see what 
they were doing, and I could not believe it. I mean, I have 
been there all my life, and the damage they done up there now, 
it will be 100 years--well, we will never be around to see it 
unless somebody lets me take a cat and go up there and smooth 
them out again, but it is ridiculous the way they done this.
    Some of these roads are 50 yards long, they made a dike 15 
feet high, but you can drive out around it if you wanted to. I 
mean there was no planning in it at all and yet it cost the 
taxpayers about $300,000 to do this. We are broke anyway, the 
Forest Service is broke.
    But like I said, as far as the bear management, they need 
all these road closures for the bear. I have been there since 
day one on the bear, since the grizzly bear came into Island 
Park, when they quit feeding them in Yellowstone. They fed them 
there for 100 years, then they took the bear off of the garbage 
and sent him out onto the public. Well, when he come out in the 
public, he did not have anything to eat, so he started on 
cattle, sheep, people or whatever he wants to eat. He is the 
boss, I guarantee you.
    And I had my sheep, I run my sheep on Two Top for 65 years. 
Well, a bear got into my sheep up there, took the range away 
from me, moved me to another allotment. That was supposed to be 
counted permanent and now I understand that there is nothing 
permanent any more.
    I did not think that yellow light would ever go on, but 
anyway, I just do not like the way they closed the roads, I do 
not think there is any sense of it. As far as the bear needing 
that much density, he comes right to our lodge, he comes on our 
porch, he crosses the road right by our house, he has been 
around there the last 20 years. And the elk population, we have 
got a bigger elk population than we ever had in the history of 
Idaho.
    When my dad come to the country in 1898, there was not an 
elk in the country and now we have got over 4,000 head. We 
winter a lot of them out on the Jeff Siddoway range, there is 
land out there we winter the elk on. But we are at about 
capacity of all the elk we can winter. So as far as that goes, 
I have no idea why they want all these roads closed for the 
grizzly bear, because the grizzly bear is going to go where he 
wants to go. And we have got enough population to pretty well 
back up anything, I am sure. They cannot count every bear and 
they have already got the population way above where it was to 
start with that they wanted.
    The red light is on. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Ingot.
    The Chair recognizes Mr. Moulton for testimony.

STATEMENT OF ROY MOULTON, FORMER COUNTY ATTORNEY, DRIGGS, IDAHO

    Mr. Moulton. Thank you, Ms. Chairman, Honorable Senators 
Craig and Crapo and Congressman Simpson. I truly appreciate you 
being here and indulging us in this opportunity to speak with 
you today. I think it shows us a lot about your commitment to 
Idaho and we appreciate you being here.
    I am sorry that you have to do this every day and I am not 
sure what motivates you, but I appreciate the effort you put 
out on our behalf.
    I was interested earlier in your statement, Senator Craig, 
when you said that despite all of our efforts, there seems to 
be a lot of acrimony when it comes to this business of making 
public land management decisions that we can all live with. And 
I think you even focused a question to Mr. Hoyt to see what he 
thought about how that could be resolved. I happen to have an 
opinion about that, not that I expect that if it is a good one 
anybody will give me any money like Mr. Hoyt thought.
    But I can remember when we first started studying the 
impact of NEPA and specifically this phenomenon of what I will 
refer to as a private attorney general or the standing of 
individuals to sue about land management decisions. It was 
quite a phenomenon and we discussed the implications of that in 
public land law in school. We even speculated about where it 
would go and whether it would be wise and if it would create a 
flood of litigation.
    I think history has now told us that that phenomenon, that 
little part of this arguably laudable legislation, is something 
that as a nation we need to go back and look at. I think this 
business of if I do not like the decision, I am going to take 
my ball and go home or I am going to go to court, more 
accurately, actually increases the potential for acrimony 
greater than any other thing we could have going on in our 
system.
    Now I think historically, the left wing of the 
environmental community was quickest to get funded and quickest 
to see the biggest advantage of not in the public process but 
through the courts. Now, after--you know, a lot of us farmers 
are a little slow to learn, but we finally have started to 
learn that if we are going to have influence, we had better get 
our war chest and our lawyers. CUFF got its act together 
finally and we were able to stop some of the behavior that we 
are here--at least temporarily that we are here in this hearing 
about.
    I do not think that answer is right either. What we have 
effectively done is abdicated a legislative and executive 
process to the judiciary. It is expensive, it is time 
consuming, it breeds acrimony and I have to question, as a 
citizen, as long as we have it whether we are going to be 
making informed decisions.
    If we go back to the objective of NEPA, it was that we 
would make informed, science-based decisions about our public 
land use. Now I participated, for all of my adult life, in 
these kind of hearings. I have never seen my interests, and I 
think I have been there with a majority of community voicing 
similar interests--I have never seen in this last 15-20 years, 
those interests recognized in the management decisions that 
were ultimately made. If I can, I want to real quick give you 
an example.
    Recently I have proposed on behalf of a client an exchange. 
I think it could be defended--and I see the yellow light is on, 
so I do not have time to tell you all the details, but I think 
it could be defended as one of probably the few best exchanges 
that could ever be proposed to the Forest Service. The client 
wants to take the land that he would get in exchange, take it 
out of the public domain, manage it for elk habitat, put a 
permanent easement on it so that he could increase the public 
values; and the land that he is proposing to give, trade into 
the public domain, is land on the Fall River that has been 
identified by the environmental communities as having extremely 
high public value for winter range and so forth.
    Recently I wrote a letter suggesting that exchange and I 
got a letter back from the Forest Service basically saying 
well, we might do it, but be advised it will be two to three 
years at a minimum. Now having been a little more involved than 
what I am able to tell you here, I honestly believe that even 
though the Forest Service would like to recommend that 
exchange, they are so gun shy about exchanges because of the 
whipping they have taken in the legal--in the courts, once they 
have recommended exchanges or land use decisions, whatever they 
are, that I think they are so gun shy, they do not even dare 
participate or be part of an exchange that would probably be in 
the interest of all sides.
    So I really think--and this is the substance of my 
testimony, that we really need to go back to NEPA and visit 
this notion that people should have influence in the public 
process, vis-a-vis the courts. I think that was a dangerous 
thing to do in the first place and I do not think it is 
something that serves either side of the debate even now. And 
it is terribly expensive.
    Thank you.
    [The prepared statement of Mr. Moulton may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you, Moulton.
    I want to say that the delegation unanimously feels that 
our first responsibility is to be here to listen and so because 
we have two more panels, we are going to forego asking oral 
questions unless

one of you have a burning desire to ask a question. We will 
submit our questions in writing.
    And the second thing I want you to know, Mr. Moulton, I 
think I can speak for my colleagues, is yes we do sit through 
hearings, but it is wholly different to be here in Rexburg, 
Idaho and being able to listen to all of you. Thank you very 
much for your time.
    I will recognize the next panel as they come up. Mr. Brent 
Robson, Teton County Commissioner, Driggs, Idaho; Ms. Jan 
Brown, Executive Director, Henry's Fork Foundation, Ashton, 
Idaho and Mr. Eric Thomas, Recreationist, St. Anthony, Idaho.
    [Pause.]
    Mrs. Chenoweth. The Committee will come to order please.
    Ms. Brown, Mr. Robson, I wonder if you might stand and 
raise your hand to the square, and Mr. Thomas, will you join us 
and raise your hand to the square please.
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you. The Chair recognizes Mr. Robson 
for testimony.

 STATEMENT OF BRENT ROBSON, TETON COUNTY COMMISSIONER, DRIGGS, 
                             IDAHO

    Mr. Robson. Thank you, Madam Chairman, Senator Craig, 
Senator Crapo, Representative Simpson. I consider it an honor 
to be here today. It hurts me to be here; the sun is shining 
outside and it hurts me to sit on a hard bench for a long time 
too, but I appreciate your indulgence and your willingness to 
come and listen to us.
    I have be a county commissioner in Teton County for--I am 
working on my third term, so as you can see, I may have a 
mental deficiency. I appreciate the opportunity to speak here. 
I want to tell you just a few things about a personal encounter 
that I had with a tank trap but before I do that, I want to 
tell you a little bit about where I come from.
    My grandfather came to Teton Basin when he was 16 years old 
on a train from New York, without any accompaniment. He came 
out and homesteaded there in Teton Valley. My other grandfather 
operated a fishing lodge on the Teton River for many years; in 
fact, was honored by the California legislature in a resolution 
into his activities in being a person that worked well with 
people.
    I had the opportunity when I was a little guy growing up of 
spending some time with both of those great men. They taught me 
an ethic and something from a personal encounter that you can 
only gain from being there. I had the opportunity of being 
there with them in this national forest that we are talking 
about. We spent a lot of time out there walking those woods, 
learning how to hunt, how to fish, how to trap, how to enjoy 
the outdoors. One of the most outstanding things I remember 
from those two men was both of their reverence for the land and 
the importance that I had as a little guy growing up to learn 
how it was important to them to take care of that land that 
they used--and I want to emphasize that they used.
    I had an unfortunate experience while traveling on the 
Targhee Forest of encountering a tank trap in the winter on a 
snowmobile. I suffered an injury to my back and have since then 
had considerable discomfort as a direct result of that injury. 
I was out there doing what I like to do in the winter time and 
that is ride a snowmobile. I was not aware of the condition 
that I was about to come on and encountered it and suffered the 
consequence.
    I think I learned from that incident the importance and 
responsibility that I had as a person to take what action that 
I could to influence any process that would allow an 
obstruction like that on the public domain that might be 
injurious to the traveling public.
    I do not want to elaborate any more on that situation, it 
was important to me, it affected me and had some basis in my 
actions as an elected official, as a county commissioner, in 
trying to influence the Forest Service to stop the obliteration 
in Teton County, to sit down with us and see if we might be 
able to come to a more reasonable way that we could carry out 
road closures without doing such an unsightly and unsafe and 
destructive process to our national forests. And that is what 
prompted us as a county commission to attempt to bring the 
Forest Service to the table with us to discuss this problem 
before it continued to occur in Teton County. We were able to 
do that, had some meetings with them and it has brought us to 
this position that we are today. We are waiting to further meet 
with the Forest Service to see if we might be able to go out 
and come to a better resolution of how we could deal with our 
little part of the problem on the Driggs District of the 
Targhee National Forest.
    Thank you.
    [The prepared statement of Mr. Robson may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you. I would like to ask the members 
here--I would like to go out of order and just--with unanimous 
consent--and just ask you for the record specifically if you 
can just tell us maybe in 30 seconds, what was your encounter 
and what was the consequences you referred to.
    Mr. Robson. Boy, that is a fast one, 30 seconds.
    I was on a snowmobile outing and ran into a tank trap that 
had been constructed, to my best knowledge, about three years 
ago. It was much smaller than those tank traps that have been 
constructed of late. However, it was devastating to me. I just 
basically ran into it, it threw me up into the air and off the 
machine. I lit on the ground and had a broken back as a result 
of it.
    Mrs. Chenoweth. Where did the break occur, in the lower 
back, the upper back?
    Mr. Robson. Yes, in the lower back.
    Mrs. Chenoweth. Thank you.
    Mr. Robson. Sure.
    Mrs. Chenoweth. The Chair now recognizes Ms. Brown.

  STATEMENT OF JANICE BROWN, EXECUTIVE DIRECTOR, HENRY'S FORK 
                   FOUNDATION, ASHTON, IDAHO

    Ms. Brown. Thank you, Madam Chairman, Senator Craig, 
Senator Crapo, Congressman Simpson, all staff.
    It is wonderful that you are here on a bright sunny day 
rather than the blizzards we have been having lately. I 
appreciate your coming and spending all this time.
    The Henry's Fork Foundation--and I am the Executive 
Director--the Henry's Fork Foundation is a non-profit 
organization based in Ashton. I personally am a resident of 
Island Park and have lived there 16 years as a full time 
resident and for 10 of those years as a business owner. The 
Henry's Fork Foundation's mission is to understand, restore and 
protect the fishery, wildlife and unique aesthetic qualities of 
the Henry's Fork Basin. That includes some 3,000 miles of 
streams, of rivers, of irrigation canals throughout 1.7 million 
acres in the Henry's Fork Basin. That includes Madison, Teton, 
Fremont Counties and of course half of that, or the headwaters 
anyway, are in the Targhee Forest. So it is very important--and 
I am going to basically use my time to talk about the 
importance of the headwater streams.
    Interestingly, if you look at the EIS on the Targhee, there 
are identified 4,248 stream crossings in the road system, so we 
are talking about those crossings as being the most vulnerable 
part of the road system to erosion and then to immediate 
sedimentation into the streams. The most conservative, or you 
might say the most encouraging alternative allows for 1,260 of 
those road crossings to be obliterated or removed through 
culvert removal or other means of stabilization. And so even if 
we had the best situation, we would be looking at still several 
thousand stream crossings that are to remain. It is our primary 
concern about watershed health.
    Let me quote from a report that goes back to 1966, a noted 
forester and research hydrologist named Walt Megahan was up on 
the Moose Creek Plateau and wrote these words: ``I had only a 
few hours observation on the Moose Creek Plateau; however, 
these were enough to provide some distinct observations that 
are worthy of mention. I felt that many of the soils and 
subsoils that were encountered along the roads on the Moose 
Creek Plateau are among the most erodible I have seen in the 
[Intermountain] Region. This is to be expected, considering the 
nature of many of the parent materials described earlier in 
this report.
    ``Wherever erosion hazards in the area are high due to 
steeper slopes developed by road construction, increased runoff 
due to road construction, et cetera, the actual erosion rates 
are high. The roads appeared to be causing most of the damage; 
there appeared to be little problem on the existing clearcut 
areas.''
    Indeed, if you look back at the report, the DEIS talks in 
terms of 85-90 percent of all the sediment in streams on the 
Targhee are from roads, not the clearcuts themselves. I will go 
back to the quote:

    ``Presently, the eroded material is being carried down to 
intermittent stream channels and being deposited. Flows in 
these channels could carry this material downstream and 
possibly to the perennial streams. An unusual climatic event or 
increased flows due to timber cutting or both could cause such 
flows. It is even possible that such flows occur commonly on a 
yearly basis.
    Actually, the nature of the country on the Moose Creek 
Plateau is such that roads could be fitted to the terrain quite 
effectively and thereby reduce much of their impact. This has 
not been done for the most part on the existing roads.''
    So I think it is very important to recognize that whether 
or not we had the money or the engineering capability or 
whatever to build this large road system over the 25 years on 
the Targhee, that we know we still have problems. I am not 
saying they are extensive, but we have enough road crossings, 
you know, stream crossings that we need to be concerned.
    Our three recommendations are as follows, to the Forest 
Service:

    1. To properly inventory those roads that require 
stabilization or obliteration. That means let us take a careful 
look, not just at road miles but those places where we are most 
vulnerable to erosion problems.
    2. To implement adequate stream monitoring. Right now, the 
Forest Service has very little money to do proper stream 
monitoring so we know what progress we can make.
    3. To provide adequate funding for the enforcement of 
travel restrictions. I might mention that, yes, it is probably 
a small minority of people who do go around gates and violate 
road closures, but until we are able to apprehend them and 
basically give them a consequence, we will not be able to get 
the message out that going by these gates and going on closed 
roads is illegal. And we need to basically punish those as an 
example to others. It is just like any other types of law 
enforcement in this country, let us make sure that those who 
violate the law receive a consequence.
    Thank you.
    Mrs. Chenoweth. Thank you, Ms. Brown, for that very 
constructive testimony.
    The Chair now recognizes Mr. Thomas.
    [The prepared statement of Ms. Brown may be found at the 
end of the hearing.]

  STATEMENT OF ERIC THOMAS, RECREATIONIST, ST. ANTHONY, IDAHO

    Mr. Thomas. Thank you, Madam Chairman.
    I am a lifetime Fremont County resident, I was born there 
and raised there. Except for the two years I spent in Boise 
going to school, I have been there my whole life.
    I am a volunteer for the local search and rescue unit, I 
was past commander for two years. I camp, I hunt, I fish, I own 
and operate a Honda ATV, I drive a modified four wheel drive 
GMC pickup.
    One of my most favorite activities is to drive in the 
backroads of the forest and the desert. Seventeen years ago, I 
was hit by a car while riding my bicycle on a rural road 
between St. Anthony and Parker. The accident left me with a 
severed spinal cord and confined to a wheelchair as a 
quadriplegic for the remainder of my life.
    I have a few concerns on the road obliteration as a search 
and rescue volunteer and as a sportsman and as an outdoor 
enthusiast, but what concerns me the most is the handicap 
access to the public lands. Three years ago, I took my younger 
brother hunting, it was his first year of being able to hunt 
deer. We went up to Island Park and around the Red Rock Road 
there is a dirt road that went off there to the west. We went 
back towards the foothills. My little brother harvested his 
first deer back there and I was really saddened to find out 
that that road has been tank trapped and that I will not be 
able to take my youngest brother to the same spot to hunt.
    Most of the tank traps that I have encountered, I do not 
see a way for handicap access. They talk about the forest, 
being able to still enjoy it, you may have to walk or ride a 
horse or a snow machine. I do not do any of them. I have a hard 
time seeing what the Forest Service, the people who made the 
choices to tank trap the roads, had in mind for the handicapped 
individuals. I guess if you are not in a wheelchair, you do not 
really think about it too much. Even the building here, whoever 
set it up, luckily we had three strong gentlemen that carried 
me up the stairs so that I could give my testimony today.
    I am not a handicapped access activist. I would not expect 
wheelchair accessible trails throughout the wilderness areas. I 
would like to be able to experience the public lands though the 
same as everyone else. I am not against closing roads, I just 
do not believe that obliterating the roads is the answer.
    I live in Fremont County because of the diversity of the 
outdoor activities available there and I really enjoy the 
people who live there. That is part of the reason I went into 
search and rescue, so that I could help people in need. I would 
hate to see the forest access restricted to the main highways. 
Backroads are the only way that people like me can 
independently experience the whole forest.
    In closing, these tank traps and the way that they are 
talking of closing the roads, I am afraid that before it is all 
said and done and when my children are my age, the forest will 
be restricted only to the main byways.
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Thomas, and I cannot help 
but comment that while your spinal cord injury impaired your 
ability to use your arms and legs, it certainly did not affect 
your courage and your perseverance and you are an example to 
all of us. Thank you very much for being here today.
    We will excuse this panel now unless any of the members 
have any particular questions. Do you?
    Senator Craig. I do. Just one, and I will be very brief.
    Jan, I am struggling with the very thing you are struggling 
with about existing roads and sedimentation and erosion coming 
from existing roads versus obliteration or changing those road 
structures, and the ability to treat those existing roads 
lightly, seedings and that type of thing.
    What I saw was tremendously disturbing and what I also saw 
was that they did not come right in behind it and smooth it out 
and seed it and prepare it in a way that it would stop the 
erosion. I can appreciate the need to take out some roads, I 
can also appreciate the need once a road stabilizes in place, 
to close it for certain reasons and leave it alone, or to at 
least try to rehab it in a way that it would create a low 
maintenance environment and create minimal erosion.
    Has there been any discussion about doing that instead of 
what appears to be a very disturbing activity now?
    Ms. Brown. Our organization--Madam Chairman, Senator Craig, 
our organization has not been involved in a detailed study, but 
you know, we would like to be. I think everyone recognizes that 
the Forest Service is limited on resources right now, but I 
think it is the kind of project that could actually build the 
kind of community effort that Senator Crapo would like to see 
and that is an identification of those areas that are the most 
serious, maybe some of these tank traps on some steep slopes 
are causing problems, I am not saying they are not.
    Senator Craig. Yes.
    Ms. Brown. But let us identify those that will be effective 
in closures, let us identify those in meadows perhaps that are 
not going to do any good, and let us be precise about it and 
then go about rehabilitating those roads that simply are not 
going to be needed for future timber sales. We should be doing 
this in a very methodological--whatever--situation. Let us be 
ordered about it.
    [Laughter.]
    Senator Craig. Well, thank you. That is what frustrates me 
too because I know they have spent a lot of money doing what 
they are doing.
    Ms. Brown. Thank you.
    Senator Craig. Thank you.
    Mrs. Chenoweth. Mr. Crapo, do you have any questions?
    Senator Crapo. No.
    Mrs. Chenoweth. Mr. Simpson, do you have any questions?
    Mr. Simpson. No.
    Mrs. Chenoweth. I thank the panel very much for your 
testimony and for your time, and you do have ten days to 
supplement your testimony should you wish.
    The Chair will call forth the last panel. Mr. Robert 
Ruesink, who is the Snake River Basin Office Supervisor for the 
U.S. Fish & Wildlife Service in Idaho. He will be accompanied 
by Mr. Michael Donahoo, Eastern Idaho Field Supervisor, U.S. 
Fish & Wildlife Service in Pocatello. We will also hear from 
Mr. Jack Blackwell, Regional Forester, Ogden, Utah accompanied 
by Mr. Jerry Reese, Forest Supervisor, Targhee National Forest.
    Now that you have gotten yourselves seated, would you 
please stand and raise your hand to the square.
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you. I will call first on Mr. 
Ruesink.

     STATEMENT OF ROBERT RUESINK, SNAKE RIVER BASIN OFFICE 
SUPERVISOR, U.S. FISH & WILDLIFE SERVICE, IDAHO ACCOMPANIED BY 
 MICHAEL DONAHOO, EASTERN IDAHO FIELD SUPERVISOR, U.S. FISH & 
               WILDLIFE SERVICE, POCATELLO, IDAHO

    Mr. Ruesink. Thank you, Madam Chairman, for the opportunity 
to participate in this oversight hearing on Targhee National 
Forest road closures. My name is Robert Ruesink, I am 
Supervisor of the U.S. Fish & Wildlife Service's Snake River 
Basin Office in Boise, Idaho.
    In that capacity, I signed a biological opinion dated March 
31, 1997, which addressed the effects of the Targhee National 
Forest plan revision, including the site specific travel plan, 
on the grizzly bear, listed as a threatened species under 
authority of the Endangered Species Act. That biological 
opinion represented compliance with Section 7 of the Act and 
associated regulations at 40 CFR 402. It is that opinion and 
the recommendations contained therein that form the basis of my 
statement to the Committee today. I would like to submit for 
the record a complete copy of the biological opinion and a copy 
of the Interagency Grizzly Bear Committee Task Force Report on 
grizzly bears and motorized access management.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Ruesink. The U.S. Fish & Wildlife Service has been 
working with the Forest Service during this forest plan 
revision as required under Section 7(a)(1) and 7(a)(2) of the 
Endangered Species Act. Those sections of the Act specify the 
responsibilities of all Federal agencies to utilize their 
authorities in furtherance of the purposes of the Act by 
carrying out programs for the conservation of endangered and 
threatened species and also to ensure that any action that they 
authorize, fund or carry out is not likely to jeopardize the 
continued existence of any endangered or threatened species.
    In developing the alternatives, the Forest Service held 
many public and agency meetings and the Fish & Wildlife Service 
was a participant in many of those and helped to provide input 
regarding effects of different alternatives and some of the 
considerations on listed species on the Targhee.
    Formal consultation was initiated in November of 1996. The 
biological opinion addressed only the potential effects of the 
revision on the grizzly bear. Other species were considered, 
such as the bald eagle, peregrine falcon, Ute Ladies' tresses, 
which is a native orchid, and the gray wolf, and it was 
determined that the revision and the travel plan would not 
affect those species.
    The Targhee National Forest forms part of the Greater 
Yellowstone Ecosystem, one of six grizzly bear recovery areas, 
and contains three bear management units, two of those have 
been further subdivided--Henry's Lake 1 and 2, Plateau 1 and 2 
and Bechler-Teton.
    I will skip over several references and documents to past 
consultations and get right to the heart of the matter in this 
consultation.
    In the forest plan revision, the Forest Service defined the 
goals and objectives in grizzly bear habitat as follows:

    1. Habitat conditions will be sufficient to sustain a 
recovered population of grizzly bears.
    2. Allow for unhindered movement of bears (continuity with 
Yellowstone National Park and adjacent bear management 
units).The four objectives to support those goals were:

    1. Meet recovery criteria in the grizzly bear recovery 
plan.
    2. Implement guidelines developed by the Interagency 
Grizzly Bear Committee.
    3. Provide safe, secure sites for relocation of nuisance 
bears.
    4. And implement the road density standards in the BMUs 
within three years of signing the Record of Decision.
    The environmental baseline that the Fish & Wildlife Service 
considered in preparing this biological opinion noted that it 
had changed considerably since the 1985 forest plan was 
prepared. Management activities, including timber harvest and 
road construction, reduced vegetative cover, lowered food 
values and created a vast road network. We believe that those 
baseline conditions increased the risk of direct mortality to 
grizzly bears because of the high road densities; increased the 
risk of habituation of grizzly bears to human activities along 
the roads; displaced grizzly bears from critical and important 
feeding sites, (i.e. spring and fall ranges); led to increased 
habitat fragmentation and the loss of habitat needed for 
security.
    I will move quickly to the biological opinion and some of 
the recommendations in that opinion.
    We recommended that the Targhee implement and complete an 
open and total motorized route management program for roads and 
trails on the forest by the end of calendar year 1999 that 
would contribute to the conservation, survival and recovery of 
the grizzly bear in the Greater Yellowstone Ecosystem.
    One of the key points of that route management program was 
to have in place standards which set open motorized route 
standards not to exceed .6 miles per square mile and not more 
than a total route density of one mile per square mile. And 
those are consistent with Interagency Grizzly Bear Committee 
access management guidelines.
    I see that my time is up. Just two more points very quickly 
if I may, Madam Chairman.
    Roads constructed or reconstructed for timber sale purposes 
should be single purpose roads according to the IGBC 
guidelines. New roads or road reconstruction should be of 
minimum design specifications and placed on the landscape to 
reduce costs and facilitate reclamation of the roads after the 
timber sale is completed.
    In summary, the Fish & Wildlife Service believes that the 
Targhee National Forest plan revision if implemented as 
proposed will provide habitat necessary for grizzly bear 
recovery in the Greater Yellowstone Ecosystem. It is an 
essential part of the conservation strategy currently under 
development, which is designed to be the management guidance 
for a delisted population of grizzly bears in the Greater 
Yellowstone Ecosystem.
    Thank you.
    Mrs. Chenoweth. Thank you, Mr. Ruesink.
    The Chair now recognizes Mr. Blackwell.
    [The prepared statement of Mr. Ruesink may be found at end 
of hearing.]

  STATEMENT OF JACK BLACKWELL, REGIONAL FORESTER, OGDEN, UTAH 
ACCOMPANIED BY JERRY REESE, FOREST SUPERVISOR, TARGHEE NATIONAL 
                             FOREST

    Mr. Blackwell. Madam Chairman, Senator Craig, Congressman 
Simpson, thank you for the opportunity to be here today. I am 
accompanied by Jerry Reese, Forest Supervisor of the Targhee 
Forest.
    The Targhee Forest personnel have worked hard on a travel 
management plan for the entire forest based on their revised 
forest plan. The extensive forest road system, constructed 
primarily to harvest timber, has served its purpose and is 
larger than what is feasible to safely maintain and what we can 
afford today. Poorly located and maintained roads reduce water 
quality, fish and wildlife habitat and soil stability.
    Some key points regarding the Targhee travel management 
planning process. First, the revised forest plan.
    The Forest Service completed the revised forest plan in 
April 1997 after seven years of hard work and with extensive 
public involvement. The revision addressed the extensive road 
system the Targhee built in the 1970s and 1980s, much of which 
has served its purpose and is no longer needed for timber 
harvest. Therefore, the issue became how much of the road 
system should be maintained for other uses.
    Because the public identified access as a major issue, the 
Forest Service developed a specific travel plan to accompany 
each of the seven alternatives considered in the revised forest 
plan EIS. The revised forest plan established motorized road 
and trail density standards for each management prescription 
area and also designated areas open for cross country motorized 
use.
    Balancing motorized access and other key resource concerns, 
particularly wildlife and fish, was the major focus for the 
revision of the Targhee Forest plan. To reach that balance, the 
Forest Service addressed these four concerns:

    1. The need to develop a comprehensive grizzly bear habitat 
management strategy in response to the settlement of a 1994 
lawsuit regarding roading and logging in the grizzly bear 
recovery area.
    2. The need to meet the Idaho Department of Fish and Game 
elk vulnerability goals that we heard earlier.
    3. The need to improve water quality to reduce the 
likelihood the Yellowstone Cutthroat trout would be listed as 
an endangered species.
    4. The desire to produce a travel management plan to 
provide a reasonable mix of motorized and non-motorized 
recreation opportunities while meeting the habitat needs of 
grizzly bear, elk and other species.
    Next, I would like to discuss the remand decision.
    The Forest Supervisor signed the Record of Decision for the 
travel plan, implementing direction for the revised forest plan 
on August 15, 1997. Citizens for a User Friendly Forest and the 
Blue Ribbon Coalition appealed the decision and the deciding 
officer partially remanded the decision to the Forest 
Supervisor in January 1998.
    The remand directed the Forest Supervisor:

        to keep the revised forest plan direction, including 
        road density and cross country motorized use standards, 
        that guide the travel plan;
        to implement the winter travel plan;
        to prepare a new analysis of roads and trails open to 
        summer motorized access;
        to address RS-2477 assertions made by several counties; 
        and
        finally to get more public involvement and analyze the 
        site-specific effects of individual roads and trails.
    After working with the counties on the RS-2477 issue and 
reviewing all comments regarding specific roads and trails, the 
Forest Supervisor released a new travel plan DEIS in late 
November 1998. The supervisor analyzed four alternative 
networks of roads and trails open to summer motorized use. The 
Forest also held public meetings and the comment period is open 
until March 5. I expect that final EIS on the travel plan to be 
done in June 1999.
    Now I would like to mention briefly the relation of road 
closures to the biological opinion on the revised forest plan.
    Effective road closures in the grizzly bear recovery area 
relate directly to the forest plan biological opinion provided 
by the Fish & Wildlife Service. This requires the Forest 
Supervisor to achieve the revised forest plan road density 
standards within the grizzly bear recovery area by the end of 
calendar year 1999.
    I want to point out though that these revised plan 
standards were developed jointly, and this is not something 
that the Fish & Wildlife Service forced down the throats of the 
U.S. Forest Service. We worked collaboratively together on 
these.
    In the remand of the travel plan, the Forest Supervisor had 
the opportunity to issue an interim closure order in the BMUs 
to comply with the density standards in the revised forest plan 
and the time frames established by the biological opinion, and 
did so on March 24, 1998. Last summer, forest personnel began 
to close roads within the BMUs to comply with the biological 
opinion. The work was completed quicker than we thought it 
would take.
    Finally, I would like to mention briefly the method of road 
closure.
    Much of the controversy which developed this past year 
relates to the method the Forest used to close the roads in the 
bear management units. In most cases, the Forest used large 
earth berms, the most effective way of closing roads to meet 
grizzly bear habitat standards. However, some forest users have 
told us the berms also limit other recreation activities. 
Snowmobilers in particular have expressed concern that these 
berms could affect their safety.
    To address these concerns, forest personnel have worked 
extensively this fall and winter with the Idaho Snowmachine 
Association and local snowmachine organizations to provide 
signing and other information to alert snowmobilers. As a 
result, forest personnel have modified some berms in key 
snowmobile areas in the Situation III area next Macks Inn, 
while still meeting the objective of restricting summer 
motorized access. Outside the BMUs, the Forest has more options 
on how to close roads and we will continue to work with 
interested citizens to address the least disruptive ways to 
close roads.
    Madam Chairman, that concludes my statement.
    [The prepared statement of Mr. Blackwell may be found at 
the end of the hearing.]
    Mrs. Chenoweth. Thank you, Mr. Blackwell.
    The Chair recognizes Senator Craig for questions.
    Senator Craig. Mr. Ruesink, I have spent as much time as I 
could studying the science of road density and where you all 
get your figures and therefore make your determinations as to 
what is the preferred road density per square mile. Could you 
briefly walk us through the science of road density and how we 
arrive at that as a tool to determine the viability of a unit 
for, in this case, grizzly bear habitat?
    Mr. Ruesink. Senator Craig, in responding to that, I would 
like to state right up front that unlike Director Mealey, I 
have not done research on grizzly bears and certainly do not 
consider myself an expert on grizzly bear biology. This forces 
me to rely on information that is provided by researchers and 
that is reviewed and analyzed by the Interagency Grizzly Bear 
Committee and then accepted by that group, which includes 
representatives from the Forest Service, Park Service, the 
State fish and game agencies, Fish & Wildlife Service, Bureau 
of Land Management, as the best science available.
    Mr. Donahoo, who is with me, is the person that has done 
most of the work in preparing this biological opinion. He may 
be able to give you a better answer than I, but I am not able 
to address that point.
    Senator Craig. If he could, I would appreciate it, thank 
you.
    Mr. Donahoo. Thank you.
    In answer to your question of where do we come--I believe 
your question is where do we come up with the .6 mile per 
square mile and the one mile----
    Senator Craig. That is correct.
    Mr. Donahoo. [continuing] per square mile total densities.
    This is based on information that has been obtained from 
biologists, as Mr. Ruesink pointed out. It has been modified 
somewhat and applied to the situation here on the Targhee 
Forest in order to address the specific needs and habitat 
requirements of the grizzly bear on this particular forest. And 
that was developed jointly with the Forest Service biologists 
to come up with those densities.
    Senator Craig. Yeah. I understand how you got to where you 
got or how you come up with it. I guess what I have tried to 
find out over the last couple of years is where has the science 
been done, how were the studies laid out, how did we determine 
that a certain volume of roads created certain activity among 
certain wildlife populations. And I will be honest with you, it 
looks like we have made some interesting guesses because I have 
not really found the science.
    Mr. Donahoo. Biology sometimes appears to be guesses, just 
because of the biological nature of the animals that we deal 
with. The thing I would say here is that there have been 
studies done throughout the Yellowstone Ecosystem, throughout 
the Cabinet-Yack Ecosystem and I have quite an extensive 
library, if you will, of references that I would be glad to 
share with you. I really would not want to foist that off on 
you, quite frankly, but----
    Senator Craig. No, I would not want you to either. But I 
guess what my concern is and my red light is on and I will 
quit--because of the character of the law, we are almost 
subject to the science of the biologist, period, end of 
statement. There is very little challenge, very little ability 
to modify, and certain groups have found that out and if you do 
attempt to modify it, boom, you have got a lawsuit on your 
hands. And therefore, U.S. Fish & Wildlife Service and Forest 
Service and in this instance I think it is quite clear, err on 
the side of no conflict or err on the side of not arriving at a 
conflict environment where the ultimate test of the science 
could occur. You just simply err on the side of a biologist's 
opinion, no matter what the conflict is and then you work the 
conflict out in rooms like this. That is terribly frustrating 
to those of us who seek public policy that create stability 
instead of instability.
    I guess that is my frustration. I have tried to find out 
how you got to those decisions and now I find out that if there 
is any risk--or at least I am being told if there is any risk 
of reopening the plan, that somebody may threaten the listing 
of bull trout. I call that blackmail.
    Again, does the science, or do you believe the science of 
the current road density, as is now being implemented in the 
plan, solve the problem that you believe may exist as it 
relates to the Yellowstone Cutthroat? Is the U.S. Fish & 
Wildlife Service in that position now?
    Mr. Donahoo. Sir, it is only one part of the problem, as 
has been expressed before. Road densities, road standards are 
not the only aspect that we need to address with any given 
species. And as has been pointed out with the grizzly bear as 
well, road density standards are not the only problem.
    Senator Craig. I appreciate that.
    Mr. Donahoo. There are such other things as cover, et 
cetera. The same types of issues can and probably will be 
addressed with respect to the Yellowstone Cutthroat trout. I 
have a prepared statement concerning the status of the 
Yellowstone Cutthroat trout and the actions that are being 
taken by Idaho Fish and Game, the Forest Service, Bureau of 
Land Management and others, to address potential issues with 
the petition of----
    Senator Craig. Do you have the statement with you?
    Mr. Donahoo. I do, sir.
    Senator Craig. If you would submit that for the record, I 
would enjoy reading it. Thank you.
    Mr. Donahoo. I would be glad to, thank you.
    Mrs. Chenoweth. Thank you, Senator. Senator Crapo.
    [The information referred to may be found at the end of the 
hearing.]
    Senator Crapo. Thank you, Madam Chairman.
    Mr. Blackwell, I will address this question to you, but I 
would encourage you to refer the questions I have to whoever 
has the information that I am asking for, if you feel there is 
someone there who has a closer feel for this.
    One of the issues that has come up in the hearing today 
that I do not think has been answered and I suppose we will 
need more time than even in this hearing to answer it, is 
whether the gates really work and if so, how well. I do not 
think anybody has said they are 100 percent effective, but it 
seems to me that there has been some question raised as to 
whether they are largely effective or whether they are largely 
ineffective. Do you have an opinion on that, and is there any 
objective information that you have to support your approach to 
this?
    Mr. Blackwell. Well, generally, we think they have had 
their problems and several things, a predator project report, 
our own monitoring and so forth and monitoring trips with other 
folks have found tracks around gates, you know, those kinds of 
things.
    Senator Crapo. Can I interject here just for a second? I do 
not want to stop your full answer, but one of the questions I 
have had even with regard to the tank traps is can people not 
just drive around the tank traps?
    Mr. Blackwell. I might just mention how they were sort of 
put together on the ground. What our folks tried to do was go 
to--well, maybe I will go back just a little bit and talk about 
the whole thing because I think it is kind of important to 
understand. The basic option in the Interagency Grizzly Bear 
Access Management Report to meet the total motorized access 
route density standard of one mile per square mile is basically 
to obliterate the road.
    Senator Crapo. Right.
    Mr. Blackwell. And reclaim it. That is pretty expensive and 
a lot of these roads have been in place for awhile and the cut 
and fill slopes are fairly stable and we did not think that was 
probably totally necessary. So we worked with Fish & Wildlife 
Service and others and generally tried to just deal with the 
terminus of the road. And our folks would generally go in and 
try and find a point where they could make an effective closure 
and then kind of work back out to the terminus. Some have very 
few, because they got a good place, so to speak, to make the 
closure; some have quite a few.
    Senator Crapo. So when you said that you felt--back to the 
question on gates, when you felt the gates were not as 
effective as possible, do you have any idea as to how effective 
that is? Are they stopping half the traffic or 90 percent of 
the traffic?
    Mr. Blackwell. I cannot give you a percentage number but 
what they did when they went on the ground to design these is 
actually looked for evidence that the gates were being violated 
and that sort of thing, and tried to find the places where they 
were being violated and to shut those off. And we found an 
awful lot of that.
    Senator Crapo. I see my time is about up and I have a 
number of questions which I will submit for the record, but one 
I wanted to ask here, which is really core to the issue for me. 
And again, Mr. Blackwell, you may choose yourself or ask 
someone else to follow up on this, but the real core question 
to me here is whether we should have the forest closed unless 
designated open, or open unless designated closed. Is there a 
rationale that you could explain as to why it is that you have 
selected the approach of closed unless designated open?
    Mr. Blackwell. There is not an easy answer, it has been 
tried both ways in many parts of the country. I think the first 
round of forest planning, you saw national forests all over the 
country doing it either way.
    The consensus seems to be that most of us would prefer open 
unless posted closed. That is not working very well, for some 
of the reasons you heard today--the signs get torn down, 
disappear and then it does not work.
    It is hard on us to have to propose that and we do it with 
great reluctance. And I am not sure the final chapter is 
written yet, but that is where it seems to be heading, Senator.
    Senator Crapo. Madam Chairman, may I ask unanimous consent 
to ask one follow-up question on that?
    Mrs. Chenoweth. Without objection, so ordered.
    Senator Crapo. It seems to me that your answer is 
consistent with what I have been hearing and that is that the 
rationale for changing to a closed unless designated open 
system is based on the inability to enforce the other system. 
Jan Brown has suggested that we need additional resources into 
enforcement.
    If we went to a system that was sort of like it is for 
hunting areas, if you are going to go hunting, you have to know 
what is open and what is closed and when--if that type of a 
system were in place so that we did not have to worry about 
whether the signs were up or not and so forth, but people were 
required to know what is open and what is closed, and if we had 
adequate enforcement, do you feel that that would be a better 
way to approach the issue rather than closing the forest unless 
it is designated open?
    Mr. Blackwell. Yes, I do.
    Senator Crapo. Thank you.
    Mrs. Chenoweth. The Chair recognizes Mr. Simpson for 
questions.
    Mr. Simpson. Thank you, Madam Chairman.
    Mr. Blackwell, I get very concerned when I start reading in 
the paper about activities that create such hostility on both 
sides of the issue that you start, for lack of a better term, 
finding bombs on the outside of Forest Service buildings and 
those kinds of things. I think we have created an environment 
that is totally unacceptable, that we have got to change 
somehow. I know that is a concern to you and it is a concern to 
every Forest Service employee.
    What sort of public input did you receive before you did 
this and did you adequately inform the public, in your opinion, 
before you did this of what you were going to do when you did 
the tank traps and, in retrospect, how would you have done it 
differently?
    Mr. Blackwell. Congressman, can I ask Forest Supervisor 
Reese to answer that?
    Mr. Simpson. Sure.
    Mr. Reese. Well, actually, we have been at this for quite 
awhile, as has been mentioned. We have been working through the 
forest plan for a number of years, we actually produced maps 
for every alternative in the forest plan and went through a 
number of public meetings on that. We have identified in the 
forest plan EIS even the number of miles that we would probably 
obliterate if given alternatives were selected; that sort of 
thing.
    When the remand decision came down, we sent out news 
releases detailing how we were going to deal with the remand, 
work our way through that, through the new EIS, issue the 
closure orders, that sort of thing. And we felt like we had 
provided information of the direction we were going. Perhaps we 
could have spent more time right about that time and in very 
great detail said what obliteration means, that sort of thing, 
maybe we did not do enough of that.
    The only other thing I could say is trying to find some way 
to both be effective, be somewhat cost-effective in how you do 
it, and achieve the objectives in the time frame. You know, it 
is kind of a conundrum.
    Mr. Simpson. Well, just to follow up on that. Did you 
inform the local officials that you were going to do this? 
Because I understand some of the problem that is created here 
is the distrust that the local officials have, that they are 
hearing one thing from, particularly you, they were meeting 
with you at one time, and you were telling them one thing when 
exactly the opposite was happening out in the forest.
    Mr. Reese. Well, I am not sure what you are referring to 
there. I tried to be upfront with everyone.
    Mr. Simpson. Did you inform the local officials that this 
was going to go on, beforehand?
    Mr. Reese. Well, I know the Fremont County officials were 
involved with this when we were doing the bidders tours and so 
forth to set up the contracts. We notified Teton County in 
advance. So I think so.
    Mr. Simpson. I guess one of my great concerns is that the 
public--I like to consider myself a fairly informed individual, 
I read several different newspapers and obviously having been 
the Speaker of the House, I get news releases all the time. The 
first time I heard about this was when local officials started 
to call me and say do you know what they are doing in the 
Targhee Forest. And started to send me pictures and actually 
took me out there to show me what was going on. I had no 
knowledge of it beforehand, the Forest Service did not seem to 
go out of their way to try to inform people that they were 
going to do any of this, and obviously it does not take a 
scientist to figure out that this was going to be relatively 
controversial.
    Mr. Reese. Well, I think we have recognized that basically 
through the forest plan process and we have had a number of 
public meetings, various ways of notifying the public through 
that process, and maybe we misread this tail end thing, but I 
think we made a major effort through the whole thing to keep 
people involved, and some stay involved and some do not. But 
you know, I do not know how much--we tried anyway, I will say 
we did our best.
    Mr. Simpson. Well, let me just suggest that we try better 
in the future and maybe we can avoid some of the controversy at 
least before we get into it, or at least address some of it.
    Mrs. Chenoweth. Thank you, Mr. Simpson.
    I have here some pictures of road number 469 at the 
Squirrel Creek area. The first picture was taken September 29, 
1998 and the same identical location, a picture was taken 10/1/
98. And I also have here two pictures of road number 469 at 
Jackass Loop Road. The upper picture taken September 29 and the 
lower picture at the same location taken October 1. And without 
objection, I would like to enter these into the record. I would 
also like for the other members to view them because what you 
see there and what you see in the pictures here goes far 
beyond, Mr. Reese, far beyond what Congress ever intended in 
terms of what we appropriated money for road closures of ghost 
roads and in fact, purchaser road credit closure was led by me 
in the House in cooperation with Senator Craig. This goes far 
beyond it and it defies common sense.
    I want to know, Mr. Reese or Mr. Blackwell, where does the 
buck stop. Who made this decision to build the tank traps? Who 
is responsible?
    Mr. Reese. I am.
    [The material referred to may be found at the end of the 
hearing.]
    Mrs. Chenoweth. How much money was involved in this 
project? We have heard figures of $300,000, we have heard 
figures of $600,000.
    Mr. Reese. Originally when we first looked at this, when we 
thought we would probably be looking at obliterating the roads 
completely, we estimated it would be about $600,000 for the 
BMUs or about $1,500 a mile. This entire, the 400 miles that we 
have done so far, which is 85 percent of the total, cost about 
$107,000 and that includes the modifications we made to some of 
them. And so we were able to do it for about 20 percent of what 
we originally estimated, by focusing on the terminus, trying to 
do the minimum amount of disturbance. Even though they are 
hefty, we tried to minimize actually the amount of disturbance 
we covered on the ground, and in fact only disturbed a total of 
about 150 acres in an area of about 450,000 acres.
    Mrs. Chenoweth. Mr. Reese, did you consult with Mr. 
Blackwell about your decision?
    Mr. Reese. About----
    Mrs. Chenoweth. To build tank traps.
    Mr. Reese. To do the road obliteration work and----
    Mrs. Chenoweth. No, specifically to build tank traps, did 
you consult with Mr. Blackwell?
    Mr. Reese. We consult--do you want to answer that?
    Mr. Blackwell. No, go ahead.
    [Laughter.]
    Mr. Reese. We consulted regularly through this process on 
what, you know----
    Mrs. Chenoweth. I want to know this, did you consult with 
Mr. Blackwell about building tank traps----
    Mr. Reese. Yes.
    Mrs. Chenoweth. [continuing] and did he authorize this?
    Mr. Reese. I----
    Mrs. Chenoweth. Mr. Blackwell, do you care to answer the 
question?
    Mr. Blackwell. I concurred with what the Forest was doing 
and I would like to take a stab to correct the misimpression 
that tank traps have not been used before. So-called tank traps 
have been used for a long time. The pictures and the magnitude 
here in the instance we are talking about today are the 
greatest magnitude I have ever seen, but I stand behind Mr. 
Reese in being aware of what was going on here.
    Mrs. Chenoweth. So for the record, your testimony is that 
you were specifically consulted about the tank trap project and 
you personally okayed it. Is that your testimony?
    Mr. Blackwell. My testimony is that I was aware of it in 
advance, I did not know the specifics, Madam Chairman, of size, 
but I was consulted in advance and I did know about it.
    [Comment from the audience.]
    Mrs. Chenoweth. I would ask that the audience remain quiet 
until we are finished.
    [Comment from the audience.]
    Mrs. Chenoweth. We will have to ask security to ask you to 
leave, we are just about through with the hearing.
    Mr. Reese, why did the Forest Service not do a site-
specific NEPA study and an analysis as required by the law 
before you engaged in building and constructing the tank traps?
    Mr. Reese. We believe we did. If you follow the sequence of 
NEPA documents, the forest plan EIS, the travel plan EIS, the 
remand decision. In the remand decision, it says--it 
specifically asked me to consider the appropriateness of a 
closure order to implement the biological opinion, the density 
standards in the biological opinion, and I did that. And part 
of implementing the density standards in the biological opinion 
is to reach those road density standards according to the 
Interagency Grizzly Bear guidelines by the end of calendar year 
1999.
    Now we started into this looking at obliterating the entire 
road prism. We felt we would be very lucky to get half of it 
done in one summer, and therefore needed at least two field 
seasons to do it. And so we issued the order, began the work; 
because of the way we were able to negotiate to do it, we were 
able to do it much more rapidly and much more economically than 
we estimated. We are quite a bit farther along than we thought.
    So I believe the answer to that question is we did the 
NEPA, we got the biological opinion and implemented the 
biological opinion.
    Mrs. Chenoweth. Mr. Reese, did you take into consideration 
the potential of human harm?
    Mr. Reese. Pardon?
    Mrs. Chenoweth. Did you take into consideration the 
potential of human harm and harm to the wildlife in your 
analysis and did you publish the analysis before you embarked 
on the work?
    Mr. Reese. Specifically about the tank traps, you mean?
    Mrs. Chenoweth. About the tank traps.
    Mr. Reese. Not specifically about the tank traps, but we 
did in the EIS identify the impacts of obliterating roads and 
that sort of thing.
    Mrs. Chenoweth. But not involving your decision to build 
the tank traps?
    Mr. Reese. Well, I see that as an implementing decision.
    Mrs. Chenoweth. It is not, it is different. Now what I am 
asking you is, Mr. Reese--what I am asking you is this: Before 
you made the decision to build the tank traps, did you analyze 
the impact on human safety, did you analyze the impact on the 
environment with regard to erosion and sediment load and did 
you publish--did you publish that analysis specifically?
    Mr. Blackwell. Madam Chairman, you are not going to like 
this, but I do not think it is appropriate for us to answer 
that since we are in the middle of a lawsuit on the NEPA issue 
of the closures.
    [Applause.]
    Mr. Blackwell. I just am advised constantly in lawsuits not 
to get into a public discussion of the merits of a lawsuit when 
they are active, and where this discussion is going right now 
is right smack to the merits of that lawsuit.
    Mrs. Chenoweth. Well, Mr. Blackwell, you are not in a 
public discussion, you are in an official Congressional 
hearing, but I am aware of your concerns. I do want to say for 
the record that this was a bad decision, this was never 
envisioned by Congress. You have gone over the pale, pushed the 
envelope too far, and I have--I know at least one of you on the 
panel fairly well and have great respect for you, but this has 
got to stop. Or we will have to make sure that there is a 
reaction in the budget.
    We cannot see this----
    [Audience response.]
    Mrs. Chenoweth. Will the hearing please come to order?
    We cannot see this continue.
    [Audience response.]
    Mrs. Chenoweth. I think you know how strongly I feel about 
that. And with that, I want to thank you very much for your 
testimony.
    You have ten days to add to your testimony, should you 
wish, and we all have a lot more questions we would like to ask 
you and we will submit them in writing.
    Senator Craig. Madam Chairman.
    Mrs. Chenoweth. Yes?
    Senator Craig. There is another piece of information that 
frustrates me that I would like to see if you could provide for 
the record. I have traveled the Targhee and I have seen the 
closed gates and this is a rancher that has built a lot of 
gates over time and know when gates work and when gates do not 
work and when gates are violated. And I must be honest with 
you, I did not see a lot of destruction, I saw very little. I 
saw some gates that had been poorly maintained, but not torn 
down, not fences run over and I did not see a lot of tracks 
around the gates. I got out and walked around them, through the 
grass. There were not trafficked areas. The roads that I saw 
beyond the gates did not appear to be heavily or at all 
trafficked in some instances, and yet we hear that the tank 
trapping and the road obliteration is a result of needing to 
stop trafficking activities, as one item, amongst others.
    Mr. Hoyt said there was information, new information. I 
would like to know if studies were done, if there was a person 
out there on the Targhee that kept those gates maintained and 
fences built, or if a downed fence, as I know, having been a 
rancher, invites activity if it is down and not properly 
maintained.
    I must tell you that once you have made that kind of an 
investment--I do not know how many Powder River gates you have 
got spread across the Targhee, but a sizable number and wing 
fences along those gates, but once they are up, proper 
maintenance is relatively low in cost and maintenance invites 
discipline on the part of the public. Yes, I have seen signs 
torn down and signs shot up and because I have seen them in the 
past and spent all of my life traveling on Forest Service lands 
here in Idaho, I looked for that specifically because I had 
been told that was the logic for what you did, or one of the 
logics. And I must tell you I did not see much of it, if any.
    I would like to know the evidence, the research that was 
done, if it was done; the studies that were made, the surveys 
that indicated that there was a great violation of that, 
because Senator Crapo mentioned something very interesting, I 
can get around those tank traps in a heck of a good four wheel 
drive vehicle if I want to. My dirt bike can certainly get 
around them, if I wanted to. But if I knew there was somebody 
out there enforcing it and there was as strong likelihood that 
I might get caught, there is less likelihood that I would want 
to do it.
    Those are the kinds of human chemistries that we get 
involved in as our relationship to the public on these public 
lands. That is what frustrates me, that we have gone now to a 
three or four hundred thousand dollar expense, you are going to 
have to go in, I hope, and seed these tank traps and make them 
acceptable. After one year of erosion, you will go in and 
disturb the ground and incur some more erosion. It is those 
kinds of things--I saw a job half done when I was up there this 
fall and that means it has gone through a winter cycle and it 
is going to have to, in many instances, be redisturbed and 
reshaped again. That is, you know, a bit frustrating.
    But anyway, I am sorry, Madam Chairman, you have been kind 
to indulge me. I would like to know how you arrived at that 
decision because I did not see gates torn down and I saw 
reasonable maintenance, but some that needed more, and I just 
did not see those smashed down grassy areas and trafficked 
areas around those gates and I must have viewed at least 10 or 
12 gates.
    Thank you. You do not need to respond. If you have got the 
science, information, the studies that indicate that you came 
to a decision based on needing to do it because it was being 
accessed, that is what I need to know and I believe the Greater 
Yellowstone Coalition said they had information in that area. 
That would help me fill out at least my mind's record of this 
issue.
    Mrs. Chenoweth. I do want to ask Mr. Crapo or Mr. Simpson 
if you have any closing comments.
    Senator Crapo. We have a joint question.
    Mr. Simpson. What is the penalty now if someone goes around 
a gated road and someone from the Forest Service catches them? 
And what is the likelihood of it being imposed?
    Mr. Reese. It was just increased, I believe in Idaho, and 
do not quote me but I think it is about $500.
    Mr. Simpson. How often--any idea how many of those 
violations have actually been assessed?
    Mr. Reese. In an average year, you mean?
    Mr. Simpson. On the Targhee.
    Mr. Reese. Probably about ten. I would agree that 
enforcement is going to be a key part of the picture because 
there is nothing that is absolutely effective without 
enforcement.
    Mr. Simpson. Just in closing, I would like to say that I do 
appreciate you coming and answering the questions. We were not 
trying to grill you, but I was trying--I did want to have some 
answers to some of the questions.
    [Audience comment.]
    Mr. Simpson. Wait just a minute. I am here to find out 
information and if you cannot respect that, then why are you 
here?
    [Audience comment.]
    Mr. Simpson. Well, I am sorry, but we have another thing at 
5 p.m., but there is--as the Chairman mentioned earlier, the 
record will be open for your comments to put in and I guarantee 
you, I will read those comments.
    [Audience comment.]
    Mrs. Chenoweth. Will the hearing please come to order.
    Mr. Simpson. But I do appreciate you coming. I am not 
trying to intimidate or threaten or anything else any of you. I 
did want to find out what is going on because I want to try and 
reduce the controversy and reduce this animosity between the 
sides so that we do not end up one day with the type of thing 
that happened at the Forest Service door in reality.
    [Audience comment.]
    Mr. Simpson. So I appreciate you coming and I appreciate 
everyone else that testified today. There are people on both 
sides of this issue that I agree with and I look forward to 
working with.
    Mrs. Chenoweth. Thank you, Mr. Simpson.
    I just want to say in closing that I think that our 
concerns are that we diminish the controversy. There has been a 
lot of ill will, there has been a lot of damage out there to 
the roads and the environment. I think there is a way we do not 
have to live with this forever and one thing I would like to 
see is Mr. Blackwell, Mr. Reese, Mr. Ruesink, Mr. Donahoo, if 
all of you would work with our county commissioners and be very 
straightforward with them. I do not ever again want to hear 
about them being told one thing and something else happening.
    [Audience disruption.]
    Mrs. Chenoweth. And so if you would please work with our 
county commissioners.
    [Loud audience disruption.]
    Mrs. Chenoweth. If you would please work with our county 
commissioners to try to restore this. Thank you very much.
    [The prepared statement of Jerry Jayne may be found at the 
end of the hearing.]
    Mrs. Chenoweth. This hearing is adjourned.
    [Whereupon, at 5:30 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
  Statement of Hon. Stan Hawkins, District 28, Bonneville, Fremont & 
                             Teton Counties

    Congressman Chenoweth, Congressman Simpson and others: 
Welcome to Eastern Idaho! We are glad you are here.
    I'm the State Senator from the 28th legislative district of 
Idaho. The 28th District and all of eastern Idaho is a diverse 
area that has for many years been reliant on resource based 
activities. Farming, ranching, timber and even the INEEL depend 
on our natural resources. Land, forests, rivers, lakes, 
underground water, open spaces and wildlife are all part of our 
heritage and our lives. For generations, our land use practices 
have preserved this area in a condition that now causes all 
resources users to activate and mobilize in what has evolved 
into a constant battle over how our resources should be used. 
Frankly, I'm amazed at the illogical and the unsupportable 
claims made by many who would have you believe that we could 
hand this area to the next generation if we could just keep the 
current generation from using it.
    As local officials who are charged with funding schools, 
roads and all other public services in a state that is 
predominantly publicly-owned, we simply must have a reasonable 
policy of use for natural resources.
    Panic management is wrong. Those who complained bitterly 
about the salvage harvests of our mature trees on the Targhee 
some years back are the same ones who now fight to keep harvest 
levels so low that we will likely see a forest in the same over 
mature condition that required extreme harvest levels to allow 
utilization of the resource. We are told to count on a new and 
emerging tourism economy. Those who extol the benefits of 
tourism are the ones who want to close the roads to our forests 
and want limits on boat launches on our rivers and want 
snowmobiles and recreational vehicles banned from public lands 
and parks. We have people who decry urban sprawl and the lack 
of controls that allow farm land to be gobbled up. In the next 
breath, they advocate that water, currently used on farms, 
should be sent downstream in hopes that fish will benefit.
    Frankly, I'm tired of constantly battling to maintain the 
way of life I have known and my constituents have known. We 
have tried to use the appropriate avenues to achieve balance. 
We attend water planning hearings, big game plan hearings, 
forest plan hearings, forest travel plan hearings and on and 
on.
    We give input. County commissioners, mayors, sheriffs, 
emergency service providers and all of us testify. We speak for 
the local interests. We speak as if what we say will make a 
difference. And, in the end, we are frustrated. The plans and 
the action are seldom, if ever, reflective of the comments and 
the wishes of the local interests as expressed by those 
officials who are repeatedly elected by the majorities they 
speak for. As local officials, we watch the fog set in. 
Decision-making is done without accountability--without any 
concern for the local public interest. Federal land managers 
blame the state Fish and Game agency for management 
initiatives. When that doesn't work, we face the specter of one 
Federal agency threatening judicial interventions against 
another; that is, the U.S. Fish and Wildlife Service forces our 
decisions. As the fog gets thicker, ``budgetary constraints'' 
can be used to excuse any action or inaction. I have heard 
public land officials say ``we can't maintain roads on this 
tight budget''--and yet it seems like staffing levels are 
higher than they were when logging, grazing, road building and 
other activities were at levels that far exceed the level of 
activity we see today.
    Today we are here to talk about road closures. Actually, we 
are talking about extreme measures being leveled at the 
topography on roads that were recognized, in some cases, to be 
open for seasonal use. The measures I'm talking about led to 
litigation that has resulted in the Forest Service agreeing to 
at least modify the dangerous and destructive impediments that 
were constructed. Public notice, public participation and 
public involvement were not adequately provided for in this 
decision. Has the law of the land been violated? It's an 
important question we hope this hearing will answer. For that 
reason, I say again, ``Thank you.'' Thank you, Representative 
Chenoweth, for providing this important chance for us to be 
heard. Thank you, Senator Craig, for already starting 
legislation that could serve to insure that local concerns are 
considered in the future.
    Our local economy is on the line. Our way of life is on the 
line.
                                ------                                


                Statement of Jim Gerber, President, CUFF

INTRODUCTION

    My testimony will address the three reasons the Targhee 
Forest gave us for closing and obliterating roads on the 
Forest. These are: (1) protect grizzly bear, (2) protect elk, 
and (3) reduce erosion. I will explain why we in CUFF do not 
believe these are valid reasons for road closures. Please keep 
in mind, as I discuss them, that the majority of people in 
eastern Idaho do not support road closures, so the pressure to 
close roads is not coming from us. The question is ``Where is 
the pressure to close roads coming from?''

GRIZZLY BEAR

    The first reason the Forest always gives for closing and 
obliterating roads is to protect grizzly bear.
    I have an overhead transparency of a map to discuss the 
grizzly bear issue (also Appendix A). The dark blue line is the 
outline of Yellowstone N.P.; the Targhee Forest is along the 
lower left boundary of the Park.
    The map shows the results of a ten-year radio-telemetry 
study (1977-1986) in and around Yellowstone N.P. The map is 
taken from a scientific paper written by Doctors Richard Knight 
and Dave Mattson, former employees of the Interagency Grizzly 
Bear Committee and experts on grizzly bear behavior.
    Prior to 1977 park biologists radio-collared a number of 
female grizzly bears in and near the Park and then released 
them. For the next 10 years biologists flew over the Park and, 
through the wizardry of radio electronics, located each bear 
and marked its position on a map with a black mark. At the end 
of 10 years the scientists produced this map. Every bear 
management unit (BMW) in the Park (there are 18 of them) is 
covered with black marks, indicating the location of bears. 
Every BMU, that is, except one. That one is the Plateau BMU in 
the southwest corner of the Park. It is absolutely white. For 
10 years, while biologists were flying over the Park locating 
female collared bears, no bear ever walked out into the Plateau 
BMU. Congressmen, we are setting 164,000 acres aside for a 
grizzly bear sanctuary in an area where the bear does not even 
want to be!!!
    The second overlay is a statement taken from the same 
study. The highlighted portion says ``Low densities of 
telemetry locations in unroaded areas northeast of YNP and in 
the Park's southwest corner may be a result of poor habitat 
condition . . .'' So here we have the premier authority of 
grizzly bear in YNP saying the Plateau BMU is poor habitat.
    When you combine this statement with the previous map and 
add the fact the Plateau BMU is hot, dry habitat with no water, 
you get a clear picture that this area is not good grizzly bear 
habitat. The question then is ``Why are the Targhee Forest and 
U.S. Fish and Wildlife Service pushing so hard to emphasize 
grizzly bear here?'' We hope your hearing can shed some light 
on this question.

ELK

    The second reason the Forest gives to close roads is to 
protect elk. But elk are doing well on the Forest, having 
increased 600 percent since the 1960's. This increase occurred 
at a time of heavy salvage logging and associated road building 
to harvest millions of beetle-killed trees. This increase in 
elk, associated with more roads, does not tell us roads are a 
problem for elk on the forest. Again the question is ``Why is 
the Targhee Forest pushing to close roads when the elk 
population is at an all-time high and ``thriving'' according to 
the Idaho Fish and Game Department?''

REDUCE EROSION

    The third reason to close roads is to reduce erosion. This 
issue revolves around ``ghost'' or two-track roads. The theory 
being that since these roads are not constructed or maintained, 
they must be adding large quantities of sediment to streams. 
However, most of these ``ghost'' roads are located 1/4 mile, or 
more, from a stream. These roads erode each year, but that 
sediment runs into the adjacent vegetation and is captured. 
Little, if any, sediment ever reaches a stream. In fact, the 
water running off the forest is clean and clear. This does not 
tell us roads are contributing large amount of sediment to 
streams in our area.
    In summary, bears and elk are doing fine and water running 
off the Targhee is clear. This does not indicate a need for the 
excessive road closures proposed by the Targhee Forest. Since 
the impetus to close roads is not coming from us in eastern 
Idaho, we wonder where it is coming from. We hope your hearing 
can shed some light on this question.
    Thank you and that concludes my comments.
    [GRAPHIC] [TIFF OMITTED] T5181.001
    
    [GRAPHIC] [TIFF OMITTED] T5181.002
    
    [GRAPHIC] [TIFF OMITTED] T5181.003
    
    [GRAPHIC] [TIFF OMITTED] T5181.004
    
  Statement of Adena Cook, Public Lands Director, BlueRibbon Coalition

THINKING IN THE BOX: FOREST PLANNING AND MANAGEMENT ON THE 
TARGHEE NATIONAL FOREST

INTRODUCTION

    ``Thinking out of the box'' is a popular euphemism for 
creative problem solving. Tough issues can demand 
unconventional ways of thinking and processes that reach beyond 
past methods. Nowhere is this approach more needed than in 
national forest planning and management.

TARGHEE PLANNING BACKGROUND

    When Targhee forest planning began eight years ago, there 
was promise that the new plan process would attempt new 
solutions. The supervisor at that time, Jim Caswell, engaged 
one of the foremost experts in the country on forest planning 
and public involvement, Dr. Bill Shands, to direct the public 
involvement part of the plan revision.
    I had followed Dr. Shand's work, and attended his lectures 
on several previous occasions. He favored complete public 
involvement in every step of the planning process. He wanted to 
take forest planning ``out of the box'' and bring it to the 
people (this was long before the euphemism ``thinking out of 
the box'' came in vogue). I admired his thesis. He theorized 
that if publics were involved through each step of the process, 
that consensus, or at least comprehension, would result.
    Under Dr. Shand's direction, the first couple of years went 
well with the Citizen's Involvement Group (CIG). Everyone 
learned much about the Targhee, what decisions had to be made, 
and why. We knew that it would get more difficult as we got 
closer to actual on the ground allocations, but many felt that 
the continuity, relationships, and trust built up over the past 
two years would help the CIG achieve an unprecedented consensus 
on many issues.
    In 1993, events beyond anyone's control broke this fragile 
consensus building. Jim Caswell was transferred. Bill Shands 
passed away. The preservationist direction of the Clinton 
Administration was gathering steam. The Forest Service was 
being ``reinvented.''
    Yet much information, hard data, and public input had been 
gathered over the past three years. These would form the basis 
of Draft Standards and Guidelines, and Management 
Prescriptions. The general direction of the future of the 
Targhee would take shape. Members of the CIG wondered how the 
next crucial step would proceed.

THE BOX REPLACES CREATIVE PROBLEM SOLVING AND CONSENSUS

    They were dismayed when out came the box that they had 
hoped Bill Shands had banished forever. But he was dead. The 
Forest Service had been reinvented, and there was a big label 
``Ecosystem Management'' on the box and its management criteria 
were blatantly preservation oriented.
    Locally based solutions and citizen involvement were 
unimportant. Once the premises from which the box is 
constructed are accepted, as they are within the Forest Service 
from the top down, then all answers lie within.
    Polarization replaced developing consensus. The public was 
back where they started from five years ago, though much wiser!
    The BlueRibbon Coalition has always been a strong advocate 
of cooperation with land managers. They are our partners. We 
work in many ways to assist them in protecting the resource 
while promoting balanced recreation use and public access. Our 
success stories in achieving this are many, and we have a long 
history of success stories on the Targhee.
    One of the key elements of this success is constructive 
give and take. Another is a real dedication to on-the-ground 
problem solving.
    Very little can be achieved by talking at each other with 
broad brush platitudes like, ``The Targhee has several thousand 
miles of road open under our new plan. Doesn't that sound like 
a lot? Isn't that enough?'' And conversely, ``You've closed 
enough roads already. We don't need any more closures!''

INFLEXIBLE NEW PLAN STIMULATED POLARIZATION

    Yet the inflexible standards of the new forest plan 
stimulated this polarization, and discouraged on-the-ground 
give and take. Most traditional multiple uses had such 
standards applied. Motorized recreation and general forest 
access were especially affected. These inflexible sideboards 
give very little latitude for on-the-ground solutions. For 
example, the new forest plan:

        <bullet> mandated tough road and trail density standards, not 
        only in the Bear Management Units, but throughout the whole 
        forest.
        <bullet> counted a single track trail where motorized use was 
        allowed as having the same impact on wildlife as a Federal 
        highway.
        <bullet> imposed a ``closed unless posted open'' fiat on most 
        summer motorized forest access.

UNWILLINGNESS TO WORK TOWARD LOCAL SOLUTION EMERGES

    This inflexibility and unwillingness to work for on-the-ground 
answers manifested itself in other ways as the process moved forward:

        <bullet> A multiple use alternative developed by local 
        citizens, included in the draft plan and strongly supported by 
        the surrounding communities, was dropped in the final because, 
        we were told, it failed to sufficiently conform to established 
        parameters.
        <bullet> A travel plan environmental assessment (EA) and 
        decision was issued shortly after the final forest plan was 
        released. This decision designated open roads and trails on the 
        forest, and decided which would be closed to motorized use. The 
        regional office received 1,276 appeals on this decision. These 
        appeals were upheld because the public was not given an 
        opportunity through a site-specific process to comment on 
        individual roads and trails. Targhee officials were directed by 
        the regional office to go through another Travel Plan NEPA 
        process that afforded the public opportunity to comment on 
        site-specific roads and trails.
        <bullet> It became apparent to citizens and organizations 
        interested in forest access that the new plan was inflexible 
        and therefore unworkable. Together with local elected officials 
        and members of Idaho's congressional delegation, they urged 
        Supervisor Reese to adjust the plan through an amendment. I 
        attempted to persuade him that addressing access would not 
        constitute a whole new plan revision, but he stated that it 
        would. He refused these requests.
        <bullet> Supervisor Reese issued a closure order closing the 
        entire forest to cross-country motorized use, effectively 
        implementing that portion of the forest plan in advance of the 
        regional-mandated travel plan process. While this action could 
        be considered reasonable in bear management units, it pre-
        empted the process for the whole forest.
           It was explained that this action would enable the public to 
        get used to the idea, and demonstrate how ``closed unless 
        posted open'' would work on the ground. Yet little public 
        information was distributed, and no signs were posted informing 
        the public.

OVER 400 MILES OF ROAD OBLITERATED WITHOUT SITE-SPECIFIC DOCUMENTATION

    The cavalier attitude toward public involvement culminated in the 
obliteration of over 400 miles of road in the bear management units of 
Fremont County. I realized that additional roads would be closed in 
this area, and that this closure could proceed in advance of the travel 
plan process to accommodate the grizzly bear management strategy. Many 
of the roads in this area were already securely gated.
    However. I was appalled at the discovery that these closures would 
be accomplished by a massive obliteration effort. As BlueRibbon and 
Citizens for a User Friendly Forest (CUFF) were preparing to file suit 
over this lapse of NEPA, the bulldozers apparently were urged to go 
faster.
    Supervisor Reese stated that this action was necessary because 
current closures were not effective, and that he was mandated to reduce 
the road density in two years. We were unable to engage in a productive 
dialogue thot would:

        <bullet> Examine gates site specifically and determine whether 
        they were effective or not. That all of them were being 
        systematically violated is not true.
        <bullet> Determine what additional means were needed to make 
        them effective.
        <bullet> Detemmine whether informal routes were essential (like 
        Schoolhouse Draw, site of our October rally) and could be 
        traded for other routes.
        <bullet> Resolve and address concerns about winter travel 
        safety.
        <bullet> Determine the impact on the non-motorized 
        recreationist.
        <bullet> Determine if obliterations were necessary in the 
        developed portions of Island Park, where the closures would not 
        contribute to grizzly bear security.
    Teton County passed an emergency ordinance that temporarily stopped 
the earth moving equipment from completing the obliteration in that 
County. About 22 roads remained to be obliterated. Because our suit was 
pending, and because the season was advancing, the forest service 
agreed to stop the work for the season.
    At a Teton County Commissioners' meeting that preceded this 
decision, Commissioner Brent Robson showed a video demonstrating that 
several of the roads on the obliteration list had open and unsecured 
gates. The question was asked, ``How could the forest claim trespass if 
the gates were not secured?''
    In the ensuing discussion about securing roads with minimum impact, 
Ranger Patty Bates estimated that 25 percent of the current closures 
are effective. The group agreed that closures should be effected by the 
minimum means, not maximum.This meeting was not a part of a NEPA 
process, but it demonstrated that give and take could still occur. This 
is increasingly rare, however.

CONCLUSION

    Targhee's current management attitude can be characterized by:

        <bullet> Inflexibility.
        <bullet> Unwillingness to seek on-the-ground solutions.
        <bullet> Breakdown in constructive communication.
    We do not accept excuses such as, ``We're mandated by the 
Endangered Species Act. We'll get sued if we don't.'' These scapegoats 
represent avoidance of problems, not a commitment to solutions.
    The Targhee is but one example of how ``thinking in the box'' 
constrains land management problem solving. Committed to top-down 
mandates that come in a box, other national forest units face similar 
difficulties.
    That's why we are here. We need our Members of Congress to help us 
toward creative solutions, to help us ``think out of the box'' to plan 
the management of our public lands.
                                 ______
                                 

 Statement of Neal Christiansen, Chairman, Fremont County Commissioners

Congressmen and Distinguished Guests:
    My name is Neal Christiansen and I am Chairman of the 
County Commissioners in Fremont County. I was elected to office 
in 1994 and reelected in 1996 and have served continuously for 
4 years now. During that time I have worked closely with the 
Targhee Forest on several issues, including the revised Forest 
Plan and subsequent Travel Plan.
    Prior to becoming a county commissioner I was a logger on 
the Targhee for years and am currently Vice-President of the 
Associated Logging Contractors of Idaho, representing some 560 
logging contractors. As such I am very familiar with the 
resource utilization end of forest management.
    Fremont County is heavily dominated by Federal land. 
Between the Targhee Forest and Bureau of Land Management, 60 
percent of our county is federally owned, mostly Forest Service 
land. As a result, Federal land management policies have a 
large impact on Fremont County and those who use the forest but 
live elsewhere (tourists and summer home residents). Any effort 
by the Targhee Forest to reduce resource development or access 
to the forest can have a big impact on county government.
    By way of example, I point to the loss of 25 percent funds 
in the last 8 years or so. In 1991 Fremont County received 
$213,000 in 25 percent funds. From then on there was a steady 
reduction in receipts, culminating in a mere $48,000 in 1998. 
The revenue is generated through cabin site leases, grazing 
fees, and timber sales. Since the cabin site fees are fairly 
stable, the 25 percent receipts fluctuate largely according to 
timber prices. Therefore almost all of the reduction results 
from a decline in the amount of timber offered by the Targhee 
Forest. The Forest seems oblivious to this impact, even though 
we have pointed out the problem many times.
    So it is not surprising that we, the county commissioners, 
were less than enthusiastic about revision of the Forest Plan. 
Still, the public involvement process is the only game in town, 
and we were hopeful that in the enlightened 90's the Forest 
would keep an open mind. It was not long, however, before we 
could see the Forest had a different agenda than most of our 
constituents. The final Forest Plan reduced the allowable 
timber harvest from 80 million board feet (MMBF) to 8 MMBF, a 
90 percent reduction. The new Plan also eliminated 11 livestock 
allotments. Even worse, when the proposed Travel Plan was 
announced it closed most of the Forest to summer cross country 
motorized use, eliminated all ``ghost'' roads, and proposed to 
close many roads and motorized trails. We did not know at the 
time that ``closed'' meant a series of 8-foot high tank traps, 
one after another on a road. We were soon to find out.
    In June of last year I received a report the Targhee was 
tearing up roads on the forest. Not wanting to believe the 
report, I drove to the location and found huge tank traps in 
several roads, larger than I had ever encountered in my years 
of logging. There was no advance public discussion of the 
obliterations in the final EIS of the Forest Plan. The Forest 
simply began tearing up roads!! When confronted, the Forest 
indicated the obliterations would soon stop. They gave no 
indication of what was to come next.
    Two months later, in August, I received a bid solicitation 
for road closure on the Targhee Forest. I received the offer 
because I am still on the Forest's bidders list. Being curious, 
I went to the pre-work conference to find out what the work 
entailed. It was only then I learned of the plan to rip the 
surface of roads and place tank traps in over 400 miles of 
roads on the Targhee. Even then I had no idea how pervasive the 
traps would be. And still there was no public discussion or 
warning of the obliterations to come.
    Soon after the pre-bid meeting a contract was awarded and 
the work began. It was only then that most people learned of 
the Forest's plans, and by then it was too late. In a month's 
time the Forest and contractor flew around the Ashton and 
Island Park Districts obliterating about 380 miles of road. 
Many people requested, almost pleaded, with the Forest to stop, 
but to no avail. Finally, on the 26th of September, as the 
equipment was about to leave the Ashton R.D. and head to the 
Teton Basin R.D. I called Brent Robson, county commissioner in 
Teton County, and warned him of the onslaught was headed his 
way. Brent immediately placed a weight limit on all roads 
crossing Teton County roads to the Forest, effectively 
prohibitinq contractor's equipment from getting to the Forest. 
At the same time Citizens For A User Friendly Forest and Blue 
Ribbon Coalition filed suit in Federal court in Boise to stop 
the work until the parties of the lawsuit had time to address 
the issues. As a result of these two actions the Forest finally 
stopped the road obliteration work for the year. We are 
presently in a stand off until next summer.
    We have had unprecedented support from political leaders in 
our fight against the road closures. Both senators and then 
congressman, Mike Crapo, wrote letters opposing the closures 
and met with Forest Supervisor Jerry Reese several times to let 
Jerry know of their disapproval. All of the state legislators 
from eastern Idaho signed a letter opposing the closures. The 
county commissioners of the six counties that touch the Targhee 
Forest took the unusual step of including an advisory ballot on 
the May 1996 primary ballot, allowing people to choose between 
CUFF's alternative and the Forest Service preferred alternative 
(people supported CUFF Alt. by 78 percent). The people of 
eastern Idaho filed 1,272 appeals of the first Travel Plan, an 
exceptional number of appeals. Yet here we are today, back at 
the same place we were 12 months ago when the first Travel Plan 
was remanded by the Regional Forester. The Targhee Forest has 
not learned a thing and is about to repeat the same mistake 
they made the first time around.
    Given all of the public and political opposition to the 
Targhee Forest's Travel Plan, we do not understand where the 
pressure is coming from to force these road closures down our 
throats. We hope your hearing can shed some light on this 
question.
    Thank you. That concludes my comments.
    [GRAPHIC] [TIFF OMITTED] T5181.005
    
    [GRAPHIC] [TIFF OMITTED] T5181.006
    
  Statement of Bill Shurtleff, Commission Chairman, Bonneville County 
                 Board of Directors, Idaho Falls, Idaho

    Representative Chenoweth, Representative Simpson, members 
of the Panel, and guests, my name is Bill K. Shurtleff and I am 
the owner and manager of Call Forest Products. I, also, fill 
the position of Bonneville County Commissioner. However, today 
my testimony will be based upon my twenty-nine (29) years of 
experience as a timber resource user. Let me begin by telling 
you that during the 1970s and 1980s, as the Forest Service was 
constructing many of the roads we are now discussing, the 
constant mantra was that their roads were the number one asset 
of the Forest. These were the roads that would allow them to 
manage the forest into the future. These were the roads that 
would allow them to fight fires, thin trees, make inspections, 
and even perhaps allow some harvesting of trees if needed.
    I cannot tell you how many times I have been taken to the 
woodshed by a sale administrator because a logging machine had 
damaged a road shoulder or surface. We were, also, shut down if 
dust reached a certain level which would cause the loss of road 
surfaces. All this was enforced so as to preserve and maintain 
the number one asset of the Forest Service, the road.
    Now, all of this has been reversed. I am certain others 
will talk about the process that the Forest Service went 
through in order to implement their new policy, but I would 
like to talk about what the effect will be. By closing these 
roads in a manner that virtually stops all travel for long 
periods of time, these roads will deteriorate to a point of 
uselessness. The only means that the Forest Service has at its 
disposal to repair these roads is hard money, which I'm told is 
in short supply, and the selling of timber where the road 
construction or repair is tied to the sale.
    In the Targhee, this is very unlikely. The very small sale 
volume that is available on the Targhee will not economically 
carry much road construction or maintenance.
    It is my opinion that their entire process will basically 
close off large portions of the forest to any management. What 
will return is the same forest we faced in the 1950s. A forest 
of lodge pole pine, old and diseased, dying and then finally 
burning. We know this because we have seen it happen. The 
strange thing to me is that I thought the action we took in the 
1970s and 1980s was specifically to avoid it happening again.
    My opinion is that roads could be closed in such a manner 
as to allow inspection travel, minor maintenance travel, and 
still accomplish the objective of so many miles of roads per 
acre. This would not stop all road deterioration, but perhaps 
it could reduce it to the point that the road could be 
reclaimed in the future.
    I know our topic today is road closure, but I cannot let 
this opportunity pass without commenting on what I believe is 
the designed method of closing the entire Targhee National 
Forest to any type of commercial harvesting. It is my opinion 
that this is an objective of the present Forest Plan in the 
manner that it is being carried out. I will say no more on this 
subject, but would love to discuss it further at your 
convenience.
    In closing, I want to thank you for the opportunity to 
appear before you today. I have great respect for job you are 
both performing, and I have some feeling for the difficulty it 
holds.
    Thank you again, and I would be happy to respond to any 
questions you might have.
                                ------                                


Statement of Stephen P. Mealey, Director, Idaho Department of Fish and 
                                  Game

    Madame Chairman:
    I am Steve Mealey, Director, Idaho Department of Fish and 
Game. I am pleased to be here today with Commissioners Burns, 
Siddoway and Wood to present Fish and Game's perspective on the 
Open Road and Motorized Trail Analysis Draft Environmental 
Impact Statement (DEIS) prepared by the Targhee National 
Forest.
    Let me begin by clarifying the road status that would 
result from implementation of the Proposed Action inside the 
Targhee National Forest Grizzly Bear Management Units (BMUs) 
and outside those units. I have illustrated this by means of 
pie charts. They show that inside the BMUs 38 percent of the 
roads are left open and 62 percent are decommissioned or have 
motorized restrictions. Road management decisions within BMUs 
reflect completion of the Endangered Species Act consultation 
process related to grizzly bears prescribed by Federal law, 
between the U.S. Fish and Wildlife Service and the Forest 
Service. Fish and Game was not part of this consultation 
process and had no jurisdiction in the decision.
    Outside the BMUs the situation is reversed, with 65 percent 
of the roads left open and 35 percent decommissioned or 
restricted. Fish and Game worked with the Targhee National 
Forest planning team regarding travel management outside BMUs. 
In the Targhee Forest planning process, Fish and Game personnel 
provided the Forest Service planning team with criteria 
necessary to achieve Department goals for hunting and fishing 
opportunity and for fish and wildlife populations, as specified 
in our species management plans. Elk and Yellowstone cutthroat 
trout are the key species of concern.
    While Fish and Game criteria cannot be cited as the sole 
reason for any particular road restriction, these criteria, 
along with many other multiple-use considerations, clearly were 
responsible for many restrictions outside BMUs. I'd like to 
take a few moments to discuss Department rationale for elk and 
cutthroat trout road management criteria.
    Yellowstone cutthroat trout were regarded as a sensitive 
species in the forest planning process. They have recently been 
petitioned for listing under the ESA. Yellowstone cutthroat are 
an extremely important recreational resource on the Targhee 
National Forest supporting a world class fishery in the Snake 
River. Some of the road closures on the Targhee National Forest 
were implemented to address water quality issues associated 
with 303d listed streams and to reduce sedimentation and other 
impacts to Yellowstone cutthroat trout. Maintaining and 
improving habitat for Yellowstone cutthroat is essential to 
keeping the species off the endangered species list and 
retaining state control over their management.
    The Commission has adopted hunting and population goals for 
all elk management zones in Idaho. For example in the Island 
Park Zone, the post-season elk population goal is 1,200-1,800 
cows, 400-575 bulls and 250-350 adult bulls. The plan calls for 
30-35 bulls per 100 cows and 18-22 adult bulls per 100 cows. 
The elk hunting goal is to provide as much general season 
hunting as possible and minimize the use of restrictive 
controlled hunts. Under the current spike bull general hunt and 
controlled hunt permit system for bulls other than spikes, all 
the elk population goals are being met. The hunting goals are 
not being met because we have many controlled hunts for bulls. 
As the demand for elk increases, only two management strategies 
can meet elk population goals: restricted hunting opportunity 
through controlled hunts with minimal travel restrictions, or 
general hunting opportunity with restricted access. Based on 
extensive public input, the Commission has chosen the option 
which maximizes general hunting and minimizes controlled hunts, 
through access management.
    The challenge is to maximize general elk hunting in Idaho 
to preserve freedom of choice for hunters. Access management as 
proposed in the DEIS for areas outside BMUs is the best 
alternative for retaining quality elk herds without losing 
hunting opportunity to controlled hunts. This conclusion is 
based on numerous studies conducted in several intermountain 
states over the last 20 years.
    In Idaho, Fish and Game elk researchers have investigated 
the impacts of forest roads on elk. In highly roaded areas of 
the Clearwater and Coeur d'Alene River drainages, nearly two 
out of every three bulls were harvested each year during the 
hunting season. In the more heavily roaded portions of the 
Island Park zone, nearly 90 percent of the bulls were harvested 
in a five day season. In contrast, mortality rates in low-road-
density areas were half of those in highly roaded areas.
    This demonstrates the effectiveness of road management 
restrictions in reducing bull mortality rates without 
shortening elk seasons or implementing controlled hunts. 
Proposed road restrictions outside BMUs provide adequate 
security for elk and, therefore, provide needed herd quality 
while retaining general hunting opportunity and avoiding more 
controlled hunts. Most roads can be open most of the year, 
providing access for hunters, woodcutters, berry pickers, 
fishermen, and other users including timber harvest.
    The mission of Fish and Game is to preserve, protect, 
perpetuate and manage all wildlife for the citizens of the 
state for continued supplies for hunting, fishing and trapping. 
Our first mandate is to maintain viable wildlife populations. 
After this obligation is fulfilled, remaining surpluses can be 
offered for hunting and fishing opportunity. General hunts (as 
opposed to controlled hunts) provide Idahoans the maximum 
hunting opportunity with the fewest restrictions.
    In 1976, Director Joe Greenley implemented a ``bulls only'' 
management strategy which triggered an impressive increase of 
elk across the state. Record elk numbers resulted from 
protection of cows. Hunter demand, hunter density, hunter 
access and use of ATVs, timber harvest and roads all increased 
as elk numbers increased. The irony is that as we reached 
record elk numbers, we also discovered a serious problem: our 
herd quality was suffering--we didn't have enough adult bulls. 
Unfortunately, on the Targhee National Forest, bull elk became 
highly vulnerable to hunters as habitat security decreased and 
access increased. The resulting ratio of bulls to cows reached 
a low ebb and became biologically and sociologically 
unacceptable to the hunting public. As I said, we had large elk 
herds without enough bulls.
    By 1991, the health of the Targhee National Forest elk herd 
reached a point that action was necessary. The Commission faced 
shortening the existing five-day season, but that was not 
acceptable to hunters and it would not have helped the 
situation. Other options included either closing the general 
season and implementing controlled hunts or retaining the 
general season but restricting harvest. The Commission chose to 
restrict harvest by limiting all general hunts to spikes-only. 
Hunting of bulls other than spikes was limited to controlled 
hunts. This was an unpopular but necessary action to preserve 
some general elk hunting while avoiding the extremely 
restrictive alternative of making all elk hunting controlled 
hunts. Let me make this point clear: the hunters didn't like 
the spikes-only season and the Department didn't like it but in 
the end we all realized there was no other choice.
    The result of the spike-only season was a biological 
success: in just one year, the bull:cow ratio went from less 
than 20 bulls per 100 cows to over 50 bulls per 100 cows. 
Equally important, the five-day elk wars became a thing of the 
past, and some controlled, any-bull hunts are now being offered 
that provide a highly desirable quality hunting experience, 
including mature (trophy) bulls. In eight years, we have gone 
from providing only five days of hunting to now offering 14 
days of general spike hunting, 32 days of general archery 
hunting, and 29 days of general muzzleloader spike and 
antlerless hunting. It is important to remember that hunters 
paid a high price for this success: they lost their general 
season opportunity to hunt bulls other than spikes and this 
sacrifice resulted in 60 percent of the Island Park hunters 
leaving the area to hunt elk in other units. Fish and Game 
wants to correct the remaining declines in ratios of mature 
bulls to cows that still occurs in some management units in the 
Targhee National Forest without causing a shift in hunting 
pressure to other places that could deplete other herds 
currently in good shape.
    In 1998, after considering a full range of options, the A-B 
zone tag concept was chosen as the way to do the most to 
improve elk herds, while retaining the most hunting 
opportunity. With this strategy, we have approached our 
management goals for the Targhee National Forest. Future travel 
management outside BMUs will be important for Fish and Game to 
continue this progress towards providing more general elk 
hunting in the Targhee National Forest.
    By itself, the big game season setting process is complex 
and very often emotionally charged. This becomes even more 
intense when compounded with the issues of access management. 
We recognize there are many sides to these issues and we need 
to hear from you. The Department will be conducting our usual 
series of public hearings before setting the 1999 big game 
seasons. The public has told us they prefer general hunting 
opportunity on the Targhee National Forest, with some travel 
restrictions, as opposed to more controlled hunts, the loss of 
general hunting opportunity, and fewer travel restrictions. If 
this isn't the case, folks need to come and tell us. I urge 
strong public participation in this process so all points of 
view are considered in the final Department recommendation to 
the Commission.
    Since we have recently revised our elk and deer plans, we 
will also be inviting Forest Service planners to sit down with 
us to make certain our earlier planning criteria are still 
valid.
    Thank you, Madame Chairman, for this opportunity. I will 
now stand for any questions you may have.
[GRAPHIC] [TIFF OMITTED] T5181.007

[GRAPHIC] [TIFF OMITTED] T5181.008

    Statement of Craig Gehrke, Regional Director, Idaho Office, The 
                           Wilderness Society

    Thank you for this opportunity to testify regarding the 
draft environmental impact statement for the motorized road and 
trail travel plan for the Targhee National Forest. The 
Wilderness Society has been long involved in forest management 
issues on the Targhee and the other National Forests which 
comprise the Greater Yellowstone Ecosystem. We are striving to 
insure that these National Forests and others across the nation 
are managed primarily for values and resources that are not 
ordinarily available or protected on private land, including 
clean water, backcountry recreation, wilderness, wildlife 
habitat, roadless areas, biological diversity, nature 
education, and scenic beauty.
    The Wilderness Society supports the efforts of the Targhee 
National Forest to develop a plan for motorized road and trail 
travel. Growing off-road and off-highway vehicle use is having 
an impact on the natural resources on the Targhee, and the 
Forest Service is to be commended for developing a plan which 
begins to deal with these impacts. While the Society does not 
support the preferred alternative in the draft environmental 
impact statement in its entirety, we do support several of the 
concepts within the draft plan. We will be urging that the 
Forest Service take steps beyond those outlined in the 
preferred alternative to better address the complete range of 
issues involved in travel planning on the National Forests.
    The issue of motorized travel management on the Targhee has 
unfortunately been characterized by many as grizzly bears 
versus everything else. That is an incorrect characterization. 
While the Forest Service does need to take certain steps on the 
Targhee to enhance the recovery of the grizzly bear and comply 
with a biological opinion issued by the U.S. Fish and Wildlife 
Service, the motorized travel management issues goes far beyond 
just grizzly bears.
    The final environmental impact statement for the revised 
Targhee National Forest management plan was clear in its 
assessment that off-highway vehicle use and roads are among the 
primary causes of impacts to soils, water quality, and aquatic 
habitats on the Targhee (FEIS pgs. III-18, III-l9,III-26,III-
73, III-75, IV-12 for a few examples). Management of roads and 
motorized trails is not only about grizzly bears but about 
clean water, fish, elk, and other forest resources.
    The Wilderness Society supports the initiative of the 
Forest Service, as set forth by the forest management plan, to 
eliminate indiscriminate cross-country motorized travel across 
much of the Targhee National Forest. Again, as the final EIS 
made clear, this type of use damages soils, water quality and 
fish and wildlife habitat. Taking actions to address cross-
country motorized travel is significant step forward to better 
protect the resources of the Targhee.
    The Wilderness Society also supports the Targhee's efforts 
to essentially reverse the long-standing system for signing 
trails and roads as open or closed to motorized use. By only 
signing ``closed'' trails, the Forest Service was inadvertently 
providing an incentive for the tearing down or vandalizing of 
such signs, with the offenders later claiming ignorance of the 
closure. Signing trails as ``open'' will remove the incentive 
to remove the signs and hopefully lead to better travel 
management.
    The restrictions on cross-country motorized travel and the 
new signing system are components of the Targhee motorized 
trail and travel plan that The Wilderness Society will support 
for adoption on other National Forests in Region Four. These 
types of management actions are much needed, for example, on 
the Salmon-Challis, Sawtooth, and Boise National Forests.
    It is important to keep in mind that these management 
actions were determined through the Targhee Forest management 
plan, not the draft travel plan. Changing these actions can 
only be done through the forest plan amendment process, and not 
by changes in the draft travel plan. Furthermore, as stated 
earlier, the Forest Service is under an obligation to reduce 
road densities in the grizzly bear management units on the 
Targhee to comply with a biological opinion issued by the U.S. 
Fish and Wildlife Service for the revised forest plan. To stop 
these efforts would likely require a new biological opinion 
from the Fish and Wildlife Service as well as a forest 
management plan amendment.
    Conservation groups will not tolerate significant delays in 
meeting the road density standards that resulted from the 
biological opinion for the revised Targhee forest plan. In 1994 
a court settlement agreement between the Forest Service and 
conservation groups resulted in a commitment from the agency 
that it would address deficiencies in the prior forest 
management plan relating to management of the Plateau, Madison 
and Bechler-Teton bear management units. Later, the Forest 
Service decided to address these deficiencies through the 
forest plan revision process, rather than address each bear 
management unit separately.
    The preferred alternative in the draft travel plan for the 
Targhee, while taking positive steps in motorized travel 
management, does need to be strengthened in several key areas. 
One critical issue that the draft travel plan does not deal 
well with is the impact of off-road and off-highway vehicles 
and road management on the Yellowstone cutthroat trout.
    A petition has been filed to list the Yellowstone cutthroat 
trout under the Endangered Species Act. The Targhee Forest 
travel plan does not adequately address declining populations 
of Yellowstone cutthroat trout across the forest, despite 
numerous references in the final EIS for the forest management 
plan that off-high vehicle use and roads are the primary causes 
of impacts to soils, water quality, and aquatic habitats. 
Stream crossings and roads and motorized trails within aquatic 
influence zones of Yellowstone cutthroat need to be 
decommissioned to reverse the declining population trends for 
the Yellowstone cutthroat.
    It is particularly important that the travel plan address 
impacts to Yellowstone cutthroat trout habitat from motorized 
use within the South Fork Snake River drainage. The Snake River 
system is the only major river drainage, outside Yellowstone 
National Park, that has a relatively healthy Yellowstone 
cutthroat population. Protecting cutthroat habitat in the 
tributary streams of the South Fork is critical to the species' 
long-term survival.
    The Forest Service has an opportunity through the Targhee 
Forest travel plan to demonstrate that, in the case of the 
Yellowstone cutthroat, it can take the necessary steps to 
reverse the decline of a species and not wait for the species 
to be listed under the Endangered Species Act.
    The Wilderness Society also urges the draft travel plan to 
include closures of recommended wilderness areas, such as the 
Palisades roadless area, to motorized use to protect the 
wilderness characteristics of these areas as prescribed by the 
revised forest plan.
    The Targhee travel plan should not address RS-2477 claims. 
In December 1997 the Chief's Office directed Regional Foresters 
to defer from processing RS-2477 claims except in cases where 
there is a demonstrated, compelling and immediate need to do 
so. No such needs have been demonstrated on the Targhee 
National Forest.
    The Targhee travel plan should distinguish between single 
and two-track OHV trails. To not do so would allow the gradual 
conversion, through use and deliberate construction, of single-
track trails open to motorized use to two-track trails and thus 
to de facto permanent motorized trails.
    The Targhee travel plan should not allow wheeled vehicles 
on groomed snowmobile trails. Other national forests, like the 
Boise, Caribou and Clearwater National Forests, do not defined 
wheeled vehicles as over-the-snow vehicles. Despite the fact 
that the Targhee Forest management plan found that off-highway 
vehicle use is one of the leading contributors to soil loss and 
water quality impacts, the Targhee is proposing to allow 
wheeled vehicles to use snowmobile routes in late fall and 
early spring--times when resource damage from rutting and 
erosion are most likely to occur.
    In summary, the proposed motorized road and trail travel 
plan for the Targhee National Forest is a positive step towards 
addressing the resource impacts caused by roads and off-road 
and off-highway vehicles on this forest. Further actions beyond 
those proposed in the draft travel plan, such as specific 
actions to reduce impacts to the Yellowstone cutthroat trout 
and its habitat, will need to be incorporated in the final 
travel management plan.
                                ------                                


 Statement of Hon. James R. Lyons, Under Secretary, Natural Resources 
            and Environment, U.S. Department of Agriculture

    Madam Chairman, Congressman Smith, Members of the 
Committee, thank you for the opportunity to appear before you 
today to discuss the Forest Service's proposed budget for 
Fiscal Year 2000.
    I would like to present a brief overview of our budget 
request and highlight some of the priorities we've identified 
in terms of three broad areas. Chief Dombeck will address these 
and other areas in greater detail. The three areas I want to 
highlight are; (1) the priorities of the President and the 
Department of Agriculture in managing the rich natural 
resources of this nation's forest and range lands; (2) the 
Forest Service priorities under the leadership of Chief Dombeck 
to implement the service's Natural Resource Agenda; and (3) the 
emphasis being placed on the Forest Service to be accountable 
to Congress and the American people for its performance and use 
of Federal funds.
    Last year when I testified before several committees, 
including this one, I stated that despite the contentious 
debates on several Forest Service management issues, Congress 
and the Administration have more agreement than we do 
disagreement. Despite the differences regarding budget 
priorities and several environmental riders which were part of 
the fiscal year 1999 appropriations debate, we worked together 
and developed a bill which helped the Forest Service move 
forward towards improved forest and ecological health and 
sustainability. I continue to believe we have common interests, 
and greater agreement than disagreement, although I'm sure we 
will be involved in tough debate again over this year's budget.
    First, a brief overview. This budget proposes an overall 
increase in discretionary appropriations of 6.5 percent. The 
budget includes a healthy emphasis on the basic programs 
necessary for managing the agency's 192 million acres, which 
include a $30 billion infrastructure, 383,000 miles of road, 
74,000 authorized land uses, 23,000 developed recreation sites, 
and uncounted dispersed recreation sites. In addition, the 
budget proposes a substantial increase of $37.2 million to 
enhance the agency's leading role in forest and rangeland 
research. Finally, the budget proposes major increases in State 
and Private Forestry programs, which is a key element of the 
President's initiatives.

President and Department Priorities

    Let me turn now to the important priorities of this 
Administration. As you know, the President has proposed several 
initiatives in the fiscal year 2000 budget including two that 
were first initiated as part of the fiscal year 1999 budget. 
Principally, the President's goal in fiscal year 2000 is to 
develop Forest Service programs that help assure that all the 
nation's lands, not just National Forest lands, provide clean 
water for the taps of faucets, open spaces and expanded 
recreation opportunities for rural and urban residents alike, 
and improved sustainability of products, wildlife, and 
biodiversity on healthy public and private lands.
    Thus, the President has proposed the Lands Legacy 
Initiative, the largest one year investment ever in the 
preservation of America's lands, and the continuation of the 
Clean Water Action plan to continue to focus on priority 
watersheds where protection and improvement programs are so 
desperately needed.
    Madam Chairman, I believe the Lands Legacy Initiative is 
bold and essential for America as we enter the new millennium. 
This $1 billion program, which includes $217.6 million in 
Forest Service funding, will focus on working with states, 
tribes, local governments, and willing private partners to 
protect great places, conserve open space for recreation and 
wildlife, and to preserve forests, farmlands, and coastal 
areas. Currently, 30 million people live within an hour drive 
of national forest land. As the President noted in his State of 
the Union address, 7,000 acres of farmland and open space are 
lost every day. The number of tracts of forestland of 50 acres 
or less doubled from 1978 to 1994 as our landscape was carved 
into smaller pieces. Access to, and the health of, these lands 
is diminishing as a result of this fragmentation. To address 
these serious concerns, the President's budget proposes to 
significantly increase funding of the agency's State and 
Private Forestry Programs, with an increase of $80 million or 
48 percent over fiscal year 1999. With this increase we will 
focus on promoting the retention of open space and smart growth 
that will provide conservation opportunities and experiences 
for many additional millions of Americans.
    The Forest Service is the national expert at providing 
recreation to the public through family oriented recreation 
such the Sunday drive, weekend camping trip, short family hike, 
or week long backpack or rafting trips. The Lands Legacy 
initiative, through emphasis on State and Private Programs and 
increased Land Acquisitions promotes this type of recreational 
access as well promoting the availability of clean water, 
healthy watersheds, and open space. The national forests are 
the watersheds for more than 902 communities in 33 states. Many 
millions of additional people depend on water provided from 
other forested lands. Through emphasis on state and private 
partnerships, which promote smart growth acquisitions and 
easements, more Americans will be assured of long term access 
to public land and the clean water it provides.
    The fiscal year 2000 budget contains several additional 
initiatives that are important to note.
    As was proposed last year, the Administration again intends 
to forward legislation that will stabilize payments to states. 
I believe it is essential to provide these payments through a 
process that does not link the output of forest products to the 
education of our rural school children or the quality of the 
roads used by their parents. If enacted, the legislation will 
result in long term predictability of payments that the states 
and counties of America need.
    Other legislative initiatives are important aspects of this 
budget, including proposals to maximize return to the 
government for authorized uses of national forest land to 
improve forest visitor experiences. The President also will 
propose legislation which requires purchasers who harvest 
timber and special forest products from national forests, pay 
fair market value for these products and a greater share of the 
costs of managing these programs, thus reducing the use of 
appropriations.

Natural Resource Agenda

    The President's initiatives are fully compatible with the 
aggressive program initiated by Chief Dombeck last March which 
established the Natural Resource Agenda. I am proud to support 
this four point program which focuses agency attention on 
watershed protection and restoration, sustainable forest 
management, the forest service road system, and the critical 
recreation program.
    This budget strongly supports the Natural Resource Agenda 
with significant funding increases. Wildlife, grazing, fire, 
fisheries, and other programs increase by $48.6 million to 
support watershed health and restoration. Increased funding 
contained in this budget is essential for restoring and 
protecting watershed health.
    A second element of the agenda promotes sustainable forest 
management. With proposed budget increases of $113.2 million, 
programs such as Forest and Rangeland Research, in addition to 
the State and Private programs I have already mentioned, will 
engage coalitions among communities, conservationists, 
industry, and all levels of government to collaborate and 
integrate management of national forest lands with those 
practices on state, tribal, local and non-industrial private 
lands in order to promote long term land health.
    Management of the national forest road system is a third 
component of the Natural Resource Agenda. With a funding 
increase of $22.6 million, this road system, which is expansive 
enough to circle the globe more than 15 times, will receive 
critically needed funds for maintenance.
    As you know, Secretary Glickman recently announced a new 
interim rule for road management. While this issue is very 
contentious, all of us can agree that the national forest road 
system is critical to land health and is essential to meet the 
recreation and livelihood of millions of Americans. Simply put, 
I strongly support Chief Dombeck in his effort to significantly 
reduce new road building until we are better able to manage the 
road system we presently have. The President's budget will 
provide increased funds for road maintenance and allow the 
Forest Service to implement road management plans for America's 
long term access and land health needs.
    Lastly, as part of the Natural Resource Agenda, the 
President's budget continues to provide strong emphasis on 
recreation. The Forest Service is the largest supplier of 
recreation in the United States. We are pleased with the 
emphasis Congress has also shown in promoting recreation. The 
Recreation Fee Demonstration Program is one such example, and a 
resounding success. Through this program, we have improved 
facilities and the visitor's experiences at fee sites. However, 
I want to emphasize that 95 percent of recreational experiences 
on the national forests involve use of non-fee dispersed sites. 
The President's budget continues to emphasize this area of 
recreational use through appropriated funds. I strongly 
encourage your continued support of these appropriations in 
order to continue quality experiences for those who use the 
forests for highly dispersed activities, and who are either 
unable to pay for use of these sites, are not close to fee 
sites, or who desire to recreate in the undeveloped non-fee 
areas of the national forests.
    Also in support of the Natural Resource Agenda, I want to 
note that the Committee of Scientists, commissioned by the 
Secretary to review land and resource management planning 
processes, are soon to release their landmark report. Shortly 
thereafter the Forest Service will complete preparation of 
proposed land management planning regulations which will guide 
future revisions to land management plans. These regulations 
are long overdue. I am confident when implemented these 
regulations will result in a long-range planning framework 
suited to accomplish sound resource management in accordance 
with environmental laws and the mission of the Forest Service.

Forest Service Accountability

    The success of the Natural Resource Agenda and the 
initiatives proposed by the President are critical to long term 
health and conservation of the national forests and the 
nation's state, local, and non-industrial private lands. 
Effective Forest Service leadership is what will facilitate 
these long term successes. However, leadership will not be 
successful if the Forest Service does not aggressively address 
what can only be described as severe lapses in its financial 
management and overall performance accountability. As you know, 
the agency's financial health, decision making, and overall 
accountability has been scrutinized and extensively criticized 
in more than 20 studies initiated by Congress, the Department, 
and internally.
    Let me say, I have no doubt the Forest Service has got the 
message! Through reorganization and placement of professionals 
in top leadership positions, the agency has placed the 
financial management role in a position that assures attention 
and oversight in equal stature and priority to its natural 
resources management agenda. While I believe it is important 
for Congress to actively perform its oversight of the agency's 
financial condition, I believe it is also important to ask for 
some degree of patience. The agency's books and records took a 
decade or more to turn sour. It will take at least the rest of 
fiscal year 1999 to implement a new general ledger and at least 
through fiscal year 2000 to receive a clean financial opinion.
    Meanwhile, it is clear the Forest Service is taking action 
to improve. This includes paying detailed attention to 
management of indirect costs, restructuring the process for 
charging overhead to permanent and trust funds, and actively 
working on implementing performance measures consistent with 
the Results Act, which should ultimately lead to proposals for 
a revised budget structure that reflects the integrated nature 
of work it accomplishes on the ground.
    Madam Chairman, in my testimony today I have discussed 
important Presidential initiatives, the Natural Resource 
Agenda, and progress being made to improve agency 
accountability in relation to the fiscal year 2000 budget. 
These three areas represent important areas of change for the 
Forest Service as we approach the next century. I am confident 
that with your support we can work together to build a Forest 
Service program that accomplishes long term land health 
objectives, delivers clean water, provides quality access, 
assures diverse recreational opportunities for greater numbers 
of Americans, and continues providing strong livelihoods for 
communities for generations to come.
    Thank you for the opportunity to address you. I would be 
pleased to answer any questions you may have.
                                ------                                


  Statement of John E. Burns, Under Secretary, Natural Resources and 
                 Environment, Department of Agriculture

    Madam Chairman, members of the Subcommittee: Thank you for 
the opportunity to speak today. My name is John Burns. I reside 
in Carmen, Idaho and have been a member of the Idaho Fish & 
Game Commission since 1996. Following a 33 year career with the 
U.S. Forest Service I retired as Forest Supervisor of the 
Salmon National Forest in 1994. From 1980 to 1989 I was Forest 
Supervisor of the Targhee National Forest. The Targhee Land 
Management Plan was developed and implemented during that 
period.
    My purpose today is to provide some historical perspective 
which may be of value to the Subcommittee as you examine the 
questions of roads and wildlife on the Targhee. Indeed, those 
very questions were central to us when the Targhee LMP was 
prepared and we proceeded with the intensive lodgepole pine 
salvage program in the 1980's.
    First, a few words about the forest situation that existed 
when I was assigned to the Forest.
    An epidemic of pine bark beetles had killed several hundred 
thousand acres of lodgepole in the Island Park and surrounding 
plateau areas. The percentage of dead or dying trees exceeded 
80 percent in many localities, and the epidemic had not run its 
course. Those who did not see the forest as it was then can now 
hardly imagine the devastation.
    The lodgepole commonly grew in almost pure stands, and 
typically the trees were of similar size and age. This is a 
characteristic of lodgepole, which is particularly adapted to 
regeneration after fire. The tree has cones which remain closed 
until the tree is killed and heat causes them to open releasing 
seeds. As a result, fires which do not consume the tops and 
cones often result in a new forest of lodgepole.
    Also, in the Island Park and plateau areas the lodgepole 
stands do not normally give way to Douglas fir. Forest 
succession is arrested at the lodgepole seral stage due to a 
lack of cold air drainage in deep winter. Young Douglas fir are 
simply freeze dried--desiccated.
    This combination of factors--vast insect killed pine stands 
and the reproductive characteristics of the tree--led us to 
devise and propose a strategy that would reforest most of the 
Island Park and plateau area. It would also salvage most of the 
usable wood in its ``shelf life'' of ten to fifteen years 
before the dead trees fell over. At the same time, road 
construction and logging disturbance would be limited to a 
relatively small part of the 1.8 million acre Forest.
    Aside from the strategy of concentrating activity, we would 
replicate the effect of natural fire but without the damaging 
characteristics of wildfire. This would be done by cutting the 
trees in large blocks or clearcuts, removing the logs and 
letting the sun dry out the cones in the scattered tops or 
slash. Then using dozers with brush rakes to pile the slash 
while simultaneously scarifying the soil surface to expose 
mineral soil for the seed to germinate.
    Two other major considerations were involved. Much of the 
area in question was classified as grizzly bear habitat under 
the Yellowstone Guidelines, adopted without modification in the 
Forest plan. Most of the plateau country was Situation II due 
to the very scattered and scarce habitat components that 
support grizzlies. Some Situation III habitat was found in the 
northwestern part of Island Park, and a block of Situation I 
lay north and east of Henry's Lake.
    An intensive review of the Forest Plan, containing the 
roading and salvage logging plans, was conducted by the U.S. 
Fish & Wildlife Service. This resulted in a Section 7 finding 
of ``no jeopardy.'' In-large part this was due to the fact that 
the salvage program would focus in Situation II, and that area 
of the Targhee (the plateau country) was not considered capable 
of actually supporting resident grizzlies.
    Concurrently, the Targhee was involved in shifting sheep 
grazing out of the Situation I areas to avoid sheep-bear 
incidents. Typically, grizzlies would move out of the Park in 
early fall and take sheep prior to winter hibernation. Also, an 
intensive campaign was launched to eliminate bear attractants 
such as open dumps, associated with the large human population 
of Island Park. In addition, improved cleanup of highway killed 
deer, elk, and moose was accomplished. The net effect, of 
course, was that the major elements of food for grizzlies in 
the locality--livestock, garbage, and road kills--was 
eliminated. If bear use and sightings have since declined it 
should not be surprising.
    The second additional factor shaping the salvage and road 
program was elk. Most of the Island Park and plateau area was 
not elk habitat--summer or winter. The breaks of the plateaus 
and buttes, country dominated by Douglas fir, was good habitat, 
but the lodgepole country with little undergrowth and little 
surface water flow was not. Elk typically migrated across the 
area to their winter range in the Junipers and sandhills 
country west of St. Anthony quite rapidly, a matter of a few 
days.
    The principal concern relating to elk was increased 
vulnerability to hunter harvest as a result of more roads and 
less hiding cover. This question was examined in great detail 
considering such things as the acreage to be treated each year, 
the road miles to be built per year, and the speed of 
reforestation and tree growth. Our analyses indicated that the 
planned program would not adversely affect the elk population 
goals, but we did recognize that hunting limitations might be 
necessary to achieve other non-biological elk objectives such 
as numbers of mature bulls, etc.
    It should be noted that the large proportion of roads built 
would be closed by gates as soon as salvage activity was 
completed at the entry point. This was done, and incorporated a 
special informational signing program as to the reasons and 
benefits. The road system was designed such that periodic use 
for thinning and future harvests could be accomplished.
    A major additional benefit was realized as the lodgepole 
stands were treated. As much as 25 percent of the acreage 
contained not only new pines, but a flush of aspen growth due 
to the stimulation of dormant aspen clones under the lodgepole 
canopy. Other shrubby and herbacious species responded 
vigorously as well and the result was a much more diverse 
vegetative community. In turn, the wildlife responded and 
during the 1980 to 1989 period our monitoring found significant 
increases in populations.
    The elk herd wintering west of St. Anthony during that 
period increased by half, exceeding the target size of the 
herd. Moose and deer responded in similar fashion.
    It soon became obvious that hiding cover was rapidly 
reestablishing itself in the treated areas. In fact, the new 
stands of trees quickly were capable of concealing an elk and 
providing extremely challenging, if not almost impossible, 
hunting conditions.
    I am not informed on current forest analyses, but if the 
rate of growth in the 1990's approximates that of the 1980's 
the Island Park and plateau areas contain huge amounts of 
effective hiding cover as well as greatly improved vegetative 
diversity and production of desirable species for wildlife 
food.
    I would note that the bitter lesson of ignoring habitat 
management now faces the Idaho Fish & Game Commission in the 
Clearwater country in northern Idaho. What was once the finest 
elk herd in the State has crashed due in large part to 
predators and the inexorable decline in habitat capacity for 
big game when forests close in with maturity. Unfortunately, 
the need for active management is all too often ignored or even 
denigrated until disaster--be it insects, fire, or declining 
game herds--faces us.
    The Targhee program replaced a dead and dying forest with a 
new and vigorous vegetative community. It supports an equally 
vigorous wildlife community and can no doubt do so for several 
more decades before drastic action is once again required. In 
the meantime, experience suggests the means to manage the 
forest on a continuing basis should be carefully maintained and 
utilized.
    The Idaho Fish & Game Department has recently developed a 
new generation of elk and deer management plans which address 
all aspects of our herd objectives. I am sure Department 
personnel would be happy to work with the Federal agencies to 
evaluate the effects of any specific planned forest management 
actions in relation to those objectives.
    That concludes my comments. I will be happy to respond to 
any questions you may have. Thank you.
    References: I suggest the Subcommittee obtain and examine 
the following document and detailed large-scale map packet.
    The Greater Yellowstone Area An Aggregation of Natl. Park 
and Natl. Forest Mgt. Plans Coordinated by Targhee National 
Forest Planning Staff Published 1987
                                ------                                


    Statement of Janice M. Brown, Executive Director, Henry's Fork 
                               Foundation

    Honorable Congressman Chenoweth, Committee members and 
other elected officials.
    My name is Janice Brown, and I am testifying on behalf of 
the Henry's Fork Foundation, a nonprofit conservation 
organization based in Ashton, Idaho. Our mission is to 
``understand, restore and protect the unique fishery, wildlife 
and aesthetic qualities of the Henry's Fork of the Snake 
River.'' The Henry's Fork watershed comprises 1.7 million acres 
in Idaho's Fremont, Teton and Madison counties, plus that 
portion of Wyoming's Teton County on the west slope of the 
Tetons and the southeast corner of Yellowstone National Park. 
According to Idaho's Comprehensive State Water Plan for the 
Henry's Fork Basin (1992), there are over 3,000 miles of 
rivers, streams and irrigation canals in this watershed, with 
almost all originating on National Forest land administered by 
the Targhee National Forest. Approximately half of the entire 
basin is publicly owned land, with a full 70 percent in Fremont 
County where our office is located.
    The Henry's Fork Foundation was formed in 1984 by Idaho 
anglers concerned with the apparent decline of the Henry's Fork 
wild rainbow trout fishery. Since then the organization has 
expanded to 1,700 members in 48 states and six countries who 
support the collaborative, scientific approach for which the 
Foundation has become known. Our program of integrated 
research, restoration and stewardship has resulted in a number 
of habitat improvements within the watershed and increasing 
trout populations. Our commitment to education and public 
outreach is reflected in five years of cofacilitating the 
Henry's Fork Watershed Council in conjunction with the farmers 
of the Fremont-Madison Irrigation District. We firmly believe 
that local, participatory forums such as the Watershed Council 
can constructively involve all citizens, scientists and 
government agencies while honoring the environmental laws and 
regulations so necessary to sustainable resource management.
    I wish to focus my testimony on the relationship between 
road access and fisheries, water quality and stream channel 
morphology within and downstream of the Targhee National 
Forest. But before our concerns are detailed, it is important 
to present the larger, historical context of this issue.
    Interestingly, prior to 1960 there were relatively few 
roads on the Forest and the off-road vehicles so common today 
were not widely available for recreation purposes. Prior to the 
1960s, most of the recreation in the Island Park area was 
focused on fishing and had been so since the late 1800s when 
the native Yellowstone cutthroat trout was commercially 
harvested in Henry's Lake and the vicinity. In order to protect 
the native fish from exploitation, the new Idaho Fish and Game 
placed their first conservation officer in Island Park near the 
turn of the century. Rainbow trout were introduced for both 
commercial and sport fishing, with several entrepreneurs 
engaged in trout farming using the rich, natural springs so 
characteristic of the area. In the early 1900s, several fishing 
clubs were established along the Upper Henry's Fork, and many 
descendants of the earliest club members are active with the 
Foundation today. The famous Railroad Ranch--now Harriman State 
Park--had been purchased as a fishing and hunting reserve by a 
consortium of investors prior to 1900, including three 
Guggenheim brothers, and the Harrimans of Union Pacific 
railroad fame became involved in 1906.
    Enlargement of Henry's Lake in 1925 and construction of the 
Island Park Reservoir in the late 1930s created important 
irrigation storage for downstream farmers, but also enhanced 
the Island Park fisheries. A mixing of waters occurs in these 
reservoirs, combining the nutrient-rich waters running off the 
Henry's Lake and Centennial mountains with the pure spring 
waters emerging beneath the volcanic plateaus to the east. The 
result is a diverse and abundant aquatic insect community, 
which is a rich food source for trout and accounts for the 
enormous size of fish in the Island Park area. Although there 
has been much controversy in recent years about how to best 
manage these trout populations and the nature of fishing 
regulations, there is little question that high quality habitat 
and the connectivity of tributary streams to the main stem 
rivers is essential to maintain the Henry's Fork status as a 
world-class trout fishery.
    The summer recreational economy in Island Park is directly 
dependent on these outstanding angling opportunities, as a 1996 
study conducted by Weber State University illustrates. Over 300 
bait and fly anglers were interviewed throughout Island Park to 
determine their recreation and expenditure patterns. The study 
estimated the value of a day's fishing between $200 and $300 
per person, and that the average group travels 560 miles each 
way to Island Park. Previous studies of those using outfitter 
services indicate even higher expenditures. There has been a 
marked rise in construction of recreational summer homes in 
Island Park since 1992, with $151 million invested in home 
construction in 1998 alone.
    Because the rivers and streams of the Targhee National 
Forest are so vital to the economy and well being of those 
living and recreating in the Henry's Fork watershed, it is 
incumbent on the Forest Service to invest more time and money 
in protecting these valuable resources. We are generally 
pleased that protection of aquatic influence zones and native 
fishes received increased attention in the revised Forest Plan, 
as HFF participated in the public involvement process and 
submitted comments on the draft plan. However, we are concerned 
that the issue of access management has focused on human 
recreational desires and conflicts rather than the essential 
issue of soil stability and watershed health. Although the 
Targhee has not experienced the severe landslides and mass 
movement characteristic of North Idaho and the Cascades, it 
would be erroneous to assume that there are few erosion 
problems on the Targhee road system.
    In a 1966 report, the well-respected Forest Service 
research hydrologist Walt Megahan notes his concerns about the 
road building that was underway to accommodate the huge Moose 
Creek salvage sale that would support the St. Anthony stud mill 
for 25 years to come. Although he was asked to estimate changes 
in water yields that might occur from such widespread 
clearcutting on the Moose Creek Plateau, he also commented on 
the evidence he observed of stream sedimentation caused by 
roads:

          I had only a few hours observation on the Moose Creek 
        Plateau; however, these were enough to provide some distinct 
        observations that are worthy of mention. I felt that many of 
        the soils and subsoils that were encountered along the roads on 
        the Moose Creek Plateau are among the most erodible I have seen 
        in the [Intermountain] Region. This is to be expected, 
        considering the nature of many of the parent materials 
        described earlier in this report.
          Wherever erosion hazards in the area are high due to steeper 
        slopes developed by road construction, increased runoff due to 
        road construction etc, the actual erosion rates are high. The 
        roads appeared to be causing most of the damage; there appeared 
        to be little problem on the existing clearcut areas.
          Presently, the eroded material is being carried down to 
        intermittent stream channels and being deposited. Flows in 
        these channels could carry this material downstream and 
        possibly to the perennial streams. An unusual climatic event or 
        increased flows due to timber cutting or both could cause such 
        flows. It is even possible that such flows occur commonly on a 
        yearly basis.
          Actually, the nature of the country on the Moose Creek 
        Plateau is such that roads could be fitted to the terrain quite 
        effectively and thereby reduce much of their impact. This has 
        not been done for the most part on the existing roads.
    Evidence of the poor road conditions became apparent following the 
1988 fire season when a 17,000-acre ``slop-over'' from the North Fork 
Fire burned the upper watershed of Moose and Chick creeks. A northern 
segment of the Fish Creek Road and the entire Black Canyon loop road 
were long closed to travel because of the damage caused to roads during 
spring runoff and thunderstorm events.
    With the advent of access management on the Targhee came the 
welcome prospect of road decommissioning and obliteration to eliminate 
logging roads no longer needed for accessing timber. It was clear to 
Fish and Game officials that the reduced forest cover had affected elk 
hunting opportunity on the Targhee and that grizzly bear habitat was 
also marginalized. Few had anticipated the boom in off-road vehicle use 
that would result in a backlash from those who over the past two 
decades had become accustomed to using old logging roads and traveling 
cross-country across public lands. Almost lost in the debate between 
wildlife habitat needs and demand for access was the lingering problem 
with road cuts, eroding road beds and poorly maintained stream 
crossings.
    The recent listing petition for Yellowstone cutthroat has brought 
the issue of road impacts to streams back to the forefront, as has the 
recent completion of the native trout inventory cooperatively conducted 
by the Henry's Fork Foundation and Targhee National Forest. Of the 112 
streams surveyed on the Dubois, Island Park Ashton and Teton districts 
of the Targhee, ten streams hold only Yellowstone Cutthroat trout and 
23 streams held cutthroat in addition to other salmonid species. These 
23 are in danger of losing their cutthroat component given the observed 
trend for nonnative brook and rainbow to outcompete the native species. 
The ten streams that hold only cutthroat should be isolated from future 
timber sales and human access to reduce the risk of sedimentation, with 
road obliteration a high priority (unless the barrier protecting the 
population is itself a road crossing).
    Because the Foundation's interest lies in restoring watersheds to 
health wherever possible, we support Alternative 3M- in the DEIS and 
urge Congress to make funding for the following recommendations among 
your highest priorities for the U.S. Forest Service budget:

    1. Properly inventory those roads that require stabilization or 
obliteration. The Travel Plan DEIS as presented is only an access 
management plan and does not consider long-term stability of the road 
system. It does not analyze alternatives of partial or complete 
obliteration that may be needed in some locations to adequately protect 
aquatic ecosystems and Yellowstone Cutthroat Trout. Use of gates or 
tank traps to limit human access do little to resolve erosional 
problems and may in some cases exacerbate current instability. It 
appears that the application of scientific expertise to the problem of 
road erosion has been limited thus far on the Targhee, and we recommend 
that a greater effort be made. The HFF is also willing to assist in 
restoration planning and implementation. In addition, the Forest has 
not satisfactorily distinguished those system roads needed for future 
timber sales from those roads that should be decommissioned with 
partial or full obliteration.
    2. Implement an adequate stream monitoring program for those 
streams most vulnerable to erosion or other human impacts. Most forests 
have few resources to engage in long-term monitoring to assess the 
results of their activities. States are required to keep tabs on stream 
health according to Section 303(d) of the Clean Water Act, and the 
Forest Service should assist state officials by monitoring those 
streams originating on public land. It will be especially important to 
monitor those streams with Yellowstone cutthroat that may play a role 
in providing transplants to fishless streams.
    3. Provide adequate funding for enforcement of travel restrictions. 
Few of the agreed-upon road closures will ultimately succeed without 
sufficient enforcement actions that convey the seriousness of access 
management. It will be critical that those who choose to violate road 
or area closures be apprehended and held accountable for their illegal 
actions.
    Thank you for the opportunity to testify on behalf of those HFF 
members who consider an angling experience on the Henry's Fork to be 
among the most important recreational experiences provided by our 
National Forest system.
                                 ______
                                 
   Statement of Jack A. Blackwell, Regional Forester, Intermountain 
                      Region, USDA Forest Service
    MADAM CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    Thank you for the opportunity to be here with you today to discuss 
travel management on the Targhee National Forest.
    The recent actions on the Targhee National Forest to close roads 
with earth berms within grizzly bear management units (BMUs) have 
generated considerable public interest. The Forest Service constructed 
these closures to meet requirements set forth in the U.S. Fish and 
Wildlife Service biological opinion for the Revised Forest Plan and did 
so only after long intensive public involvement.
    While addressing immediate needs in the BMUs, forest personnel 
continue to work on a travel management plan for the entire forest 
based on the Revised Forest Plan. The extensive forest road system 
constructed primarily to extract timber has served its purpose and is 
larger than what is feasible to safely maintain. Poorly located and 
maintained roads reduce water quality, fish and wildlife habitat, and 
soil stability. Through travel management planning, forest personnel 
are working to identify a safe maintainable road system that continues 
to provide access for a wide variety of activities such as recreation, 
grazing, and timber harvest while improving habitat conditions for 
grizzly bears, elk, and cutthroat trout.
    I will summarize some key points regarding the Targhee travel 
management planning process and then would be happy to answer your 
questions.

Targhee Revised Land and Resource Management Plan (Forest Plan)

    The Forest Service completed the Revised Forest Plan in April 1997 
after 7 years of hard work and with extensive public involvement. The 
revision addressed the extensive road system the Targhee built in the 
1970s and 1980s, much of which has served its purpose and is no longer 
needed for timber harvest. Therefore, the issue became how much of the 
road system should be maintained for other uses.
    Because the public identified access as a major issue, the Forest 
Service developed a specific travel plan to accompany each of the seven 
alternatives considered in the Revised Forest Plan Environmental Impact 
Statement (EIS). The Revised Forest Plan established motorized road and 
trail density standards for each management prescription area and also 
designated areas open for cross country motorized use.
    Balancing motorized access and other key resource concerns, 
particularly wildlife and fish, was the major focus for the revision of 
the Targhee Forest Plan; to reach that balance, the Forest Service 
addressed these concerns:

        (1) The need to develop a comprehensive grizzly bear habitat 
        management strategy in response to the settlement of a 1994 
        lawsuit regarding roading and logging in the grizzly bear 
        recovery area;
        (2) The need to meet the Idaho Department of Fish and Game elk 
        vulnerability goals by improving elk security and reducing 
        vulnerability of mature bull elk;
        (3) The need to improve water quality to reduce the likelihood 
        the Yellowstone Cutthroat Trout would be listed as endangered 
        species; and
        (4) The desire to produce a travel management plan to provide a 
        reasonable mix of motorized and non-motorized recreation 
        opportunities while meeting the habitat needs of grizzly bears, 
        elk, and other species.

Targhee Travel Plan Decision and Remand on Appeal

    The Forest Supervisor signed the Record of Decision for the travel 
plan, implementing direction from the Revised Forest Plan, on August 
15, 1997. Citizens for a User Friendly Forest (CUFF) and the Blue 
Ribbon Coalition (BRC) appealed the decision and the deciding officer 
partially remanded the decision to the Forest Supervisor in January 
1998.
    The remand directed the Supervisor:

        to keep the Revised Forest Plan direction, including road 
        density and cross country motorized use standards, that guide 
        the travel plan;
        to implement the winter travel plan;
        to prepare a new analysis of roads and trails open to summer 
        motorized access;
        to address RS 2477 assertions made by several counties; and
        to get more public involvement and analyze the site-specific 
        effects of individual roads and trails.
    After working with the counties on the RS 2477 issue and reviewing 
all comments regarding specific roads and trails, the Forest Supervisor 
released a new Travel Plan Draft EIS in late November, 1998. The 
supervisor analyzed four alternative networks of roads and trails open 
to summer motorized use. The Forest also held several public meetings 
and the comment period on the draft EIS was extended to March 5, 1999. 
The Forest Service expects to complete the final EIS and travel plan in 
June, 1999.
    The preferred alternative in the forest travel management plan 
draft EIS would provide 1,672 miles of road and 536 miles of trails 
open to summer motorized use and 862 miles of trails to foot and horse 
travel. By the end of 1999, the forest would close a total of 939 miles 
of roads, 466 miles inside grizzly BMUs, of which 398 miles were closed 
in 1998, and 473 miles would be closed outside the BMUs.
    While continuing to provide a good mix of recreation opportunities, 
the Forest also plans to improve management of the road system by:

        (1) reducing maintenance needs thus focusing its limited 
        maintenance and reconstruction dollars on the higher 
        priorities;
        (2) restoring soils and water quality that poorly located and 
        maintained roads and trails cause;
        (3) providing secure habitat for recovery of the grizzly bear 
        by implementing the travel plan in concert with other forest 
        plan standards and guidelines;
        (4) restoring the habitat in cutthroat trout watersheds to help 
        prevent listing under the Endangered Species Act;
        (5) providing flexibility to choose management options, such as 
        timber sales, to meet vegetation objectives within the BMUs; 
        and
        (6) meeting the elk vulnerability goals of the Idaho Department 
        of Fish and Game.

    Relation of Road Closures to the Biological Opinion on the Revised 
Forest Plan

    Effective road closures in the grizzly bear recovery area relate 
directly to the Forest Plan Biological Opinion provided by the U.S. 
Fish and Wildlife Service. This requires the Forest Supervisor to 
achieve the Revised Forest Plan road density standards within the 
grizzly bear recovery area by the end of calendar year 1999.
    To meet those goals, the following standards developed in 
accordance with the definitions in the Interagency Grizzly Bear 
Committee (IGBC) Task Force Report on Grizzly Bear/Motorized Access 
Management apply to each BMU, except the developed area around Macks 
Inn in Grizzly Bear Management Situation 3:

        (1) no more than 0.6 miles of roads and trails will be open to 
        motorized use per square mile of land in each BMU; and
        (2) the combination of open roads, trails, and restricted 
        routes--such as gated roads--may not be more than 1.0 mile per 
        square mile.
    Compliance with the second standard will require the Forest Service 
to effectively close some routes, not just gating them.
    In the remand of the travel plan, the Forest Supervisor had the 
option to issue an interim closure order in the BMUs to comply with the 
density standards in the Revised Forest Plan and the time frames 
established by the Biological Opinion and did so on March 24, 1998. 
Last summer forest personnel began to close roads, within the BMUs, 
necessary to comply with the biological opinion. Closures were started 
in 1998 to ensure that they would be completed by the end of the 
calendar year 1999. While the majority of these routes were already 
closed to motorized use by gates, gates alone do not assure that they 
will no longer be used. The Forest may make some minor adjustments as a 
result of the new travel plan EIS, but it must meet the open road 
density standards in grizzly BMUs.

Method of Road Closure

    Much of the controversy, which developed this past year, relates to 
the method the Forest used to close the roads in the BMUs. In most 
cases, the Forest used large earth berms, the most effective way of 
closing roads to meet grizzly bear habitat standards.
    However, some forest users have told us that the berms also limit 
other recreation activities. Snowmobilers, in particular, have 
expressed concerns that these berms could affect their safety. To 
address these concerns, forest personnel have worked extensively this 
fall and winter with the Idaho Snowmachine Association and local 
snowmachine organizations to provide signing and other information to 
alert snowmobilers. As a result, forest personnel have modified some 
berms in key snowmobile areas in the situation 3 area near Macks Inn, 
while still meeting the objective of restricting summer motorized 
access. Outside the BMUs the Forest has more options on how to close 
roads, and we will continue to work with interested citizens to address 
the least disruptive ways to close roads.
    Madam Chairman, this concludes my statement. I will be happy to 
answer questions you may have.

[GRAPHIC] [TIFF OMITTED] 55181.009

[GRAPHIC] [TIFF OMITTED] 55181.010

[GRAPHIC] [TIFF OMITTED] 55181.011

[GRAPHIC] [TIFF OMITTED] 55181.012

[GRAPHIC] [TIFF OMITTED] 55181.013

[GRAPHIC] [TIFF OMITTED] 55181.014

[GRAPHIC] [TIFF OMITTED] 55181.015

[GRAPHIC] [TIFF OMITTED] 55181.016

[GRAPHIC] [TIFF OMITTED] 55181.017

[GRAPHIC] [TIFF OMITTED] 55181.018

[GRAPHIC] [TIFF OMITTED] 55181.019

[GRAPHIC] [TIFF OMITTED] 55181.020

[GRAPHIC] [TIFF OMITTED] 55181.021

[GRAPHIC] [TIFF OMITTED] 55181.022

[GRAPHIC] [TIFF OMITTED] 55181.023

[GRAPHIC] [TIFF OMITTED] 55181.024

[GRAPHIC] [TIFF OMITTED] 55181.025

[GRAPHIC] [TIFF OMITTED] 55181.026

[GRAPHIC] [TIFF OMITTED] 55181.027

[GRAPHIC] [TIFF OMITTED] 55181.028

[GRAPHIC] [TIFF OMITTED] 55181.029

[GRAPHIC] [TIFF OMITTED] 55181.030

[GRAPHIC] [TIFF OMITTED] 55181.031

[GRAPHIC] [TIFF OMITTED] 55181.032

[GRAPHIC] [TIFF OMITTED] 55181.033

[GRAPHIC] [TIFF OMITTED] 55181.034

[GRAPHIC] [TIFF OMITTED] 55181.035

[GRAPHIC] [TIFF OMITTED] 55181.036

[GRAPHIC] [TIFF OMITTED] 55181.037

[GRAPHIC] [TIFF OMITTED] 55181.038

[GRAPHIC] [TIFF OMITTED] 55181.039

[GRAPHIC] [TIFF OMITTED] 55181.040

[GRAPHIC] [TIFF OMITTED] 55181.041

[GRAPHIC] [TIFF OMITTED] 55181.042

[GRAPHIC] [TIFF OMITTED] 55181.043

[GRAPHIC] [TIFF OMITTED] 55181.044

[GRAPHIC] [TIFF OMITTED] 55181.045

[GRAPHIC] [TIFF OMITTED] 55181.046

[GRAPHIC] [TIFF OMITTED] 55181.047

[GRAPHIC] [TIFF OMITTED] 55181.048

[GRAPHIC] [TIFF OMITTED] 55181.049

[GRAPHIC] [TIFF OMITTED] 55181.050

[GRAPHIC] [TIFF OMITTED] 55181.051

[GRAPHIC] [TIFF OMITTED] 55181.052

[GRAPHIC] [TIFF OMITTED] 55181.053

[GRAPHIC] [TIFF OMITTED] 55181.054

[GRAPHIC] [TIFF OMITTED] 55181.055

[GRAPHIC] [TIFF OMITTED] 55181.056

[GRAPHIC] [TIFF OMITTED] 55181.057

[GRAPHIC] [TIFF OMITTED] 55181.058

[GRAPHIC] [TIFF OMITTED] 55181.059

[GRAPHIC] [TIFF OMITTED] 55181.060

[GRAPHIC] [TIFF OMITTED] 55181.061

[GRAPHIC] [TIFF OMITTED] 55181.062

[GRAPHIC] [TIFF OMITTED] 55181.063

[GRAPHIC] [TIFF OMITTED] 55181.064

[GRAPHIC] [TIFF OMITTED] 55181.065

[GRAPHIC] [TIFF OMITTED] 55181.066


</pre></body></html>
